<html>
<title> - DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, AND EDUCATION, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2019</title>
<body><pre>[Senate Hearing 115-]
[From the U.S. Government Publishing Office]



 
  DEPARTMENTS OF LABOR, HEALTH AND HUMAN SERVICES, AND EDUCATION, AND 
          RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2019

                              ----------                              


                        THURSDAY, APRIL 12, 2018

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:20 a.m., in room SD-124, Dirksen 
Senate Office Building, Hon. Roy Blunt (chairman) presiding.
    Present: Senators Blunt, Alexander, Capito, Kennedy, 
Murray, Baldwin, Murphy, and Manchin.

                          DEPARTMENT OF LABOR

                        Office of the Secretary

STATEMENT OF HON. R. ALEXANDER ACOSTA, SECRETARY


                 opening statement of senator roy blunt


    Senator Blunt. The Appropriations Subcommittee on Labor, 
Health and Human Services, and Education, and Related Agencies 
will come to order.
    Secretary Acosta, we are certainly glad you are here with 
us today to talk about the Department of Labor's request. I 
know you are in the last month of your first year and I will 
say, I think your work at the Department has made a big 
difference.
    We have actually now confirmed one person of the nominees 
that have been appointed to come and help you at the confirmed 
level, and hopefully we can do more of that before long.
    But your ability to deal with the process, to insist on 
timing that makes sense, I know is appreciated by me and our 
committee. The President must also think you are doing a great 
job because he thinks you can do it with 11 percent less money 
next year than you had last year and we will see how that goes.
    We look forward to your testimony, to your discussion of 
your priorities, and new proposals that you have seen in the 
last year that will make a difference at the Department.
    Certainly the economic news, the strength of the economy, 
the strength of the unemployment numbers, and even better, 
obviously, the employment numbers; 4.1 percent unemployment is 
the lowest in 17 years.
    While the low unemployment rate is good news, I think we 
all should continue to be concerned that many Americans are 
still underemployed, and many Americans have just simply given 
up on looking for work. We are going to turn to you for ways we 
can deal with that in a better way and also your views on how 
we can prepare the workforce for the jobs that are likely to be 
out there. I know we have had discussions in the past about 
looking at employment assistance and things besides just 
traditional higher education.
    In energy, healthcare, and agriculture, there are obvious 
areas of growth that are going to be out there in our economy, 
and we want to be sure we have a skilled workforce that has the 
skills necessary for the jobs that are going to be there.
    I think regulation was overreaching in the last several 
years and your efforts to look at the regulations that are out 
there, and to see what needs to be done about them, are 
appreciated by me. And I think our whole committee is more than 
willing to look at those regulations, work with you to 
eliminate regulations that provide little benefit or no benefit 
and maybe stand in the way of people having the kinds of jobs, 
the good paying jobs, they would like to have.
    Response to the tax bill, at least where I live, has been 
very good, and I think it has been very good in the country for 
a number of companies, big and small, moving forward.
    Last week, near my hometown in Springfield, Missouri, I was 
looking at a solar company that just announced they were going 
to add 30 jobs and expand their operations in both Springfield 
and Kansas City. Another company, Mid-Am Metal Forming has 140 
employees in Rogersville, Missouri. All their employees will 
receive a cash bonus this year.
    I think when you talk to those employers, it is in 
anticipation of maintaining a great workforce in a growing 
economy. We want to continue to see that, whether in Missouri 
it is Wal-Mart, or Boeing, or that 140-employee company in 
Rogersville, Missouri, those things are happening.
    We are glad you are here to talk about what we can do to 
prepare workers for higher skilled jobs, to help those who have 
lost their jobs get back on their feet, to protect workers' 
rights and benefits, and to support a safe and productive 
workplace.
    [The statement follows:]
                Prepared Statement of Senator Roy Blunt
    Good morning. Thank you, Secretary Acosta, for appearing before the 
Subcommittee today to discuss the Department of Labor's fiscal year 
2019 budget request.
    The Department's request, once again, is under significant 
budgetary constraints this year. The proposal reduces funding for the 
Department by $1.3 billion, a decrease of 11 percent.
    We look forward to hearing your testimony and discussing your 
priorities, new proposals, and programs you think we should consider 
scaling back.
    Last week we continued to receive good news about the strength of 
the American economy, with the unemployment rate remaining steady at 
4.1 percent--its lowest level in over 17 years. However, millions of 
Americans are still underemployed or have stopped looking for work 
altogether.
    We need to make sure that Americans have access to training 
programs--especially those that provide on-the-job training and those 
focused on in-demand jobs like healthcare and energy.
    Having a highly-skilled workforce is critical, but it is only half 
of the equation. We must also continue advancing common-sense solutions 
to create an economic environment where businesses can thrive and 
create good, well-paying jobs.
    As we saw with the last Administration, excessive government 
regulations and overreach are major impediments to job growth.
    To grow the economy and decrease unemployment, we must rein in 
unnecessary regulatory burdens that make it harder for businesses to 
create jobs.
    The Senate, working with the Administration, has taken important 
steps toward eliminating regulations that provide little to no benefit. 
Teamed with the recently passed tax reform bill, we will continue 
working to ensure our job creators can succeed.
    In my home State of Missouri, companies are expanding the 
workforce, growing their businesses, and showing their employees how 
much they're valued in a growing economy.
    Just last week, a Springfield-based solar company announced it will 
add 30 jobs and expand operations in the Springfield and Kansas-city 
areas. Every one of Mid-AM Metal Forming's 140 employees in 
Rogersville, Missouri will receive a cash bonus this year. Larger 
companies, like Walmart and Boeing, are expanding benefits and planning 
major new capital investments.
    This has been a year of significant growth and record optimism for 
the U.S. economy and the American workforce. We need to make sure the 
Federal Government continues to support programs to prepare workers for 
higher skill jobs, help those who have lost their jobs get back on 
their feet, protect workers' rights and benefits, and support safe and 
productive workplaces.
    As the fiscal year 2019 appropriations process moves forward, I 
know we will continue to work together to identify priorities and find 
common ground on how best to responsibly allocate taxpayers' resources.
    Thank you.

    Senator Blunt. I am glad to be joined by my partner in this 
effort, Senator Murray. And Senator Murray, let us go to you 
for your opening statement.

                   STATEMENT OF SENATOR PATTY MURRAY

    Senator Murray. Well, thank you very much, Chairman Blunt.
    Welcome, Secretary Acosta. Good to have you here today.
    At the outset, I do want to express my hope that 
Republicans and Democrats will come together to reject this 
budget, President Trump's fiscal year 2019 budget. Just as we 
rejected the deep cuts that were proposed to workforce programs 
in his 2018 budget, which is a clear signal of the bipartisan 
support we have here for those investments.
    I also hope Republicans will stand with Democrats in 
vigorously opposing any effort to undo the 2018 omnibus bill we 
passed and the President signed only this month because, 
frankly, this budget in front of us shows just how far apart 
the Trump Administration's priorities are from what Congress 
just agreed on and sent to the President.
    President Trump, it seems, is willing to explode our debt 
and deficit to give billionaires and corporations a massive tax 
giveaway, all the while gutting programs working families rely 
on to get ahead.
    We have all seen the tweets and heard the rhetoric about 
President Trump's promise to put workers first. Yet, the 
reality is this budget proposes to cut high quality workforce 
training programs that help our workers get good jobs and 
improve the efficiency of businesses and grow our economy.
    Connecting workers to good jobs and employers to a skilled 
workforce has been the Department of Labor's central mission 
for decades. Yet, this budget proposes more than $1 billion in 
cuts to the Department's employment and training programs.
    Mr. Secretary, the President's budget would mean that 
millions of workers, including dislocated coalminers and 
veterans, could lose access to these critical services next 
year. The Department's own data shows that more than 5 million 
private sector jobs were unfilled at the start of this year.
    If the Administration were serious about its commitment to 
our country's workforce, it would strive to get that number as 
low as possible instead of its deficit-busting drive to reduce 
the corporate tax rate.

                   REGISTERED APPRENTICESHIP PROGRAM

    Mr. Secretary, you know the Registered Apprenticeship 
program is a top priority of mine, which is why I am very 
pleased we were able to increase the funding by over 50 percent 
in the 2018 omnibus.
    Yet, I do remain greatly concerned about the 
Administration's efforts to weaken the program by attempting to 
create a duplicative, nonregistered program that would allow 
unqualified for-profits and business groups to certify 
unaccountable, low wage and lower quality apprenticeships.
    The 2018 omnibus is clear: the funding provided is for 
expanding registered apprenticeship opportunities.
    Evidence clearly shows that over 90 percent of apprentices 
are employed after completing these programs with starting 
wages above $60,000 and for every dollar spent on 
apprenticeships, employers get an average of $1.47 back in 
increased productivity and greater frontline innovation.
    It is critical that Federal dollars are focused where there 
is strong evidence and a return on investment rather than on 
duplicative systems that do not guarantee quality training and 
provide fewer safeguards for workers and employers.
    And the budget not only fails to adequately invest in the 
skills of our workforce, it also falls short of what is needed 
to ensure workers receive the protection of our labor laws that 
make sure workers have fundamental rights at work, including 
the right to a fair day's pay for a hard day's work, and a 
right to a safe workplace.

                       PROPOSED TIP POOLING RULE

    Mr. Secretary, I am glad we were able to work together to 
come to an agreement after your Department proposed a rule that 
would have allowed employers to steal workers' tips, and I 
appreciate your work on that.
    But I am still concerned the Wage and Hour Division is 
understaffed, making it unable to fully enforce important 
protections including the new protection for workers' tips, 
equal pay protections, leave protected under the Family and 
Medical Leave Act, and more.

                         CUTS TO WOMEN'S BUREAU

    The Department's Women's Bureau also plays a critical role 
with respect to gender-based pay discrimination, paid leave, 
protection for workers who are pregnant, and so many other 
critical issues for working women. Unfortunately, this budget 
inexplicably slashes the Bureau's funding 74 percent below the 
level we provided for the current year.
    And finally, I am troubled the Administration is using this 
budget to advance the Trump Care agenda proposing an 
Association Health Plan rule that will allow fly-by-night 
operators to sell junk coverage that do not comply with 
consumer protections, further undermining families' healthcare 
and raising costs for people with preexisting conditions.
    So Mr. Chairman, thank you for this opportunity today. I 
look forward to working with you to continue our practice, over 
the last 2 years, of rejecting devastating cuts and continuing 
needed investments in programs that both train and protect our 
Nation's workers.
    Thank you.
    Senator Blunt. Thank you, Senator Murray.
    Secretary Acosta, we are pleased to have you here today, 
and if you would like to start with an opening statement, this 
would be a good time to do that.

             SUMMARY STATEMENT OF HON. R. ALEXANDER ACOSTA

    Secretary Acosta. Mr. Chairman and Ranking Member Murray, 
thank you for your opening statements. Members of the 
Subcommittee, thank you for being here.
    I am pleased to appear before you to discuss the important 
work of the Department of Labor and its proposed budget for the 
upcoming fiscal year.
    In its first year, the Trump Administration delivered 
strong opportunities for American workers, American job 
seekers, and American job creators. At the Department, 2017 was 
also a busy and productive year. I would like to offer some 
data, if I could.

              DEPARTMENT OF LABOR ACCOMPLISHMENTS IN 2017

    The Employment Benefit Security Administration, EBSA, 
recovered nearly $700 million in enforcement actions, obtained 
93 criminal indictments, and recovered an additional $437 
million on behalf of nearly 400,000 plan participants and 
beneficiaries.
    The Mine Safety and Health Administration fulfilled fully 
its statutory mandate to inspect all underground mines four 
times per year and all surface mines two times per year. And 
combined with additional non-mandatory inspections, conducted 
more than 40,000; actually, nearly 43,000 inspections.
    OSHA (Occupational Safety and Health Administration) 
conducted nearly 32,000 inspections, and that is a particularly 
important figure because 2017 marked the first time in 5 years 
that inspections increased year over year despite suspension of 
enforcement for short periods of time in certain regions during 
hurricane recovery efforts.
    The Office of Federal Contract Compliance Programs obtained 
more than $30 million in monetary remedies for more than 17,000 
job seekers and employees--an average of about $1,700 per 
person--and reached the largest pay discrimination settlement 
in more than a decade. A corporation agreed to pay $5 million 
in back wages and interest to settle allegations of 
discrimination against 300 women.
    The Office of Labor Management Standards, OLMS, 
investigated 121 union officer elections after complaints of 
violations, conducted 265 criminal investigations, and recorded 
82 indictments.
    The Office of Workers' Compensation Programs implemented 
aggressive program integrity and pharmaceutical cost control 
measures that resulted in paying $221 million less in payments 
than in 2016 as a result of the Office of Workers' Compensation 
Programs' program integrity efforts.
    The Wage and Hour Division recovered more than $269 million 
back wages for more than 241,000 employees--an average of about 
$1,100 per employee--and conducted more than 29,000 cases.

                UPCOMING DEPARTMENT OF LABOR ACTIVITIES

    The Department looks forward to an equally productive year 
in 2018. I would like to highlight a few programs in 
particular.
    With respect to mine operators, most mine operators are 
serious about safety and remedy issues when they arise. 
However, some mine operators have chosen not to pay their 
fines. And so, we did an audit and we discovered that there are 
$67 million in unpaid fines at MSHA (Mine Safety and Health 
Administration) that have accrued since 2007.
    Now, Americans know when they get a parking ticket, they 
need to pay their fine. The fact that for the last several 
years these mining operators were not paying their fines, I 
think is deeply troubling.
    And so, we have started a program in the last several weeks 
that focuses, with particularity, on these unpaid fines and we 
will begin legal action against the mine operators. We have 
notified them, we expect the fines paid, and we will begin 
legal action against them, if needed.
    With respect to the Wage and Hour Division, we have 
reinstituted opinion letters. The Department is committed to 
providing meaningful compliance assistance to help employees 
understand their rights and ensure that employers have the 
tools necessary to comply with the law.
    Americans want to know, what does the law mean? And opinion 
letters for decades did exactly that. It told them, ``This is 
what the law means.'' And so, we have reinstituted the opinion 
letter program.
    I want to touch briefly on occupational licensing and I 
have had conversations with several members of the Committee 
about this.
    Today, we announced a $7.5 million grant or request, 
actually, for a proposal to issue grants to fund State reviews 
of occupational licensing.
    One of the points that we made in the release is that we do 
not just want a review; we want a plan of action as to how 
States are going to address this issue. We are not looking for 
another report. Report after report--this is a bipartisan 
issue--say occupational licensing is a problem.
    A study by a scholar at the Federal Reserve Bank estimated 
a loss of 1.6 million jobs. Brookings [Institute] said that 
number is wrong. It is actually closer to 3 million jobs. It is 
something that needs to be addressed and unfortunately, what I 
see a lot of, are studies.
    And so, hopefully this is seed money that can encourage 
States to come up with specific plans of action to address 
occupational licensing. It is a very important issue.
    Finally, I want to acknowledge and thank Ranking Member 
Murray, and others in leadership on both sides of the aisle, 
for working to pass what, I really think, is a win-win 
bipartisan solution to the tip credit issue that arose. From 
our perspective, it is a win. I think from the other aisle's 
perspective, it is a win.
    If we can communicate and talk, often we find solutions. I 
think that is a great outcome and perhaps a model of the way 
that things can proceed.
    And so, I look forward to your questions, and thank you.
    [The statement follows:]
             Prepared Statement of Hon. R. Alexander Acosta
    Chairman Blunt, Ranking Member Murray, and members of the 
Subcommittee, thank you for the invitation to testify today. I am 
pleased to appear before this Subcommittee to outline the 
Administration's vision for the Department of Labor in fiscal year 2019 
and beyond. I am proud and honored to lead the Department in its 
critical work.
    This has been a year of significant growth for the U.S. economy and 
workforce. In its first year, the Trump Administration has delivered 
increased opportunities for working Americans, American job seekers, 
and American job creators. The President's tax reform is promoting 
investment in the United States, strengthening the American economy, 
and putting money back into the pockets of hardworking Americans.
  --Since the election, the American economy has added almost 3 million 
        jobs;
  --In March 2018, for the sixth month in a row, the unemployment rate 
        was at a 17-year low of 4.1 percent;
  --In March 2018, the level of total nonfarm jobs reached an all-time 
        high (148,230,000);
  --In March 2018, average hourly earnings rose by 2.7 percent over the 
        previous 12 months and the three-month average increase in 
        earnings was the highest since 2009; and
  --In January 2018, the number of job openings was 6.3 million, an 
        all-time high.
    This year has been a productive and busy year for the Department of 
Labor. President Trump's commitment to working Americans and American 
job seekers is at the heart of the Department's work: (i) Creating Jobs 
in America; and (ii) Protecting Americans in the Workplace.
    We have accomplished much on behalf of working Americans, American 
job seekers, and American job creators. We are focusing the Department 
of Labor on its core mission by making smart investments in programs 
that work, eliminating programs that are less efficient or less 
effective, while reforming underperforming programs. We increasing 
employment opportunities for all Americans, enforcing safe, healthy 
workplaces for working Americans, and ensuring that the Department's 
regulations make sense. I am proud and humbled to lead the Department 
of Labor in this critical work.
                        creating jobs in america
    President Trump's priorities for the Department are to create jobs, 
more jobs, and even more jobs. An important part of that effort is 
creating favorable conditions to foster job creation in the United 
States--through common sense regulation, tax reform, and fair trade. An 
equally important part is creating opportunities for Americans to 
develop the skills to fill--and succeed in--the jobs of today and 
tomorrow.
Expanding Apprenticeships in America
    The American workforce is the greatest in the world. The American 
workforce is skilled, hardworking, and innovative. To take advantage of 
opportunities, however, Americans must have the skills that the jobs of 
today and tomorrow demand. Apprenticeships are one way the Department 
is changing our Nation's approach to workforce development. The 
benefits of apprenticeships are well known but a few notable facts are: 
graduates of Apprenticeship programs earn an average of $60,000 per 
year; and more than 8 in 10 graduates retain their employment 9 months 
after exiting their apprenticeships. This represents real opportunity 
for many Americans.
    Consistent with the President's Executive Order on Expanding 
Apprenticeships in America, the Department is developing a framework 
for Industry-Recognized Apprenticeships that are flexible and 
responsive to market needs, less bureaucratic, and more attractive to 
American job creators. One notable departure from the norm is that 
these programs will not be micromanaged from Washington, D.C. This 
initiative will promote high-quality apprenticeships across all 
industries, including manufacturing, infrastructure, cyber security, 
and healthcare, among others.
    In October 2017, after considering hundreds of applicants, I 
announced the members of the President's Task Force on Apprenticeship 
Expansion. Comprised of companies, trade and industry groups, 
educational institutions, labor unions, joint labor-management 
organizations, States, and other third parties, the Task Force is 
examining how to expand high-quality apprenticeship programs across all 
industries. The Task Force will issue a report with its recommendations 
this spring.
    The Department's budget prioritizes effective programs and includes 
$200 million for Industry- Recognized Apprenticeships, more than 
doubling available funding and helping align workforce development with 
market demands.
Returning Flexibility to the States
    The Federal Government has more than 40 workforce development 
programs spread across 14 agencies with a total annual cost of $17 
billion. Despite changes in the recent reauthorization of the Workforce 
Investment Act of 1998, now called the Workforce Innovation and 
Opportunity Act (WIOA), the system remains fragmented at the Federal 
level, perpetuating unnecessary bureaucracy and complicating State and 
local efforts to meet the needs of Americans seeking workforce-related 
services. I am working with Secretary DeVos to develop a comprehensive 
plan to consolidate and reorganize Federal workforce development 
programs to ensure that American workers receive the highest quality 
services possible and are prepared to fill the high- growth jobs of 
today and tomorrow.
    Providing States greater flexibility to administer resources 
efficiently and effectively is another way to better serve the 
individualized needs of Americans in various States and localities. To 
that end, the President's fiscal year 2019 Budget proposed broader 
waiver authority for the core WIOA programs, allowing the Department to 
trust our Nation's governors with the responsibility of how best to 
operate their workforce systems.
Providing Americans Greater Access to High-Quality Health Coverage
    Healthcare is an important factor for many Americans in making 
decisions about their careers and job opportunities. Up to 11 million 
Americans working for small businesses/sole proprietors and their 
families lack health insurance. Many small employers struggle to offer 
insurance because it is currently too expensive and cumbersome.
    In October 2017, President Trump signed an Executive Order that 
directed the Department to consider means to expand access to high-
quality, affordable health coverage by allowing more employers to form 
Small Business Health Plans (also known as Association Health Plans or 
AHPs).
    In January 2018, the Department's Notice of Proposed Rulemaking to 
expand the opportunity to offer AHPs was published in the Federal 
Register. Under the proposal, small businesses and sole proprietors 
would have more freedom to band together to provide affordable, quality 
health insurance for employees. As proposed, the rule would also 
include consumer protections to prevent plans from discriminating 
against particular employers or employees based on the perceived health 
of their workforce.
    The proposed improvements could open health insurance coverage for 
millions of Americans and their families by making it more affordable 
for thousands of small businesses and sole proprietors. By joining 
together, employers may reduce administrative costs, strengthen their 
bargaining position, and offer a wider array of insurance options.
Removing Roadblocks to Job Creation Through Regulatory Reform
    The Department of Labor administers and enforces more than 180 
Federal laws and the regulations that implement them. All told, these 
laws and regulations cover more than 150 million working Americans and 
10 million American job creators. Consistent with the President's 
priorities, the Department has worked to identify regulations that 
unnecessarily eliminate jobs, inhibit job creation, or impose costs 
that exceed benefits, and is working to reform or eliminate them. 
Examples include rescinding guidance documents regarding joint 
employment and independent contractors, and conforming to the Federal 
appellate court test to clarify when interns or students are employees.
Providing Clarity to the Regulated Public
    Clarity and consistency in agency interpretations allow the 
regulated public to comply with the law in a manner that is not unduly 
burdensome or costly and helps ensure a level playing field.
    In June 2017, the Department's Wage and Hour Division (WHD) 
announced it is resuming its longstanding practice of issuing opinion 
letters. Opinion letters are official, written opinions provided by the 
Department that address the application of statutes and regulations in 
the specific circumstances presented by an employer, employee, or other 
entity. The letters were previously a Department practice for more than 
70 years, until the practice ceased in 2010.
Removing Barriers to Employment Through Occupational Licensing Reform
    Today, there are more than 1,100 separate occupations licensed by 
at least one State. In 1950, only 1 in 20 jobs required an occupational 
license. Today, more than 1 in 4 Americans needs a license to work. 
Occupational licensing creates artificial barriers to entry in many 
occupations across the United States, while stifling competition, and 
impeding Americans' mobility between States. This is particularly true 
of America's veterans seeking employment upon returning home. While 
they may have the skills sought by employers, oftentimes their military 
training does not transfer directly to a license required by the State. 
Military spouses, too, may be subject to different State-specific 
licensing requirements each time their spouse receives a new posting, 
in some cases every 2-3 years. The Department is engaged with governors 
across the United States to achieve occupational licensing reform.
Supporting America's Veterans by Helping Veterans, Service Members, and 
        Spouses Find Family-Sustaining Jobs
    In 2017, the veteran unemployment rate was at its lowest since 2001 
at 3.7 percent. The Department serves veterans by providing priority 
workforce development and placement services, individualized career 
services, and assistance with the transition to civilian life.
    The Department served more than 679,000 veterans in Program Year 
(PY) 2015 and more than 566,000 veterans in PY 2016. These metrics 
reflect the changed measures set forth in the Workforce Innovation and 
Opportunity Act (WIOA) regulations and reporting requirements, which 
considers only participants who access staff-assisted services. Under 
the prior Workforce Investment Act (WIA) method, which included 
veterans who relied on online services in the service measures, the 
Department served more than one million veterans in PY 2015 and an 
estimated 915,000 veterans in PY 2016.
    In May 2017, President Trump signed the Honoring Investments in 
Recruiting and Employing American Military Veterans (HIRE Vets) Act and 
established a program that will go into effect in fiscal year 2019 to 
recognize employers that recruit, retain, and employ veterans, and that 
support our Nation's veterans. In February, the Department launched the 
HIRE Vets Medallion Demonstration Program, which will allow the 
Department to demonstrate the HIRE Vets Medallion Program application 
process, raise awareness of HIRE Vets, and enable more employers to 
prepare to successfully garner recognition when HIRE Vets launches in 
2019. The Demonstration Program will recognize up to 300 employers for 
their investments in recruiting, employing, and retaining our Nation's 
veterans.
Protecting Working Americans by Confronting Visa Fraud and Abuse
    Companies that commit visa fraud and abuse hurt working Americans 
and American job creators that play by the rules. These companies cut 
costs by not providing legally required wages and working conditions 
and, in some instances, workers' lives are at stake.
    In June 2017, I directed the Department to aggressively confront 
entities committing nonimmigrant visa program fraud and abuse. The Wage 
and Hour Division (WHD) is using all available tools to conduct civil 
investigations to enforce labor protections provided by the 
nonimmigrant visa programs. I also instructed the Employment and 
Training Administration (ETA) and WHD to work with the Office of the 
Solicitor to coordinate the administration and enforcement activities 
of the nonimmigrant visa programs and make referrals of criminal fraud 
to the Office of Inspector General (OIG).
    Since January 2017, the Department has concluded 661 nonimmigrant 
visa program cases. The Department recovered more than $14.4 million in 
back wages on behalf of 5,919 employees and assessed more than $3.3 
million in civil money penalties. Since January 2017, the average 
recovery of back wages per worker was more than $2,400, a 20 percent 
increase over the same period the previous year.
Protecting Working Americans by Enforcing International Labor 
        Agreements
    U.S. labor laws guarantee certain rights for American workers such 
as minimum wages, overtime standards, and occupational health and 
safety standards. When trading partners fall short of the labor 
standards set forth in trade agreements, they create an uneven playing 
field that hurts working Americans.
    Consistent with President Trump's ``America First'' foreign policy, 
the Department's Bureau of International Labor Affairs (ILAB) protects 
American jobs and working Americans from unfair competition by 
enforcing international labor agreements.
    The Department's work extends to reporting on, and combatting, 
global child labor and modern slavery which, not only hurt working 
Americans, but are also morally reprehensible. In September 2017, the 
Department released its annual child labor report, Findings on the 
Worst Forms of Child Labor, representing the most comprehensive 
research to date on the state of child labor in over 130 countries 
worldwide. Simultaneously, the Department released a new mobile 
application, Comply Chain, designed to help businesses identify and 
eradicate child labor and forced labor from global supply chains.
                 protecting americans in the workplace
    The vast majority of employers are responsible actors, fully 
committed to following worker protection laws and to providing good, 
safe jobs for their employees. There are, however, bad actors that fail 
to comply with their obligations. In those instances, the Department 
vigorously enforces our Nation's laws that protect working Americans. 
Fully enforcing the laws deters bad actors from willfully and 
repeatedly ignoring their responsibilities under the law. This makes 
American workplaces safer.
    There are, however, also businesses that make good faith attempts 
to comply with an often complex set of laws and regulations. In those 
instances, the Department recognizes that working Americans are better 
served by helping business comply with the laws before incidents occur. 
The Department provides compliance assistance to help American 
employers understand and remain in compliance with worker protection 
laws. Department collaboration and partnership with employers 
facilitates an increase in compliance with labor laws, thus benefiting 
American workers.
Employee Benefits Security Administration
    The Employee Benefits Security Administration (EBSA) helps ensure 
the security of the retirement, health, and other workplace related 
benefits of almost all American workers who have private-sector 
employer-sponsored plans. EBSA's enforcement authority extends to an 
estimated 694,000 private retirement plans, 2.2 million health plans, 
and similar numbers of other welfare benefit plans which together hold 
$9.5 trillion in assets. These plans provide critical benefits to 
America's workers, retirees, and their families.
    From January 1, 2017, through December 31, 2017, EBSA recovered 
more than $698 million in enforcement actions and its criminal program 
obtained 93 indictments. During the same time period, EBSA's Benefit 
Advisors recovered an additional $437 million on behalf of 382,647 plan 
participants and beneficiaries through informal dispute resolution 
conducted pursuant to the agency's participant assistance program.
    The President's fiscal year 2019 Budget request for EBSA includes 
increases from the fiscal year 2018 Continuing Resolution to develop 
policy and enforcement capacity to expand Small Business Health Plans; 
maintain oversight of the Federal Retirement Thrift Investment Board; 
and support the ERISA Filing and Acceptance System (EFAST). The updated 
EFAST system will help companies comply with the ERISA disclosure 
requirements while ensuring that EBSA, the Pension Benefit Guaranty 
Corporation (PBGC) and the Internal Revenue Service all receive the 
information needed to protect America's pension and welfare benefits.
Mine Safety and Health Administration
    The Mine Safety and Health Administration (MSHA) works to prevent 
death, illness, and injury from mining, and promote safe and healthful 
workplaces for our Nation's miners. In the course of its work, MSHA 
uses an integrated approach to conduct inspections, stakeholder 
outreach, education and training, and compliance assistance.
    In 2017, MSHA fulfilled its statutory mandate to inspect all 
underground mines four times per year and all surface mines twice per 
year which, combined with non-mandatory inspections, resulted in 
105,195 citations and orders during 42,219 inspections. MSHA's 
enforcement strategy is grounded in its mandate to regularly inspect 
all active mines in the United States and its territories. This work is 
essential to protect miners and advance a culture of safety and health 
within the mining industry.
    In support of its mission, MSHA provides grants and compliance 
assistance to the mining community. MSHA's District offices also work 
closely with Educational Field and Small Mine Services to identify 
industry needs and help mine operators develop and revise training, 
safety, and health programs to address the conditions specific to their 
mines. In light of new and inexperienced miners entering the field, in 
June 2017, MSHA refocused its compliance assistance program for coal 
mines to provide safety training for miners entering the field for the 
first time or who are new to their current mining job within the past 
12 months.
    The President's fiscal year 2019 Budget request for MSHA includes 
increases for Metal/Non-Metal resources and to modernize the MSHA 
Standardized Information System.
Occupational Safety and Health Administration
    The Occupational Safety and Health Administration (OSHA) helps 
ensure that employers provide safe and healthful working conditions for 
working men and women by setting and enforcing standards and by 
providing training, outreach, education, and assistance. OSHA also 
administers the whistleblower provisions of more than 20 whistleblower 
statutes. Compliance assistance and enforcement--driven, by workplace 
inspections and investigations--play a vital role in OSHA's efforts to 
reduce workplace injuries, illnesses, and fatalities.
    Between January 1 and December 31, 2017, OSHA conducted 31,944 
inspections and issued citations for 52,515 violations. The number of 
inspections conducted in 2017 increased year over year for the first 
time in 5 years despite OSHA's suspension of enforcement activities to 
provide more compliance assistance and facilitate the provision of 
personal protective equipment during the hurricane recovery in areas 
affected by natural disasters this year.
    The President's fiscal year 2019 Budget request for OSHA includes 
increases for Federal enforcement and for compliance assistance and 
outreach, including resources for the Voluntary Protection Programs. 
This investment will allow OSHA to broaden its assistance and support 
to employers who are trying to best protect their workers.
Office of Federal Contract Compliance Programs
    The Department's Office of Federal Contract Compliance Programs 
(OFCCP) is tasked with ensuring that Federal contractors and 
subcontractors comply with their equal employment opportunity 
obligations.
    Since January 2017, OFCCP has obtained more than $30 million in 
monetary remedies for more than 17,000 job seekers and employees, an 
average of more than $1,700 per person. In 2017, OFCCP conducted 1,035 
compliance evaluations. Of those 1,035 compliance evaluations, there 
were 48 discrimination settlements. There were also seven additional 
discrimination settlements resulting from complaint investigations.
    In 2017, OFCCP conducted approximately 200 outreach and compliance 
assistance events sponsored by the national and regional offices, 
including three compliance assistance town hall events that were open 
to the public.
Office of Labor Management Standards
    The Department's Office of Labor Management Standards (OLMS) 
administers and enforces most of the provisions of the Labor-Management 
Reporting and Disclosure Act (LMRDA). The LMRDA promotes union 
democracy and financial integrity in private sector labor unions, and 
transparency for labor unions and their officials, employers, labor 
relations consultants, and surety companies through reporting and 
disclosure requirements. OLMS enforces similar laws applicable to 
Federal sector unions.
    In calendar year 2017, OLMS investigated 121 union officer 
elections after complaints of violations, supervised 19 rerun elections 
due to election violations, and conducted 265 criminal investigations, 
recording 82 indictments. The President's fiscal year 2019 Budget 
request includes increases for the investigative workforce and 
reestablishes the International Union Audits enforcement activities. 
The Department's fall regulatory agenda announced plans to propose 
restoring several prior union transparency requirements. OLMS can and 
will do more to protect union members.
Office of Workers' Compensation Programs
    OWCP administers four major disability compensation programs 
covering over two million Federal employees, and a significant number 
of private sector workers, which provide wage replacement benefits, 
medical treatment, vocational rehabilitation, and other benefits to 
certain working Americans, or their dependents, that experience work-
related injuries or occupational disease.
    OWCP administers prescription benefits for injured Federal workers 
and is taking aggressive measures to control costs and prevent fraud. 
OWCP implemented program integrity and pharmaceutical cost control 
measures in 2017 that resulted in Federal agencies paying $221 million 
less than in 2016 for the benefit costs of their injured employees. 
These savings are in part attributed to decreased opioid prescriptions 
and use that resulted from these measures, as well as reduction in 
questionable compound prescriptions.
    OWCP and the OIG have worked closely together to eliminate Federal 
Employees' Compensation Act (FECA) fraud. As the primary OIG charged 
with investigating FECA fraud government-wide, the DOL OIG works 
closely with OWCP to facilitate interagency investigation and 
prosecution efforts by developing best practices on how the OIG 
community can request FECA data and submit reports of investigations 
that involve FECA fraud or medical provider fraud.
Wage and Hour Division
    WHD is tasked with ensuring compliance with, and enforcement of, 
many of the Nation's fundamental Federal labor laws, including minimum 
wage, overtime, and child labor laws.
    WHD's mission is to promote and achieve compliance to protect 
America's workers. Since January 2017, WHD has recovered more than $269 
million in back wages for more than 241,000 employees, an average of 
$1,114 per person. In 2017, WHD concluded more than 29,000 cases.
    In some instances, particularly with American job creators that 
attempt to comply with Federal labor laws in good faith, compliance 
assistance rather than after-the-fact enforcement can better serve 
working Americans by preventing harm in the first place. Since January 
2017, WHD has conducted 3,397 outreach events, providing valuable 
information and compliance assistance to participants across the United 
States. As part of this effort, WHD employs Community Outreach and 
Resource Planning Specialists (CORPS) in nearly all district offices 
nationwide. The CORPS have been successful in establishing 
collaborative partnerships with industry associations and employers to 
offer compliance assistance and educate stakeholders with regard to 
labor standards. The President's fiscal year 2019 Budget request 
includes increases to support compliance assistance projects.
    Last month, WHD launched the Payroll Audit Independent 
Determination (PAID) pilot program. This program is designed to resolve 
self-declared errors by employers that could potentially result in 
overtime and minimum wage violations under the Fair Labor Standards 
Act. At times, employers may be the first to uncover violations of 
overtime or minimum wage laws. Many employers prefer to correct their 
mistakes and voluntarily pay their employees the wages they are owed. 
However, currently, employers are unable to simply pay the wages due to 
conclusively settle overtime or minimum wage violations. The PAID 
program would allow employers to remedy their mistakes without lengthy 
and costly litigation.
    Through this program, employees will receive 100 percent of the 
back wages paid, without having to pay any litigation expenses, 
attorneys' fees, or other fees, and without having to wait for court 
cases to resolve and potentially lengthy investigations to conclude. To 
participate in the program, employers must pay all back wages due by 
the end of the next full pay period after receiving the summary of 
unpaid wages, and provide proof of payment to WHD expeditiously. These 
requirements improve the employers' compliance with their minimum wage 
and overtime obligations and protect the rights of workers.
    Significant protections for employees are included in this program. 
For instance, it is solely the employee's choice whether to accept the 
payment. If an employee does not accept the payment he or she does not 
release any private right of action and employers are prohibited from 
retaliating against the employee for his or her choice. Further, an 
employer may not use PAID to resolve any issues for which WHD is 
already investigating the employer, or which the employer is already 
litigating in court, arbitration, or otherwise. We owe it to our 
Nation's workforce to help employees get their owed wages, faster.
                               conclusion
    In closing, I hope my statement today makes clear the depth and 
breadth of the Department's accomplishments this past year. The 
Department is hard at work supporting Americans' efforts to find, and 
excel in good, safe, family-sustaining jobs.
    We look forward to working with Congress on these important goals.

    Senator Blunt. Well, thank you, Mr. Secretary.
    We will have time for more than one round of questions, but 
let us try to restrict to the 5 minute frame, and then 
everybody gets a chance to ask their questions, and ask second 
ones, if they would like to.
    So pleased that you are here; again, let me say that.

                INCREASE IN ENFORCEMENT PROBLEM BUDGETS

    I did notice in the budget that the enforcement programs 
were the programs that consistently appeared to have an 
increase in the request. Wage and Hour, you have mentioned 
already. OSHA has been mentioned; the Office of Labor 
Management Standards and compliance on Employee Retirement 
Income Security Act.
    Would you talk a little bit about why those particular 
areas are areas where even your initial request, in a budget 
that is significantly below what you are spending this year, 
would be more money than you had this year?
    Secretary Acosta. Certainly, Mr. Chairman.
    As you mentioned, the enforcement agencies, in general, are 
at the prior level or slight increases from the prior level and 
that is because I think those are priorities.
    I spent my opening 5 minutes going through the various 
statistics from the enforcement agencies, and that was an 
intentional decision to make the point that we are enforcing 
these laws; that these laws matter. They have been passed by 
Congress. They are the laws of the land. They need to be 
enforced. The men and women at the Department of Labor need the 
resources to enforce them. Over time, even if budgets remain 
flat, life gets more expensive.
    And so, we have asked for slight increases to continue the 
efforts that, I think, we have done this year because, as I 
said, enforcement matters.
    Senator Blunt. Well, I think your request shows that and 
the numbers you have shared with us today also show that your 
enforcement efforts are at a higher level than they have been.

              BUDGET INCREASES FOR APPRENTICESHIP PROGRAMS

    Now, as Senator Murray mentioned, we increased, in the 
omnibus bill, apprenticeship funding by 53 percent from $95 
million to $145 million. Here is an area where you are asking 
for another significant increase beyond that. I think your 
request is $200 million, which would be 100 percent higher than 
it was in the year we just completed.
    I think this is one of the areas that the Administration 
has led on and I think there are still ways to expand both 
access to these programs and even potentially expanding Pell 
Grants and other things that would allow the right kind of 
certified program to be one of the other alternatives for 
higher education.
    But here you have a program you are suggesting we would 
double year over year. I think we ought to probably hear about 
that doubling.
    Secretary Acosta. Mr. Chairman, you are correct.
    First, let me say, we very much appreciate the 50 percent 
increase that was in this year's budget just recently approved 
as part of the Omnibus. The budget that was submitted actually 
requested an even greater increase for the upcoming fiscal 
year.
    As the Ranking Member pointed out, the apprenticeship model 
works and we want to ensure that we have high quality 
apprenticeships. Whether it is the Registered Apprenticeship 
program that will continue--and Congress has fully funded--that 
money will continue to go out; or whether it is the industry-
recognized apprenticeship that has a fundamentally different 
structure, on-the-job learning works. All the research shows 
that that is one of the best ways to provide job skills.
    It is not just about providing job skills. One of the 
things that apprenticeships do is provide a career path. It 
provides stackable credentials. It is not simply saying, 
``Here. You have a skill. You can go have a job.''
    You come in at Level One and then you can proceed to Level 
Two, to Level Three, to Level Four through a series of 
stackable credentials of lifelong learning. I think that type 
of on-the-job training is something that we need to engage in 
much more of.

                      EXTENDING PELL GRANT FUNDING

    As the Chairman noted, related to that are various 
recommendations in the Administration's infrastructure 
proposal. One of those has to do with Pell, and I think the 
Pell recommendation is related where we have proposed to extend 
Pell funding from the degree programs. Currently, to be Pell 
eligible, you need to have a program that is 600 hours or more 
to certificate programs. And so, here is the reason behind 
that.
    If a community college has a great program that provides 
the skills for someone to get a certificate, and then go work, 
and continue on-the-job training while they are working, and 
maybe complete their degree later, why should Pell not be 
available for those certificate programs?
    And so, as the Chairman mentioned, we believe that is 
important as well.
    Senator Blunt. And your next step on that would be to work 
with the Department of Education, to work with the authorizing 
committee.
    What do you have in mind to move in that direction?
    Secretary Acosta. Mr. Chairman, in the President's 
infrastructure proposal, there are both labor and education-
related proposals that are in the President's infrastructure 
plan.
    One of those has to do with Pell and the proposal in the 
infrastructure plan is to extend Pell from the 600 hour 
requirement that is currently in place to certificate programs.

                EXTENDING PERKINS AND WORK-STUDY FUNDING

    The second has to do with Perkins CTE and to provide 
additional access at the high school level for Perkins CTE 
money.
    And the third is budget neutral. It has to do with the 
work-study formula. Because the work-study formula right now--
the key phrase is ``hold harmless''--is distributed and then 
when additional monies come out, the additional monies are 
distributed.
    The universities that received work-study many, many years 
ago have a disproportionally large percentage of the work-study 
money.
    And so, the President's infrastructure proposal suggests 
using the current distribution of Pell money as a framework to 
distribute work-study money in a way that provides students at 
some of the newer institutions--some of the community colleges 
that, in our opinion, have the greatest need--greater access to 
that work-study money.
    Senator Blunt. We have the Chairman and the Ranking Member 
of the authorizing committee sitting on either side of me too, 
so we can do some double duty here today.
    Secretary Acosta. I could not help but notice.
    Senator Blunt. I am sure you did.
    Senator Murray.
    Senator Murray. Well, thank you very much, Mr. Chairman.

                         APPRENTICESHIP GRANTS

    Secretary Acosta, as I said, providing workers with the 
skills that they need to succeed in the economy today is one of 
the smartest investments we can make to grow our economy.
    So I am really pleased that you recently committed to 
continuing the Apprenticeship USA grants with the funding that 
Congress provided in 2017. It is why, as we talked about, 
Chairman Blunt and I agreed to significantly increase the 
funding for registered apprenticeships in the 2018 omnibus.

                 NON-REGISTERED APPRENTICESHIP PROGRAM

    But I have to say, I am deeply concerned about the 
Administration's continued efforts to create a duplicative, 
nonregistered program, especially as you used the burden on 
corporations as an excuse.
    I have actually heard quite the opposite from employers 
across multiple industries, including Microsoft, which is in my 
home State of Washington. Microsoft recently said, ``A 
nationally registered apprenticeship is an essential tool to 
create a talent ecosystem for our industry.''
    I wanted to ask you: In your Apprenticeship Task Force 
meeting this week, you indicated the apprenticeship funding 
Congress appropriated in the 2018 omnibus can only be used to 
support and expand registered apprenticeship programs.
    Will you confirm that for the record?
    Secretary Acosta. Ranking Member Murray, I am happy to 
confirm that. We can look up the statute. That is what Congress 
wrote.
    Senator Murray. Right, correct, and what your budget says. 
So I just wanted to make sure we were all clear on that.
    Secretary Acosta. And that is what I said at the public 
meeting because I wanted to make sure that the Task Force fully 
understood that because I was not sure if they did.
    Senator Murray. Okay, thank you. Let me ask you another 
question.

                      ENDING WORKPLACE HARASSMENT

    As more women and men come forward with stories about 
workplace sexual harassment, it is clear that it is well past 
time for action here. I want to thank you for your response to 
my letter on the steps DOL (Department of Labor) is taking to 
address workplace harassment within the Department.
    Now, you also indicated the Department is finalizing online 
training for all contractors and employees that emphasizes the 
ban on retaliation, which is so important given this is the top 
reason workers do not report harassment.
    In addition to those steps, I really urge you to consider 
the Department's role in ending harassment in workplaces across 
the country.
    I wanted to ask you today, give me two concrete steps the 
Department can take to ensure all workplaces are free from 
harassment.
    Secretary Acosta. Well, Senator Murray, thank you for the 
question.
    And as you indicated, we are taking it very seriously. We 
have had mandatory training of all managers within the 
Department.
    Senator Murray. Yes.
    Secretary Acosta. We are working on online tools.
    Certainly the Women's Bureau is looking at this issue very 
closely, and I will be working with them to address this. I am 
also happy to work with this Committee.
    Ultimately, the Department implements the laws of Congress 
and enforces those laws. We can certainly provide information. 
We can provide online training tools. We can provide data. We 
can encourage. We can exhort.
    To the extent that there are legislative changes, those 
changes would have to come from Congress.
    Senator Murray. Right. What I am worried about is that we 
are not focused on a lot of industries where there is not the 
famous person talking about it, but a lot of people who, 
especially in lower wage jobs, do not have that kind of voice.
    I am urging your Department to do what you can to raise 
that issue and make people aware that we are watching.
    Secretary Acosta. Senator, you mentioned retaliation and 
whistleblower protections.
    Senator Murray. Right.
    Secretary Acosta. Those are both issues that, I think, are 
of paramount importance.
    Enforcing retaliation provisions--this goes back to my 
point, and they are already in place--enforcing those 
vigorously is very important and enforcing whistleblower 
provisions.
    We recently obtained, I believe it was the largest 
whistleblower settlement--I am pulling on memory here--but I 
believe it was one of the largest whistleblower settlements, if 
not the largest, whistleblower settlements ever as part of one 
of our whistleblower actions. So that is something I take very 
seriously.
    Senator Murray. Okay, I appreciate that.

                ECONOMIC IMPACTS OF WORKPLACE HARASSMENT

    I did want to draw your attention that in January, 21 
Senators and I sent you a letter asking you to study the 
economic impacts of workplace harassment, and really urging you 
to collect data on the prevalence and cost of sexual 
harassment, so that we can better address the problem. And I 
wanted to make sure you are aware of that and are looking at 
how you can collect that.
    Secretary Acosta. Senator, I am aware of that. The letter 
was directed to BLS; that is the entity that collects that 
data. They are aware of it.
    We are very careful in how we direct the Bureau of Labor 
Statistics for obvious reasons. It is important that those 
statistical agencies, that collect data, have some degree of 
protection and insularity from the political process.
    But I am aware of the data request; BLS (Bureau of Labor 
Statistics) is aware of the data request. I believe BLS already 
sent a response, and if they have not sent a response that 
should be arriving shortly.
    Senator Murray. Okay, great.
    Secretary Acosta. I am aware of the response, which is why 
I thought it might have been sent.
    Senator Murray. Okay, all right. We will be watching for 
that. Thank you very much.
    Secretary Acosta. And Senator, if I could, I just 
confirmed, it was the largest whistleblower case ever and the 
response has now been sent. So it is somewhere between our 
Department----
    Senator Murray. Here and there.
    Secretary Acosta [continuing]. And your office.
    Senator Murray. Okay, thank you very much.
    Senator Blunt. Senator Alexander, then followed by Senator 
Manchin.
    Senator Alexander. Thank you, Mr. Chairman.
    Welcome, Mr. Secretary.

                        COST OF HEALTH INSURANCE

    Mr. Secretary, I want to use my 5 minutes to talk about the 
Tennessee plumber who is making $60,000 or $70,000 and paying 
$20,000 for health insurance. Or the farmer named Marty who 
came up to me in a Chick-fil-A and said, ``My monthly premium 
was $300 a month and now it is $1,300 a month.'' It has gone up 
under Obamacare that much.
    I could spend the whole 5 minutes talking about my 
disappointment that we could not agree on our proposal 
supported by the President, and Senator McConnell, and Speaker 
Ryan to reduce those premiums by up to 40 percent, according to 
independent experts. That would have meant that a $20,000 
premium could have gone down to $12,000 over 3 years.

                        ASSOCIATION HEALTH PLANS

    I think we have now conclusively proved that Democrats and 
Republicans cannot agree on changing a single sentence of the 
Affordable Care Act. But you appear to have found a solution--
and I want to make sure I understand it--with your proposal for 
Associated Health Plans.
    Now, the plumber and the farmer are part of 9 million 
Americans who are not eligible for subsidies under the 
Affordable Care Act. So they are in, what we call, the 
individual market.
    People who are in Medicare or Medicaid get some government 
subsidy.
    More than half of Americans get their insurance on the job 
from employers. My figures show that the subsidy they get is 
about $5,000 a person because, in general, spending by the 
employer on employee insurance is exempt from income or payroll 
taxes.
    Does that sound about right to you?
    Secretary Acosta. Senator, those strike me as reasonable 
numbers.
    Senator Alexander. So the difference between someone who 
gets insurance at IBM and someone who is self-employed, and 
paying for their own without subsidy, starts out with a, 
roughly, $5,000 cost differential.
    So we could lower the cost of health insurance by $5,000 if 
we could find a way to make more of the small businesspeople or 
the self-employed people, the farmer and the plumber, eligible 
for the same kind of insurance that large group people have.
    I assume that is your objective.
    Secretary Acosta. Senator, that is the objective. We have 
what we call a small group plan.
    Senator Alexander. Now, let me go a little more rapidly 
because I have only 2.5 minutes.

                COVERAGE UNDER ASSOCIATION HEALTH PLANS

    What we are not talking about are the short-term, limited 
duration insurance plans. That is something else, right?
    Secretary Acosta. Something else.
    Senator Alexander. We are talking about giving employees of 
smaller businesses the same kind of insurance coverage 
employees of large business get.
    Secretary Acosta. That is correct.
    Senator Alexander. That would mean local bakeries from 
Nashville or Phoenix could band together, or Uber or Lyft 
drivers could band together, and get the same kind of coverage 
that employees at IBM or Wal-Mart enjoy.
    Mr. Secretary, would the new protections afforded by the 
Affordable Care Act for the large group market, the Wal-Mart 
and IBM people, apply to the Association Health Plans you 
propose?
    Secretary Acosta. Senator, Association Health Plans, as 
proposed, would be in the large group market. Therefore, the 
answer is the protections of a large group market apply.
    Senator Alexander. Give me as short an answer as you can.
    Secretary Acosta. Yes.
    Senator Alexander. Just as under the large group market, an 
Association Health Plan would be banned from charging patients 
higher premiums because of a preexisting health condition. Yes?
    Secretary Acosta. That is correct.
    Senator Alexander. Just as under the large group market, an 
Association Health Plan would not be allowed to ban or deny 
coverage of a preexisting health condition.
    Secretary Acosta. As proposed, that is correct.
    Senator Alexander. Just as under the large group market, an 
Association Health Plan would be required to offer coverage to 
dependent children up to age 26.
    Secretary Acosta. As proposed, that is correct.
    Senator Alexander. Just as under the large group market, an 
Association Health Plan could not cancel an employee's plan 
because the employee got sick.
    Secretary Acosta. As proposed, that is correct.
    Senator Alexander. Just as under the large group market, an 
Association Health Plan cannot place a ban on annual or 
lifetime limits or benefit coverage.
    Secretary Acosta. As proposed, that is correct.
    Senator Alexander. Just as under the large group market, an 
Association Health Plan must provide coverage of preventive 
health services free of charge to the patient.
    Is that correct?
    Secretary Acosta. As proposed, that is correct.
    Senator Alexander. So, in effect, your proposed rule would 
give the same opportunities and provide the same protections to 
self-employed Americans and Americans working for small 
businesses that are available to people with coverage from 
large employers today.
    Secretary Acosta. Senator that is the crux of the proposed 
rule.
    Senator Alexander. And so, I could say to the plumber and 
to the small farmer in Tennessee that if they could, under the 
terms of your rule, associate with others in a similar 
profession to meet those qualifications, that they could buy 
the same sort of insurance with the same protections and at the 
same cost advantage that the IBM, or Wal-Mart, or the employee 
of a large group has today.
    In other words, the small percentage of people in the 
individual market who pay their own way, the 9 million 
Americans, would have the same kind of healthcare that 160 
million Americans have in large group employer insurance.
    Secretary Acosta. Senator, as you pointed out--may I 
answer, Mr. Chairman?
    Senator Blunt. Yes.
    Secretary Acosta. As you pointed out, the theme of the 
proposal with the appropriate caveat that this is a proposal 
and not yet final, the theme of the proposal is we have small 
group plans and large group plans. And within the small group 
market, there are a number of Americans that do not even have 
healthcare because the small business that they work for does 
not provide healthcare.
    So by associating together, they would have access to the 
large group market. So the employees of the small business 
would have access to the same market as the employees of 
Microsoft or any other large corporation with all the same 
protections that are afforded those employees.
    Senator Alexander. And the cost advantage as well.
    Secretary Acosta. And the cost advantage, which is quite 
significant between the large group and the small group market.
    Senator Alexander. Thank you, Mr. Chairman.
    Senator Blunt. Thank you, Senator.
    Senator Manchin.
    Senator Manchin. Thank you, Mr. Chairman.

                      BIPARTISAN HEALTHCARE REFORM

    First of all, I want to say my good friend from Tennessee, 
Senator Alexander, I was one of the 12 Democratic cosponsors 
along with 12 Republican cosponsors for a major fix on 
healthcare. I have to be honest with you. I am befuddled why we 
have not done it, why we have not come to an agreement because 
I thought we were moving most progressive.
    I am a small businessperson, so I am very much concerned. 
It would be very helpful for my family, and all the families I 
work with, to have healthcare that everyone can benefit by.
    So the door is open. I am ready to go again, sir. You had 
wonderful meetings. You brought us all together. I would like 
for that to happen again.

                         MINERS PROTECTION ACT

    With that being said, I want to go to the Miners Protection 
Act. The miners in West Virginia, and all over this country, 
have done the heavy lifting for our country, given us the 
country we have today, and I am very proud. I know Senator 
Capito and I have cosponsored many bills to help the mining 
profession, if you will, and the miners who have sacrificed.
    The Miners Pension Plan has over 86,000 miners involved. We 
have 26,000 West Virginians. By 2022, it goes down, as you 
know. And sir, the only thing I can tell you, it is going to be 
a horrible situation because the average coalminer, or most of 
them, are widows who are receiving these pensions, only $595 a 
month. And that means a difference between do they make some 
payments? Do they have any quality of care, or a home, or not?
    So we sure are asking for your involvement in this and a 
solution for this problem because it is a big one, and it is a 
multilayered plan. There is a Mid State debacle going on right 
now and they are all rolled into one.
    But the miners are the only ones who have, basically, a 
piece of legislation that is guaranteed they be able to be 
taken care of. And we would hope that you would be able to give 
the attention we need to that.
    Secretary Acosta. Senator, as you know, you, Senator 
Capito, and I were----
    Senator Manchin. And I want to thank you for that too and 
you still remember that, and you told me you had the picture 
hanging, so we are very appreciative.
    Secretary Acosta. I do.
    Senator Manchin. You are an official West Virginian now 
because you have gone down under.
    Secretary Acosta. It is a tough job and they deserve that 
we work together----
    Senator Manchin. Yes.
    Secretary Acosta [continuing]. To address a solution.

                         MSHA SAFETY STANDARDS

    Senator Manchin. Let me just say this. The Mine Safety and 
Health Administration, MSHA as we know it, I am concerned about 
some of the proposed rollbacks. I know the funding has been 
increased, but some of the rollbacks of the safety measures, 
especially air quality standards, I am very much concerned 
about that, sir, because we have come a long way.
    But let me tell you what really bothers me more than 
anything. Since the beginning of 2017, 19 miners have died in 
America, coalminers. Ten of them have been in my State and 
Senator Capito's State of West Virginia. That is totally 
unacceptable. It is going the wrong direction.
    I have been to too many funerals and sat with too many 
families over the years. And I have experienced it myself in my 
own family.
    But I introduced the Robert C. Byrd Mine Safety Protection 
Act with Senator Casey and a few others. It strengthens safety 
standards, whistleblower protection, and penalties for bad 
actors.
    I do not know if you have looked at that bill and if you 
have taken a stand on that bill, and if you would comment, if 
you had.
    Secretary Acosta. Senator, I have not looked at that, but I 
will commit to looking at that bill.

       DISLOCATED WORKER GRANTS AND FIGHTING THE OPIOID EPIDEMIC

    Senator Manchin. The other thing we have is the Dislocated 
Worker Grants to help fight the opioid epidemic, and you know 
it is just a horrible tragedy on our country.
    But really, we are ground zero in West Virginia because of 
the heavy lifting. Sometimes they are prescribed prescriptions 
that are very addictive and it has really destroyed their 
lives.
    I do not know; have you committed? Have you looked at this 
from the working standpoint?
    I have fallen down to around 50 percent or 49 percent of my 
working adults that are capable and able of working, actually 
working. A lot of it is because either addiction or skill sets, 
or a combination of both.
    Secretary Acosta. Senator, if I could comment on that.
    I had the opportunity to visit an opioid treatment center. 
One thing I was struck by is that they did a good job at 
treating, but they did not integrate that with job 
opportunities.
    And so, we have announced a little over $20 million in 
grant opportunities to create pilot programs. And the money, I 
believe, does come from the Dislocated Worker Grant money to 
create grant opportunities.
    From my perspective, if you are treating someone and then 
saying, ``Now, you have been treated. Go forth,'' but you do 
not have a job or a job opportunity, that treatment is not 
complete.
    Senator Manchin. Right.
    Secretary Acosta. What I would love to see--and I mention 
this because of the overlap between the Appropriations and the 
authorizing committees--is the integration of career, 
education, and career opportunities into opioid treatment, I 
think it is important.
    We have been able to allocate $20 million toward that and I 
hope we have greater opportunity to talk about that. That is a 
very important issue.
    Senator Manchin. Mr. Chairman, if I could, just one 
question, very quickly to follow up with.

           SPECIAL BENEFITS FOR DISABLED COAL MINERS PROGRAM

    The Special Benefits for coalminers program, it is very 
disturbing because the President has proposed cutting this $45 
million from Special Benefits for Disabled Coal Miners. They 
are going from $69 million down to $24 million. It is mostly 
for black lung and we have people, basically, right in there. I 
mean, they are at the frontlines, if you will. To have that 
kind of a cut of $45 million into the Special Benefits, which 
is mostly used for black lung, and they are having a hard time.
    If you are not prepared to answer that and have not looked 
into it, maybe we can provide you with it. We would love to 
have a follow up.
    You have been very, very attentive, and I appreciate that. 
This is a big one.
    Secretary Acosta. Senator, I do not know if that is 
discretionary or mandatory. So I need to look into that.
    Yes, I will get back to you on that.

                     AIR QUALITY STANDARD FOR MINES

    Senator Manchin. Yes, because we have a rise, especially 
young miners going into these mines now. Remember, I talked to 
you about the air quality?
    Well, if we change the standards of air quality, I can 
guarantee you, the black lung disease will continue to 
increase. This is the only way we had to fight that and to try 
to stop it.
    But if you can, sir, I would just appreciate your 
attention.
    Secretary Acosta. Absolutely, and to just follow up briefly 
because there is a misconception out there around the air 
quality.
    In a prior rulemaking, the Department committed to engage 
in an air quality study. That was a preexisting commitment that 
goes back several years.
    And so, when the Department indicated that it was engaging 
in that study, that was pursuant to a prior commitment. That is 
not initiating a new rulemaking process.
    Senator Manchin. Thank you.
    Thank you, Mr. Chairman. I am sorry for the extra time.
    Senator Blunt. Senator Capito.
    Senator Capito. Thank you to the Chairman and the Ranking 
Member.
    I want to thank the Secretary for the visit to West 
Virginia. The visits to West Virginia and going underground, I 
think, does really make you realize what a tough job coalmining 
is. Even with all the mechanization and everything, it is 
always eye opening. And I have the same picture hanging in my 
office too. So it was a good day and thank you for that.

                        FOCUSING ON MINE SAFETY

    Several of the questions that Senator Manchin asked, I had, 
obviously, with MSHA and with the 19, in the last year and a 
half or year and several months, deaths.
    Can you speak to what you are doing that may be making 
changes to when you recognize some of these accidents? I know 
some of them are vehicular.
    What kind of special emphasis are you doing through MSHA to 
try to alleviate that?
    Secretary Acosta. Senator, and if I could, as I see Senator 
Manchin exiting, I have a quick answer to his question.
    The reductions are based on workload and not a benefit cut. 
It is mandatory funding. To the extent that the need exists, 
because it is mandatory, it automatically kicks in. It is 
mandatory not discretionary funding.
    Senator Capito. Thank you.
    Secretary Acosta. With respect to your question, Senator 
Capito, and so, yes, a number of them are vehicular and we are 
looking with specificity both on focusing enforcements efforts 
around that and on whether there are new rules or approaches 
that we can put into place to address some of those.
    It has been, in part, we have new miners who have not been 
underground before.
    Senator Capito. Right.
    Secretary Acosta. And so, we need to be extra vigilant and 
extra careful in their education around safety issues.
    But it may be that we also need to look at some rules or 
warning signs around those vehicles, and MSHA is looking at 
that.
    Senator Capito. Well certainly, technology is leading us 
with a push for autonomous vehicles, technology is leading us 
to all kinds of different cameras, and different angles, and 
everything that may be very helpful with that.
    Secretary Acosta. And warnings as individuals get within a 
danger zone of a certain vehicle. Correct.
    Senator Capito. Right. I did want to ask you about 
apprenticeship, but Senator Murray covered that, and I think 
you talked about that pretty deeply too.

                          RESPIRABLE DUST RULE

    I also want to thank you for--in my reaction to--your 
announcement on the dust rule. You did come to my office to 
clarify it, and I am glad you clarified that before the 
committee today.
    There is no rolling back of the standard of the dust rule 
that was passed. You are simply deciding when and how to move 
forward with the study.
    Is that correct?
    Secretary Acosta. That is correct. We are fulfilling a 
commitment made by the Department to engage in the study.
    Senator Capito. Thank you.

                    ASSOCIATION HEALTH PLAN PROPOSAL

    And also on the Associated Health Plans, a long time 
coming; I am glad to see in a regulatory sense you have been 
able to grasp this one. I think it will have a lot for smaller 
States, and in particular, with a lot of small businesses it is 
going to have a great impact.
    So these are the two off-the-wall questions that I wanted 
to ask.

           MAKING WORKFORCE TRAINING PROGRAMS MORE EFFICIENT

    One of the things that always troubles me, and particularly 
when you are looking at it from a budgetary standpoint, is all 
of the different, across many agencies, workforce training 
programs there are.
    You addressed in your statement, in your written statement, 
about how you are working with education, for instance, and 
other departments to try to consolidate and make these 
workforce training programs more efficient.
    Could you speak to that briefly?
    Secretary Acosta. Senator, this is a very, very important 
topic and that is correct.
    There are between, I forget the exact number, there are 
between 40 and 50 different workforce training programs or 
workforce education programs we can identify. And I certainly 
think that there is a great need for consolidation.
    Some have been around for quite a while and there is a need 
to update them. Others, the apprenticeship program, for 
example, have great results. And so, there is a value to 
focusing spending on those with great outcomes.
    Related to that, we have also requested flexibility in the 
upcoming budget so that governors have discretion to move money 
around from funding line to funding line. And that is so 
important.
    Every governor that I have spoken to, on both sides of the 
aisle, would like the flexibility to move funding around. They 
will say, ``West Virginia is different from Washington, and it 
is different from Missouri, and so, our needs are different. We 
would like the flexibility working with the Department to 
reallocate from Program A to Program B to Program C.''
    I have very limited flexibility in giving those types of 
waivers. Even if we cannot consolidate programs, and I 
understand the difficulty of doing that legislatively, 
providing more discretion on waivers--even if it comes with a 
report back to Congress on the waivers and why they were 
granted--I think would empower governors to do what they 
believe, what he or she believes is best for their State. And I 
think that is so important.
    Senator Capito. I have one more question.
    Senator Blunt. Yes.
    Senator Capito. Thank you.

                   TAX REFORM BILL AND EMPLOYEE WAGES

    With the tax reform bill that was passed at the end of the 
year, several private entities have initiated raises in their 
minimum wage.
    What kind of role does the Department play in terms of 
monitoring? I know you do enforcement to make sure minimum wage 
is being executed properly. But what are you seeing there in 
terms of what happened last year; any changes? What do you 
anticipate as we move forward?
    Secretary Acosta. Well, Senator, certainly based on data 
that I have seen, we have had more than 4 million individuals 
receive bonuses or increases as a result of that congressional 
action.
    And one of the reasons that we are asking for additional 
enforcement action is so we ensure that as companies----
    You have all these great employers that are moving forward, 
and really rewarding their employees, and saying, ``We want 
greater engagement and greater productivity.'' You have a few 
bad actors and it is important that the bad actors cannot free 
ride.
    If you let a bad actor get away with something, that hurts 
all the good employers because it is a lot harder for those 
good employers to compete.
    And so, my view of enforcement is you do not enforce only 
because there is a bad actor. You also enforce because you need 
to level the playing field to let all those good actors, who 
are giving all these wage increases and tax bonuses, the 
opportunity to compete on an even playing field.
    Senator Capito. Thank you.
    Thank you, Mr. Chair.
    Secretary Acosta. Thank you, Senator.
    Senator Blunt. Thank you, Senator.
    Senator Murray.
    Senator Murray. Thank you very much.

                  BIPARTISAN BUDGET AGREEMENT OF 2018

    Mr. Secretary, we are hearing, it is being reported that 
President Trump is developing a rescission package that would 
undo the compromise bipartisan budget agreement of 2018 we just 
passed and he signed into law.
    Now, the omnibus bill that we implemented was not one I 
would have written or Senator Blunt would have written. It was 
hours of negotiated agreement that allowed us to get the votes 
that we needed to get out of here. So it was bipartisan.
    I wanted to ask you which parts of our bipartisan agreement 
are you recommending to the President to be undone?
    Secretary Acosta. Senator, I am hearing exactly what you 
are hearing from the same sources, which is the media. So at 
this point, I have received no request to make any 
recommendations for any rescissions.
    Let me comment more generally.
    The budget process is a process and those of us that have 
been through this, even if for only a year, recognize that. And 
so, I recognize I am here. I am testifying. You are all going 
to make the decisions you make and that is the way the process 
works.
    Senator Murray. Well, I appreciate that and I would just 
say, in general, that reneging on an agreement that took us a 
long time--it was very hard to get there--if we undo that, it 
is going to be very hard moving forward for us to be able to 
know that agreements are agreements, and we move on. So I hope 
we do not go down that road. Just for the record.
    Let me ask you one more question.

                             OVERTIME RULE

    In 2016, the Obama Administration finalized an overtime 
rule which would have strengthened worker protections to make 
sure about 13 million workers are paid for the hours they work.
    As you know, this rule is blocked in court by corporate 
interests, and last year, the Trump Administration decided to 
abandon the workers and the overtime rule.
    Since that time, it has now been estimated that in my home 
State alone, we have lost more than $11 million in wages they 
would have been received if the Obama overtime rule had been in 
place. By the end of this year, without strong overtime 
protections, the country's workers will lose an estimated $1.2 
billion in wages had the rule been in effect.
    So it has been 6 months now since the comment period closed 
on your request for information on a new overtime rulemaking. I 
want to ask you what your timeline is and when this is going to 
be implemented.
    Secretary Acosta. Senator, thank you, for the question.
    We are working diligently on this rule. As we have spoken 
before, we are looking to rewrite it.
    Senator Murray. What is the timeline on that?
    Secretary Acosta. These rules have taken, in the past, 
years. My hope is that we are faster than previous 
administrations.
    And so, I cannot commit to a specific timeline other than 
to say I am hoping it does not take nearly as long as it has in 
the past.
    Senator Murray. Which is not saying much. Well, a lot of 
people are waiting. This is a critical rule and we hope that 
you urge your Department to move quickly on it.
    Secretary Acosta. I understand, Senator.
    Senator Murray. Thank you.
    Senator Blunt. Let me ask, I have a few questions left, let 
me ask one of them while Senator Baldwin gets ready to ask her 
questions in a moment or two.

                            JOBS STATISTICS

    This is a Bureau of Labor Statistics question. You 
mentioned the Bureau earlier, that you were not involved in 
trying to manage their numbers, of course, but we would like 
their numbers to be accurate.
    In December of 2017, there was a ``Wall Street Journal'' 
article entitled, ``25 Cities Adding (and Losing) the Most Jobs 
in 2017.'' That article ran again in ``USA Today''. It listed 
Cape Girardeau, Missouri as the number one area in job loss for 
2017. Bad enough to hear that if it is true; worse to hear it 
if it is not true.
    I am sure that the Cape Girardeau Chamber President John 
Mehner would like me to be sure and mention today that it was 
not accurate.
    All of their local information indicated it was not 
accurate, but there really appears to have been, at that point 
at least, no recourse at the Bureau of Labor Statistics to say 
anything about this in the same public manner that the ``Wall 
Street Journal'' article did.
    So I think what we found out by March was that the numbers 
were released and corrected. But clearly, a thought was put in 
peoples' minds about what is happening to both their local 
economy and people looking at that economy as a place they 
might want to move to, or might want to invest in.
    As it turned out, they had job growth as the local 
university statistics indicated and their own statistics 
indicated they did.
    So I guess the question is can you tell us what we can do 
to have more transparency there, to have some recourse if 
cities want to dispute their data, and what we need to do 
moving forward to be sure that we do not have communities 
listed as losing jobs on preliminary statistics when it turns 
out that they were a community, as that community has for 
years, that were gaining jobs?
    Secretary Acosta. Mr. Chairman, having been someone that 
sees headlines about the Department sometimes and scratches 
one's head saying, ``That is contrary to fact'', I not only 
fully empathize with the President of the Chamber of Commerce, 
who was put in that situation, but it is a very bad situation 
to be put in because once that headline is out there, it is 
very, very difficult to retract it.
    I know that our staff at BLS, and yours, has discussed 
this. One of the issues here is when you have preliminary data 
that data, as a statistical matter, will vary. Sometimes it is 
close, sometimes it is not.
    I see this often, for example, with the unemployment 
numbers where there are revisions, and the revisions will 
actually show that there was more employment than we thought, 
but the headlines never picked that up.
    One thing that I think is particularly important is the 
Commissioner for BLS has been pending on the floor. And in 
leadership, they have had no leadership, no confirmed 
leadership now for several months.
    And so, I would encourage that we move on the Commissioner 
because with the Commissioner in place, it is much easier to 
look at those. Are we reporting preliminary data too early? 
Should we wait a little bit longer to make sure that the data 
is fact?
    Because what happened in this case, I am told, is they 
reported preliminary data. The media ignored the fact that it 
is preliminary and just assumed that it was final. By the time 
the final data was reported, the number was corrected. It was 
just a statistical variance, but those statistical variances 
have consequences.
    Senator Blunt. Well, and I think what happened with that 
statistical variance is they did targeted interviews with 
specific employers.
    Secretary Acosta. Right.
    Senator Blunt. Who, for whatever reason, those employers 
had lost jobs, but the community had not come close to losing 
jobs.
    Secretary Acosta. Correct.
    Senator Blunt. And we all have seen the growth numbers that 
turn out to be, one way or another, different a month later 
than they were. The economic growth numbers, the unemployment 
numbers; that has some impact. I think it has more impact if 
you are talking about a specific community or a specific 
employer. There may be some reason to rush preliminary numbers 
out in a greater context.
    I really cannot imagine what the reason would be, the merit 
would be to have preliminary numbers that may very well be 
wrong in a more specific context. That would be my advice on 
that.
    Your point is well taken that you need some help over 
there. I think we finally, after 11 months on the job, you now 
have one Senate--confirmed nominee, and that is a problem of 
ours, and we would accept that.
    However, this is a problem that was in December of last 
year. It is a fairly recent problem.
    Secretary Acosta. It is a substantial problem when it 
impacts a city because it is hard for the city to forget that 
headline.
    And so, one of the difficulties is I am hesitant as 
Secretary to get into the statistical methodology of a 
statistical agency, and I know you have acknowledged that.
    But having a confirmed head of BLS, I think, would be 
helpful.
    Senator Blunt. It would be helpful. This may require a 
community visit on your part or something, Mr. Secretary. I do 
not know how they will be able to recover otherwise.
    Senator Baldwin followed by Senator Murphy.
    Senator Baldwin. Thank you, Mr. Chairman.
    And Secretary Acosta, welcome.

         OSHA ELECTRONIC INJURY REPORTING ANTI-RETALIATION RULE

    In 2016, OSHA issued the OSHA Electronic Injury Reporting 
Anti-Retaliation Rule in an attempt to move OSHA into the 21st 
century, gather more detailed workplace injury data, target 
limited resources to high hazard industries, and protect 
workers who report hazards.
    In your agency's latest regulatory agenda, the Department 
of Labor announced plans to revise or revoke certain parts of 
the rule.
    Secretary Acosta--and I am hoping you can give me a yes, or 
a no, or short answers since I have so many questions--do you 
agree that it is important for OSHA to have access to accurate 
injury and illness data so as to target limited resources to 
the most dangerous workplaces? And if data is not informing 
your priorities, then tell me what is.
    Secretary Acosta. I believe that data that can be helpful 
in targeting enforcement is, in fact, important.
    Senator Baldwin. Is the Department of Labor planning to 
repeal OSHA's electronic injury reporting and anti-retaliation 
rule?
    Secretary Acosta. Senator, briefly, if I could comment, 
yes-no answers are sometimes difficult on this.
    I very much believe that information, so that we can target 
enforcement, is important and matters. I also think it is 
important to respect the privacy of individuals and employees.
    And so, we are looking at methods where we can obtain this 
data, while at the same time respecting the privacy of 
individuals. We are looking at methods where we can obtain the 
data en masse without individual identifying information 
because once we receive the data, it can eventually become 
subject to disclosure.
    The concern around this not whether we want data on exactly 
what is happening in a workplace, because I do think data is 
important, but how we can get that data in an aggregate form 
without that individual identifiable information.
    Senator Baldwin. So will you commit, then, to at least 
keeping that ability intact?
    Secretary Acosta. Senator, it is my wish and desire to. I 
believe that data is important so we can target enforcement.
    In my opening statement, I talked about how in OSHA 
enforcement we have actually had more inspections. I think that 
it is not just more inspections, but inspections that are 
better focused on where injuries are occurring, and what types 
of injuries.
    I do want that data. I want to gather it in a form that 
respects privacy.
    Senator Baldwin. Certainly in other contexts, I know, large 
agencies have been able to anonymize data. So I would hope this 
would be a pretty straightforward task.
    Secretary Acosta. Unfortunately, it is not anonymizing, as 
Congress has recently found out, it is not as straightforward 
as one may think. In the aggregate, this is data that, I think, 
is useful and necessary.
    Senator Baldwin. Okay.

                  APPRENTICESHIP AND THE PARTNERS BILL

    I understand that earlier this week you hosted your third 
meeting with the Department of Labor's Apprenticeship Task 
Force. As your Department continues to work towards expansion 
of apprenticeship and work-based learning, it is important that 
we are engaging small and local businesses, community colleges, 
as well as the national and local community-based workforce 
organizations.
    I am currently working with Senator Isakson to craft, what 
we are calling, the PARTNERS Act. The PARTNERS Act would 
establish a grant program to support the creation and expansion 
of industry and sector partnerships to help small and medium 
sized businesses develop work-based learning programs and 
provide mentoring and support services for workers.
    How would the Department of Labor's plans to spend the 
fiscal year 2019 funding work to support local, industry-driven 
sector partnerships, help businesses expand apprenticeships, 
and help workers access those opportunities, as my PARTNERS 
bill aims to do?
    And I will just note before you answer, as soon as we 
finalize our bill language, I will be making sure you get a 
copy for input.
    Secretary Acosta. Senator, as the Ranking Member pointed 
out a little bit earlier, the apprenticeship funding that is 
currently appropriated under the apprenticeship budget line is 
focused on registered apprenticeships. For the most part, small 
businesses do not engage in registered apprenticeships.
    This is one reason why we are looking to set up a second 
type of apprenticeship, which is the industry-recognized 
apprenticeship structure. So that small businesses--that are 
interested in having work-based learning--can work with 
industry associations that can provide guidance. That could 
provide quality control. That could provide curriculum, and 
could work with community colleges, and push and expand that 
apprenticeship model to small businesses. So I fully, fully 
agree with that.
    Let me also pick up and highlight something that you said 
that is very important, which is partnerships.
    Some of the best programs that I have seen are programs 
where community colleges come together with businesses often 
with a little bit of seed money from the Department.
    I am thinking of a program that I saw in Reno around HVAC 
(heating, ventilation, and air conditioning). I think it was 
Truckee Meadows Community College. I am thinking of Indian 
Hills Community College in Iowa that actually works with one of 
our Job Corps centers that is co-located.
    One of the things that I have been speaking about with the 
American Association of Community Colleges--Dr. Bumphus, who is 
their President--are about ways that we can support 
partnerships between community colleges and business.
    Critical to that is, I think, businesses need to have skin 
in the game. I think that if you have a true partnership, it 
cannot be enough to say, ``We have a business partner.'' But 
there should be some type of in-kind, or matching contribution, 
or something like that because then you really are creating a 
partnership. And where those interests are aligned, I have seen 
really incredible, and I could share the stories later, but I 
have seen really incredible success.
    Senator Baldwin. Yes. I have had a chance to have some 
visits in the State of Wisconsin where I feel I am seeing very 
much the same thing to the great advantage of smaller and 
medium sized businesses, as well as the participants. In one 
case, the apprentice said his only challenge was that all of 
his coworkers are jealous that he is getting that opportunity 
and they did not.
    Secretary Acosta. Yes.
    Senator Baldwin. One other question.
    Senator Blunt. There will be time for a second round of 
questions.
    Senator Baldwin. Okay.
    Senator Blunt. Senator Murphy.
    Senator Murphy. Thank you very much, Mr. Chairman.

                          MENTAL HEALTH PARITY

    Let me thank you and the Ranking Member for all of the 
attention you have given to the issue of mental health funding, 
and the conversation we have been having over the last few 
years around the issue of mental health parity. And that is the 
subject of the first question I wanted to ask you about, Mr. 
Secretary.
    I want to commend you on comments that you made before 
President Trump's opioid commission. In that meeting, you 
mentioned that it would be helpful if the Department had 
additional authority, that it does not have currently in law, 
to levy civil monetary penalties for mental health parity 
violations and the ability to enforce the law on insurance 
companies.
    We received, actually on this subcommittee, I believe, a 
new report maybe from about 6 months ago, which detailed the 
unjustifiable difference in the way that insurance companies 
reimburse for opioid and addiction treatment versus how they 
reimburse for other types of treatment. And everybody who has 
been in an addiction situation can tell you that story very 
personally.
    So I raised this issue yesterday at a HELP committee 
hearing that we had on a package of bills that Senator Murray 
and Senator Alexander are thinking about putting forward.
    I just wanted to ask you to comment on why you think that 
these new capacities, these new authorities, are important to 
make sure the industry is in compliance with mental health 
parity laws?
    Secretary Acosta. Well, Senator, thank you for the 
question, and I did testify at the President's Commission. I 
think the President's Commission adopted the recommendations.
    Senator Murphy. They did.
    Secretary Acosta. We have been tasked with enforcing these 
mental health parity laws, but the way we enforce them is 
against each individual insurance plan.
    And so, if you have an insurance company with 500 insurance 
plans, we would have to enforce as against each insurance plan. 
What we do is notify the insurance company and the good 
insurance companies, of course, would change all their plans to 
be in accordance.
    But as someone that thinks of things, to some extent, from 
a law enforcement perspective, if you have one person that has 
umbrella authority over the content of the various plans, to 
enforce against each individual plan is a highly inefficient 
enforcement mechanism.
    The second point I would make is the reality is there are 
always limited resources. And as companies are looking to 
ensure that benefits are, in fact, keeping with the law, as a 
general matter, the presence of a civil penalty tends to focus 
attention more than the absence of a penalty.
    Senator Murphy. And you do not have that authority, under 
existing law, either to look at the insurance company writ 
large versus the individual plans or to levy civil penalties.
    Secretary Acosta. We do not have enforcement as against the 
insurer.
    Senator Murphy. Right.
    Secretary Acosta. And we do not have penalty assessment 
authority.
    Senator Murphy. Well, I look forward to working with you, 
and with Senator Murray, and Senator Alexander to try to 
reconcile that, try to fix that for you.

         EASTERN CONNECTICUT MANUFACTURING PIPELINE INITIATIVE

    The second question is on the interaction and integration 
that you have with the Department of Defense. The Department of 
Defense has been given a slug of new resources. They are going 
to be purchasing a lot more from suppliers and contractors all 
across the country. That will be happening in Connecticut where 
we are going to be asked, and are glad to be asked, to produce 
additional undersea capacity for the Navy.
    Your Department has had a longstanding, very important 
partnership with the Eastern Connecticut Manufacturing Pipeline 
Initiative, which is a really innovative program in which 
Electric Boat, the local workforce development port, and the 
Department of Labor have aligned resources that have resulted 
in 600 job placements through this pipeline, ending up at 
Electric Boat.
    Given the fact that Electric Boat is going to be asked to 
do more, this pipeline now becomes more important than ever, 
because if we cannot find the workers to do this work here in 
the United States, either we will not deliver the product, or 
we will be forced to buy more of this overseas, especially the 
parts that go into the submarines. And I could tell you the 
same story with respect to jet engines or helicopters.
    But I would love to have you come at some point and see the 
very smart investment the Department of Labor has made in the 
Eastern Workforce Pipeline Initiative. And I just wanted you to 
comment on how important it is to make sure that all of this 
new military programming gets done in the United States, 
because we have made investments in the workforce.
    Secretary Acosta. Senator, I am a big fan of having it done 
in the United States, and I am happy to commit to visit. I try 
to visit various places to learn. I see great partnerships 
sometimes with community colleges, as I mentioned to Senator 
Baldwin, and I think it is important to get out there. So I am 
happy to commit to that.
    Senator Murphy. Great.
    Thank you, Mr. Chairman. Thank you, Mr. Secretary.
    Senator Blunt. Thank you, Senator Murphy.
    I have two more questions and then anybody else that has 
more, we will move toward finishing here.

                               H-2B VISAS

    On H-2B visas, once again, the Congress failed to give you, 
and the Department of Homeland Security, specific guidance on 
how to solve this problem. However, the Omnibus did give you 
exactly the same guidance you had last time.
    So two parts to this question are, since the guidance in 
the new law is exactly the same as it was a year ago, is it 
necessary to go through another rulemaking process?
    The second part of that question is, if it is necessary, 
how quickly does that start?
    At a hearing yesterday, the Secretary of Homeland Security 
said that she was going to reach out to you this week to talk 
about moving forward sooner rather than later.
    What is the answer to those two questions?
    Secretary Acosta. Well, Senator, as the Secretary said, 
that she indicated she was going to reach out to me and now has 
reached out to me.
    I think this is a very frustrating situation for the 
American people. In private conversations, I urged several 
Senators and several members of the House to come up with a 
specific number.
    One of the concerns that I raised in private conversations 
is that if there is a discretionary authority, that that 
discretionary authority requires rulemaking. And while we can 
expedite the rulemaking, it is subject to discussion with 
counsel, but my preliminary view is that that rulemaking is 
required.
    I think this puts the American people in a really difficult 
situation because every year they ask, ``Are we going to get 
our visas? Are we not going to get our visas?''
    As difficult as it is to make a decision, I think we owe it 
to the American people to come up with a number and that way 
they know, ``This is the number.'' They do not have to sit 
around and wait until April, May, June, or July by which point, 
some of those visas are no longer of benefit anyhow.
    There is value in certainty and certainly, I can talk about 
some suggested reforms. The provisions, the drafts that I saw, 
would not have been the way I would have written them, but they 
were a compromise, and I think compromises are sometimes better 
than nothing at all. And so, I would encourage, this time 
around, Congress to----
    I am happy to even personally work with members to develop 
some kind of approach where we can bring certainty to this.
    Senator Blunt. Well, I agree with that need for certainty 
totally. We were moving, I thought, in the right direction to 
give you some specific things to work with and then did not.
    I would just suggest that you might seek a second legal 
opinion and see if it is possible since the situation is 
exactly where it was a year ago, if that requires a new rule. 
And if it does require a new rule, whatever could be done to 
appropriately expedite that until the Congress can do its job, 
which is tell you what needs to be done here.
    These are workers that come for less than year round 
employment and then return at some point to the country they 
came from. These are not visas where people come and 
permanently stay in the United States. They are critical in 
some short-term employment situations.
    As you know better than anybody else, because of all the 
requests you get, the effort they have to make to hire people 
in this country before they can turn to this program and take 
advantage of it.

                             FIDUCIARY RULE

    My last question would be on the 15th of March, the Fifth 
Circuit Court of Appeals in New Orleans vacated the fiduciary 
rule saying it constituted unreasonableness. I think at that 
time, the following Monday, your Department told CNBC that 
pending further review, it would not be enforcing the 2016 
fiduciary rule.
    Is that your position still?
    Secretary Acosta. Senator, we are not enforcing, pending 
that court decision, we are not enforcing the rule. We already 
had an 18-month delay on portions of the rule, but we are not 
enforcing. We have not yet made a determination as an 
administration how to proceed on this matter.

                     H-2B VISA APPLICATION PROCESS

    If I could, if I could go back in the short time I have 
left to the earlier question around the visas, there is a 
second issue related to that, that I want to highlight for the 
Committee that, I think, is a simple, good government matter.
    The current process for issuing those visas is horribly 
antiquated. We asked for specific funding to update that 
process. And it strikes me that, irrespective of the difficult 
decision as to the amount of visas, the updating of the process 
is something that everyone should agree on.
    Under the current computer system, someone applies to the 
Department of Labor. We review and certify the application. We 
then actually print out a certification on secure paper and we 
send it back to the applicant.
    The applicant then puts it in the mail, and sends it to the 
Department of Homeland Security that then reviews it, and then 
puts it in the mail, and sends it to the State Department.
    We are at a point where we should have the technology to 
have someone apply, and much like most of us have on various 
apps, see where the application is and have it proceed 
electronically through the process with a database where 
Americans can see what jobs are available in case Americans 
want to apply for these jobs.
    We have asked for funding now twice to put this project 
into place. It is a small amount. It gets caught up in the 
issues around the visa, but I want to highlight it because I 
just think this is a good government matter.
    Senator Blunt. Okay. We may want to pursue what the 
complicating issues are, but we will look at that carefully, I 
can assure you.
    Senator Kennedy, are you ready?
    Senator Kennedy. I am, Mr. Chairman. Thanks, very much.
    I will be brief, Mr. Secretary. I am sorry I was late. I 
apologize and I understand Senator Murray has already asked 
this question, but I was not here, obviously, to hear the 
answer.

                 QUANTIFYING COSTS OF SEXUAL HARASSMENT

    Is it possible to quantify the economic costs of sexual 
harassment?
    Secretary Acosta. Senator, I do not think you can quantify 
the economic costs. Is it possible, it is a broad question, but 
I have no idea how you would do that.
    Senator Kennedy. Well, we know it has a cost.
    Secretary Acosta. It has a cost, but I think to say that 
the costs are limited to economic costs is an overstatement. 
There is certainly----
    One could measure the economic costs associated with the 
harassment, but I do not think those are the only costs of the 
harassment.
    Senator Kennedy. I agree. I absolutely agree with that, but 
I am just thinking in terms of breaking it down into bite-sized 
pieces.
    Secretary Acosta. I see.
    Senator Kennedy. If you are sexually harassed, it is 
obviously going to affect your productivity.
    Secretary Acosta. Sure.
    Senator Kennedy. Is there some way to measure that impact 
on Gross Domestic Product?
    Secretary Acosta. Senator, there may be.
    Senator Kennedy. Would you look into that?
    Secretary Acosta. Senator, I am glad to.
    One of the comments that I made to the Ranking Member is I 
am aware of the request. I have shared that with the Bureau of 
Labor Statistics.
    One of the areas that I will just mention, that I think is 
important for someone in my position to be careful about, is 
being overly directive with respect to a statistical agency 
such as BLS because there is a value to having a little bit of 
separation between agencies that gather things like the 
unemployment data and the Secretary's Office.
    And so, while I am happy to talk about thematics, I think 
my telling them how to measure something would cross the line.
    Senator Kennedy. Sure, yes. Well, I would not want you to 
do anything inappropriate.
    I just think it will help the American people understand 
the issue better. Obviously, money is not everything, but it is 
a telling statistic.
    My profession is law and I remember, for example, 35, 40 
years ago, or at least I have read about it, a lot of the 
larger law firms did not have women partners or women 
associates. And then, I think some of them changed because it 
was the right thing to do.
    Some of them changed, though, because they said, ``Whoa, 
this is costing us money. This bright, young law graduate, who 
happens to be a woman, is smarter than any of her colleagues 
and works harder. So maybe we ought to. We ran the numbers and 
we have been born again.''
    Now, I am not saying that was always the case, but I think 
it did happen.

                        LABOR PARTICIPATION RATE

    Let me ask you another quick question. Labor participation 
rate. Certainly, the unemployment rate is important, but in my 
State, our unemployment rate has come down like everyone 
else's. We are still higher than more States. But our labor 
participation rate is dismal.
    What can we do about that?
    Secretary Acosta. Senator, this is an issue that has 
baffled a lot of folks. You have, I believe, 4.5 percent 
unemployment rate in your State, but it is similar to the rest 
of the Nation. The labor participation rate is probably 
somewhere in the low 60 percent.
    Senator Kennedy. Which, actually, I think our labor force 
participation rate is actually lower than that. It is an 
embarrassingly low figure.
    Secretary Acosta. So there are a few issues behind it, and 
they are worth discussing and breaking down.
    First, the population as a whole is aging. It peaked 
somewhere around 15 years ago. If you look at the labor force 
participation rate of what is called ``prime age,'' the 25-54, 
it is much higher than the 55 and above. And so, there has been 
just under a 10 percent shift from prime age to 55 and above 
that may impact some States more than others, and that is 
certainly part of labor force participation.
    A second really important part of labor force participation 
has to do with younger Americans. There was a time when we 
measured college graduation in 4 years, and now we are 
measuring college graduation in 6 years.
    Senator Kennedy. That is a good point.
    Secretary Acosta. I think that we need to have a discussion 
as a Nation about, whether higher education doing what it 
should to ensure that folks are not just lifelong learners, but 
lifelong earners?
    And so, I like to say when I talk about this, have 
individuals been to a study abroad or do they know someone who 
has been to a study abroad? If they do, would it make sense to 
have a criminology major study at a police academy for a 
semester? Or for someone who is prelaw to spend a semester 
working at a law firm so that they learn not just theory, but 
life skills? I also think that would lead to, if someone knew 
that upon graduation, they had a job as a police officer, or as 
a legal assistant, or something else waiting for them, they 
might graduate sooner and faster.
    The labor force participation rate among young Americans 
has declined by a level of magnitude.

         EFFECTS OF OPIOID CRISIS ON LABOR PARTICIPATION RATES

    Thirdly, I would just cite the opioid crisis. I believe it 
was under President Obama, BLS did a survey and they asked 
adult men not in the labor force that were prime age, 25 to 54, 
``Did you take a painkiller yesterday?'' And 44 percent said, 
``Yes.''
    Senator Kennedy. My God. Could you repeat that?
    Secretary Acosta. Adult men between 25 and 54 not in the 
labor force. I am happy to provide the Senator with the data. I 
am working off memory, 44 percent said yes.
    Then I believe an individual, I am blanking on the name 
now, who is a professor at Princeton, he was one of President 
Obama's economic advisors. (I am citing the prior 
administration to show the bipartisanship of this issue.) He 
followed up with a subset of that study.
    Professor Alan Krueger, followed up with a subset of the 
data for painkillers and opioids, and 31 percent said yes. The 
use was not last month or last week, but was yesterday. I do 
think that some States are harder hit by this issue.
    So when you have 31 percent of men not working between the 
ages of 25 and 54 saying they took an opioid yesterday, I think 
that that highlights a third issue with the labor force 
participation that I think is important.
    Senator Kennedy. I am out of time, Mr. Secretary, but I 
really do appreciate it, and if you could send me that, that is 
breathtaking.
    Secretary Acosta. We will do that.
    Senator Kennedy. I am sorry I went over, Mr. Chairman.
    Senator Blunt. Interesting question and a very interesting 
answer, both of the young people in the workforce and people 
who are outside the workforce, those are both statistics that 
go a long way toward explaining some of these numbers that we 
have a hard time wrapping our mind around, I think.
    Senator Baldwin, do you have another?
    Senator Baldwin. I do.
    Senator Blunt. Go right ahead.
    Senator Baldwin. Thank you.
    I wanted to just wrap up the question I was asking before, 
or at least clarify something on the apprenticeships, and then 
ask you a question about Trade Adjustment Assistance.

                   REGISTERED APPRENTICESHIP PROGRAMS

    You were talking about the current grant programs for 
registered apprenticeships and then providing more 
opportunities for small and medium sized businesses moving for 
industry recognition.
    I just wanted to emphasize that one of the things I am 
looking at is making it easier for small and medium sized 
manufacturers and businesses to work in partnership for the 
primary apprenticeship, which would be a registered 
apprenticeship.
    Secretary Acosta. That is fair. Thank you, Senator.

                      TRADE ADJUSTMENT ASSISTANCE

    Senator Baldwin. On Trade Adjustment Assistance.
    Secretary, the Department of Labor has certified that at 
least 25,000 Wisconsin workers have lost their jobs due to 
NAFTA (North American Free Trade Agreement). The same number of 
workers has received vital job training supports through the 
Department of Labor's Trade Adjustment Assistance program. This 
training helps workers build new skills and get back into the 
workforce as soon as possible.
    The President's budget includes a proposal to refocus the 
TAA (Trade Adjustment Assistance) program on apprenticeships, 
what we were just talking about. Yet, the legislative change 
results, as I read it, in a $1.7 billion cut to the TAA 
program.
    Wisconsin workers, manufacturers, and farmers are all 
concerned about this Administration's trade strategy and how it 
might cost them jobs, depending on how these things play out.
    Given this concern, how can you justify cutting the Trade 
Adjustment Assistance program, which has helped so many 
Wisconsin workers retrain after losing a job due to NAFTA?
    Secretary Acosta. Senator, thank you for the question. Let 
me try to break that apart into a few questions, because I do 
not think it is as portrayed, but I will try to explain that.
    The Trade Adjustment Assistance program, I think, is very 
important and is really intended to help individuals who lost 
jobs because of something like NAFTA.
    If you look at the data, less than half of individuals that 
received TAA receive actual training and effectively zero 
percent--I think, 369 out of more than 57,000 receive on-the-
job training. And so, it is our hope and intent, if approved, 
to focus the TAA program for on-the-job training.
    The TAA jobs particularly involve sometimes older workers 
or second career workers who are not looking to go back to sit 
in a classroom, that are not looking for online. And so, 
apprenticeships, or on-the-job training, or others, we believe, 
is the best way to address their needs.
    Secretary Acosta. This, I believe, this is a mandatory 
spending line, correct?
    So this is a mandatory spending line. Because it is 
mandatory, once someone is certified, the money is spent. 
Congress is not appropriating it year to year.
    The budget estimates--and this is an OMB (Office of 
Management and Budget) and CBO issue--that because of the 
greater success, the overall impact on the budget will go down 
by the amount that you specified because of savings in 
unemployment insurance because people are going to go back to 
work that much sooner.
    So it is not a cut in the benefit, but it is a reduction in 
the budget because of greater success in the program.
    Did that make sense?
    Senator Baldwin. It did. I may want to follow up with you 
on more details just to see how OMB approached that.
    One additional question, you noted that TAA comes into 
effect when something like NAFTA, I think I am quoting you, is 
at play.

                            TARIFFS AND TAA

    Given all the trade-related tariff discussions that are 
going on right now, do you believe you have the authority to 
use TAA to retrain workers who may, in the future, lose their 
jobs due to tariff retaliation, for example?
    Secretary Acosta. Senator, I said something like NAFTA 
because TAA is a very complicated program and statute. And 
while as a general matter, you need a Free Trade Agreement or 
an agreement in play, it is not quite that simple. And so, when 
an individual loses their job because of a tariff or trade, it 
is really a fact-bound determination.
    So, for example, with respect to the recent solar panel 
tariffs, I believe we have--have we not provided about 400? I 
apologize.
    Secretary Acosta. Four hundred thirty-seven individuals 
with TAA arising from the solar panel tariffs that were 
recently imposed.
    What I will commit to the Senator is this: To the extent 
that I do not have authority under TAA, we also have access to 
the dislocated worker monies. And so, States could apply for 
Dislocated Worker Funds. I certainly would want to use my 
discretion to use those funds where TAA is not available.
    Senator Baldwin. Well, given that I am a glass half full 
person, I am hearing interest in making this work.
    Secretary Acosta. I want to help.
    Senator Baldwin. If you would keep in touch, especially 
over the next few weeks and months, as a lot of things are 
playing out at once. Whether you believe you have authority 
without a change of law and then let the committee know if 
there are further tools that need to come under the 
consideration of this committee that would be helpful.
    Secretary Acosta. I will do so, Senator. Thank you.
    Senator Blunt. Thank you, Senator.
    Secretary, is there a topic we have not brought up, or do 
you have anything you want to say in your final comments before 
we gavel out here?

                          TIP CREDIT ANALYSIS

    Secretary Acosta. Yes, I would like to take a minute to 
address an issue, and it is an issue that has a good story at 
the end, but I have not talked about it, in part, because I do 
think it is important that we proceed with care. But it has to 
do with, I thought, the bipartisan outcome that we got on the 
tip credit.
    I could not help but notice that there were stories about 
whether we did a quantitative versus a qualitative analysis. As 
I mentioned to some Senators privately, my predecessor, when 
the rule was written in 2011, did a qualitative analysis, and 
we did the exact same thing, yet there was no outcry at the 
time in 2011. And so, I wanted to just talk a little bit about 
the data that we have and just put it on the record. And so, 
here is what we know.
    We know that total wages paid to bartenders and waitstaff 
in the United States is about $81 billion. We know that the 
portion of these wages--and this is all public data--we know 
that the portion of these wages that go to tipped employees is 
about $29 billion. We know that of this $29 billion, about $15 
to $16 billion is the amount of wages required by the relevant 
minimum wage laws. And so, we know that there is about $13 to 
$14 billion that remains and that is a big pot, and that is 
composed of a lot of things.
    That is composed of wages paid in addition to and above the 
relevant minimum wage. It is composed of wages paid for 
overtime, wages paid for commission, and wages paid for tips. 
That is pretty much all that we know in terms of data.
    And so, to measure economic transfers related to employers 
keeping tips, to the extent employers would keep tips, we need 
to make a series of assumptions. The most significant, which 
include:
    What percent of this amount is due to tips as opposed to 
overtime, or commissions, or wages paid in addition to minimum 
wage?
    What percent of this amount is earned in localities or 
States that do not allow tip pools? And there are several.
    What would customer behavior do if customers found out that 
any establishment would keep a tip? Personally, I think 
customers would be pretty furious and would make that known.
    Would restaurants, in fact, keep tips?
    We have little to no data on these questions. So, for 
example, we could assume that:
  --the overtime paid to all employees, that actually get tips 
        in the United States, is zero. I think that is a pretty 
        unrealistic assumption;
  --that about one-third of the Nation's tipped employees work 
        in locations that prohibit tip pools. That could be a 
        guess;
  --that no customer would object to a restaurant's keeping 
        tips in a way that would impact their behavior, the 
        amount of tips that they give, or the desire to 
        frequent that establishment. I think that is a very 
        unrealistic assumption because customers would, in 
        fact, be pretty upset; and
  --that no employee would respond to a restaurant's keeping 
        tips by quitting, by working fewer hours, by working 
        less efficiently. I think that is also a crazy 
        assumption because, I think, employees would be pretty 
        upset. In this era of tight labor markets, most of them 
        would walk.
    Now, if we made these wildly crazy assumptions, we could 
come up with a number and that number would be somewhere 
upwards of about $600 million. But those are one set of 
assumptions, and depending on the assumptions that you make, 
you could go anywhere from zero to $13 billion.
    One group that commented offered a range of $523 million to 
$13.2 billion.
    And so, my point is this, when we write rules, I think it 
is important that the analysis should be relevant based on 
realistic assumptions and helpful to the public. It should not 
be a ``check the box'' exercise.
    Qualitative analysis in NPRM (Notice of Proposed 
Rulemaking) is used often, and in fact, was used in writing the 
initial 2011 rule. And so, while no one on this Committee made 
comments, I could not help but notice that there were public 
comments made about this, and that those same public comments 
were not made in 2011.
    I think that is indicative of an unfortunate state of 
affairs that we are at, but that is why I am really glad that 
we had a happy ending because from my perspective, I did not 
think employers would keep tips. I think that is a nasty thing 
to do. I think people would walk. I think customers would 
leave. I think they would lose waitstaff and so, making it 
unlawful is perfectly fine because it should be. From the 
perspective of others, they thought employers may keep tips, 
and so, making it unlawful was also a good thing.
    From my perspective, there are a lot of hardworking people 
in the back of the house that really deserve to be part of that 
tip pool: the cooks, the dishwashers, the folks that make sure 
that the food arrives warm, on clean dishes. And so the 
tradeoff between having a tip pool that shares between the 
front of the house and the back of the house in return for as a 
matter of law saying, ``Employers cannot keep tips,'' I think 
it is kind of win-win.
    I just wanted to thank the Ranking Member, to thank the 
Chairman, to thank leadership on both sides. And just say, 
look, if we can communicate, I think sometimes there are 
solutions. So thank you.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Blunt. Well, thank you, Mr. Secretary, and thank 
you for your answers, and your time today, and your leadership 
at the Department.
    The record will stay open for one week for additional 
questions.
    [The following questions were not asked at the hearing, but 
were submitted to the Department for response subsequent to the 
hearing:]
                Questions Submitted by Senator Roy Blunt
                       dislocated workers funding
    Question. The Omnibus appropriations bill included a new $30 
million Dislocated Workers funding initiative targeted to the Delta 
Regional Authority and the Appalachian Regional Commission regions. 
These are two of the hardest hit regions in the country that have 
unemployment rates much higher than the national average. Many have 
lost significant jobs during the last Administration's war on coal, and 
it is important to respond to those employment needs.
    Could you discuss your plans for this funding and how it will be 
focused in this region? In particular, how will you engage the Delta 
Regional Authority and the Appalachian Regional Commission in your 
plans?
    Answer. The Department welcomes the opportunity to address economic 
and workforce-related challenges across the Appalachian and Lower 
Mississippi Delta regions. These funds allow the Department to invest 
in the planning and implementation of workforce strategies for regions 
and communities negatively impacted by changes in the coal economy. 
Since fiscal year 2017, the Department has awarded funds to West 
Virginia, Kentucky, and Virginia. The Department will continue to 
contact these States and local areas within Appalachia and Lower 
Mississippi Delta to ensure the States are aware of the funds and 
encourage the States to develop innovative and critical projects to 
help get Americans back to work and into family-sustaining jobs. The 
Department will continue to engage the Delta Regional Authority and 
Appalachian Regional Commission to help with outreach to the regions 
that may benefit from these resources.
                             hire vets act
    Question. Every year, nearly 200,000 service members transition 
from active duty to civilian life and finding the right opportunity in 
the private sector can prove challenging. It is critical that the 
Department help ensure veterans can connect with employers that 
recognize the unique value they bring to the job. The Omnibus included 
funding and authority to establish the HIRE Vets bill that awards 
employers based on their contributions to veterans' employment.
    Can you discuss how you will implement HIRE Vets?
    Answer. The HIRE Vets program will recognize job creators for their 
investments in recruiting, employing, and retaining our Nation's 
veterans. The program will recognize large, medium, and small job 
creators at two levels, platinum or gold, depending on the criteria 
they meet. Veterans bring experience, adaptability, and focus that 
employers can use for their competitive advantage.
    On November 9, 2017, the Department published the final rule 
required by the HIRE Vets Act. The HIRE Vets Act is statutorily 
authorized to begin in 2019 and not sooner. On February 2, 2018, the 
Department launched the HIRE Vets Medallion Demonstration Program, 
which allows the Department to demonstrate the HIRE Vets Medallion 
Program application process, raise awareness of HIRE Vets, and enable 
more employers to prepare to successfully garner recognition when HIRE 
Vets launches in 2019. The Demonstration Program will recognize up to 
300 employers in November 2018 for their investments in recruiting, 
employing, and retaining our Nation's veterans. As of April 24, 2018, 
more than two thousand potential applicants registered in the system 
and the Department closed the application window upon reaching its 
established demonstration program goal.
    In accordance with the statute, the Department will begin accepting 
applications for the statutorily-authorized HIRE Vets Medallion Program 
no later than January 31, 2019, based upon the established selection 
criteria and will stop accepting applications for 2019 on April 30, 
2019.
        veterans' employment and training service (vets) funding
    In March, we learned that the unemployment rate for all veterans 
hit its lowest point in almost two decades, declining to 3.7 percent. 
This is a great sign of both our improving economy and the experience 
and training veterans bring to the civilian workforce. The Omnibus 
funding bill passed last month increased funding for veterans 
employment and training by $16 million.
    Question. How will the Department continue to target the employment 
needs of the veteran population?
    Answer. Within the Department, the Veterans' Employment and 
Training Service (VETS) is tasked with bringing all of the Department's 
resources to bear for America's veterans, separating service members, 
and their families. VETS' mission is focused on four key areas: (1) 
preparing veterans for meaningful careers; (2) providing them with 
employment resources and expertise; (3) protecting their employment 
rights; and, (4) promoting the employment of veterans and related 
training opportunities to employers across the country.
    The Department has the expertise and a nationwide network to 
provide workforce education and employment opportunities, and veterans 
receive priority of service. This integrated network and the 
Department's programs that provide services to our veterans continue to 
deliver positive employment outcomes for the men and women who have 
served our country.
    The HIRE VETS program will recognize job creators for their 
investments in recruiting, employing, and retaining our Nation's 
veterans. The program will recognize large, medium, and small job 
creators at two levels, platinum or gold, depending on the criteria 
they meet. Veterans bring experience, adaptability and focus that 
employers can use for their competitive advantage.
    In fiscal year 2018, the Department received additional resources 
in the Jobs for Veterans State Grant (JVSG) budget activity, the TAP 
budget activity, the Homeless Veterans' Reintegration Program budget 
activity, and the Federal Administration budget activity. VETS will use 
the appropriated resources to support additional JVSG-funded staff to 
provide services to veterans, fund the delivery of the DOL Employment 
Workshop and Career Technical Training Track (CTTT) workshops, fund the 
Veterans Data Exchange Initiative (VDEI), award additional grants to 
grantees serving homeless veterans, and begin implementing the Honoring 
Investments in Recruiting and Employing American Military Veterans Act 
of 2017 (HIRE Vets Act) program.
    The Department is using an additional $7.5 million made available 
by Congress to address ways in which harmonizing licensing requirements 
across States can reduce barriers to labor market entry and mobility, 
particularly for dislocated workers, transitioning service members, 
veterans, and military spouses. The Department recently announced two 
funding opportunities to be awarded in the summer of 2018. The first 
initiative will provide grants to selected States to review and 
streamline occupational licensing requirements in State-identified 
occupations and to promote portability of their licenses to other 
States, which is of particular concern to dislocated workers and 
military families. The second initiative will award cooperative 
agreements to fund partnerships to develop bridge curriculum as open 
educational resources to address military-to-civilian skill gaps 
related to licensure, which is of concern to transitioning service 
members and veterans. The Department will allocate the remaining funds 
to procure support for the development and dissemination of an 
interagency technical assistance and outreach/communications strategy 
related to occupational licensure and remedies to assist military 
spouses to obtain licensure in their new State of residence.
    On May 9, 2018, the President signed Executive Order 13832, 
Enhancing Noncompetitive Civil Service Appointments of Military Spouses 
(EO). The EO requires the Department to recommend new ways to improve 
occupational license portability and remove barriers to the employment 
of military spouses and further demonstrates the Administration's 
commitment to enhance employment support for military spouses. The 
Department is actively working to implement the EO. For example, the 
Department recently launched a professional license and credential 
finder portal for military spouses. The new webpage brings together 
license portability resources from across the Federal Government. This 
new site highlights States' efforts to help military spouses secure 
good, family-sustaining jobs. The webpage can be found here: https://
www.veterans.gov/milspouses.
                           workforce training
    Question. By 2020, 60 percent of jobs will require education or 
training beyond high school. Many employers state that the inability to 
find qualified workers is their biggest obstacle to growth.
    How does the Department prioritize youth-targeted workforce 
development training within the other priorities to grow our future 
workforce?
    Answer. A large portion of the Department's discretionary skills 
instruction and employment funding, over $2.8 billion, is prioritized 
to target youth and young adults, including the Workforce Innovation 
and Opportunity Act (WIOA) Youth formula grant, YouthBuild, Reentry 
Employment Opportunities, and Job Corps programs. These programs 
prioritize youth with barriers to employment by providing services that 
prepare them for success in employment and post-secondary education. 
Program activities are aimed at developing a strong career pipeline to 
provide youth, including out-of-school and justice system-involved 
youth, with work readiness skills and industry-driven credential 
attainment opportunities. These programs also equip youth with skills 
that prepare them for success in growing and in-demand industries.
    Through these youth programs, the Department is also providing 
opportunities for young people to access more earn-and-learn work-based 
models, such as apprenticeships. Paid work experience alongside the 
ability to earn educational credentials is one of the most effective 
ways individuals can prepare for the jobs of today and tomorrow. 
Currently, the WIOA Youth program emphasizes pre-apprenticeship 
opportunities by prioritizing work experience alongside education and 
workforce development. The YouthBuild program is expanding its focus to 
include in-demand industries beyond construction that are aligned with 
the apprenticeship model. The Reentry Employment Opportunities grants 
now include a focus on apprenticeship and other intensive occupational 
skills instruction models to expand those opportunities to youth 
involved in the justice system.
                   youth-targeted skills development
    Question. How can the apprenticeship program help youth-targeted 
skills development?
    Answer. High school is a critical time for youth to make career and 
educational choices, and communities across the country are starting to 
launch programs that allow high school students to pursue career-
oriented coursework coupled with work-based learning opportunities. 
These programs have different names, such as high school 
apprenticeship, school-to-apprenticeship, or youth apprenticeship, but 
all have the same goals--providing students with access to high-
quality, industry-focused education that combines classroom and on-the-
job learning with affordable pathways to college and careers in high-
demand industries.
    High school apprenticeship programs also provide industry with 
solutions to their workforce needs. By mentoring and providing 
workforce education to young apprentices, companies can develop 
employees who are trained to their precise specifications and have 
learned the company's unique workplace culture. High school 
apprenticeship programs also provide a source of qualified workers, 
reducing recruitment costs and ensuring industry has the workforce they 
need today and for the future. Additionally, high school apprenticeship 
programs are frequently linked to ``adult'' apprenticeships, post-high 
school apprenticeships in which companies hire individuals (18 years of 
age and older) as full-time employees. Through effective partnerships, 
entry into adult apprenticeships can be facilitated through the high 
school programs.
    High school apprenticeships are also valuable for school systems, 
as applied learning and hands-on experience may enhance school 
retention, academic performance, and graduation rates. These programs 
also create stronger linkages between high school and 2- and 4-year 
colleges, which often provide leadership, technical education, and 
support to programs. Building on college credits earned in high school, 
participating students are motivated to continue their education after 
graduation.
    Question. In particular, you have discussed expanding the program 
to new industries. What new trades does the Department want to focus 
the expansion?
    Answer. The Department is committed to increasing the number of 
high-quality apprenticeships, including expansion into high-growth, 
emerging sectors where apprenticeships have historically been rare.
    Pursuant to the President's Executive Order 13801, Expanding 
Apprenticeships in America, the Department is developing a framework 
for industry-recognized apprenticeships that are flexible and 
responsive to market needs, less bureaucratic, and more attractive to 
American job creators. The Executive Order established a Task Force on 
Apprenticeship Expansion, including members from companies, trade and 
industry groups, educational institutions, labor unions, and others. 
The Task Force convened weekly to discuss how to engage more job 
creators and rapidly expand these models to help more Americans get 
back to work and issued its Final Report to the President on May 10, 
2018. The Department is starting to implement many of the 
recommendations outlined in the report. Industry-recognized 
apprenticeships will expand on the successes of the apprenticeship 
model. Industry-recognized apprenticeships will offer the workforce the 
benefit of companies, trade and industry groups, educational 
institutions, labor unions, and others coming together to fill open 
jobs by discerning the skills demanded by job creators and connecting 
those skills needed for job seekers. Once private, third-party 
certifiers are in place, industry-recognized apprenticeships will 
benefit from a streamlined process that ensures high-quality 
apprenticeships.
    An overwhelming majority of apprenticeship programs registered with 
the Department and State apprenticeship agencies are limited to job 
preparation in the traditional trades, such as construction. Our 
efforts have been focused on expanding the apprenticeship model into 
non-traditional industries where the Department sees the most growth 
and opportunity for employment. Industries such as advanced 
manufacturing, infrastructure, cybersecurity, and healthcare are new to 
earn-while-you-learn strategies and will benefit from this model. The 
Department's goal is to supplement, not supplant, the Registered 
Apprenticeship system in order to rapidly scale up the number of 
apprenticeships for in-demand occupations.
    Question. How would the Department focus these opportunities 
towards youth who are preparing to enter post-secondary education or 
the job market?
    Answer. The Department has a wide array of youth workforce 
development activities, including the Workforce Innovation and 
Opportunity Act (WIOA) Youth formula grant, YouthBuild, Reentry 
Employment Opportunities, and Job Corps programs. These programs help 
youth with barriers to employment by providing services that prepare 
them for success in employment and post-secondary education. Program 
activities are aimed at developing a strong career pipeline to provide 
youth, including out-of-school and justice system-involved youth, with 
work readiness skills and industry-driven credential attainment 
opportunities. These programs also equip youth with skills that prepare 
them for success in growing and in-demand industries.
    Through these youth programs, the Department is also providing 
opportunities for young people to access more earn-and-learn work-based 
models, such as apprenticeships. Paid work experience alongside the 
ability to earn educational credentials is one of the most effective 
ways individuals can prepare for the jobs of today and tomorrow. 
Currently, the WIOA Youth program emphasizes pre-apprenticeship 
opportunities by prioritizing work experience alongside education and 
workforce development. The YouthBuild program is expanding its focus to 
additional in-demand industries beyond construction that are aligned 
with the apprenticeship model. The Reentry Employment Opportunities 
grants now include a focus on apprenticeship and other intensive 
occupational skills training models to expand those opportunities to 
youth involved in the justice system.
                   underperforming job corps centers
    Question. Many may not know that 20 percent of Job Corps centers 
are run by the U.S. Forest Service. Unfortunately, many of these 
centers are chronically underperforming. We spend $1.7 billion a year 
on Job Corps training and we need to make certain that every dollar is 
going towards programs that are preparing young adults to enter the 
workforce.
    Secretary Acosta, can you discuss your proposal to compete 
contracts to non-Federal entities?
    Answer. The Department recognizes the uneven performance of Job 
Corps centers and is committed to ensuring that students receive high-
quality workforce development at high-performing centers. As such, the 
fiscal year 2019 President's Budget proposes ending the U.S. Department 
of Agriculture's (USDA) role in the program. Workforce development is 
not a core USDA function, and the centers it operates are 
overrepresented in the lowest-performing cohort of centers. The Budget 
also proposes to allow the Department to competitively select a non-
Federal entity to operate the former USDA centers where appropriate. 
The President's Budget also takes important steps to improve Job Corps 
for the youth it serves by focusing the program on the older youth for 
whom the program is more effective; improving center safety; and making 
other changes to sharpen program quality and efficiency. This can be 
achieved by entering into agreements with colleges and apprenticeship 
programs; providing thorough policy guidance in all areas of center/
outreach and admissions/career transition services operations; and 
continuing to deliver a wide-ranging program that prepares youth for 
the future, among other examples. This will allow the Department to 
maximize the effectiveness of the Job Corps program and ensure young 
Americans are learning the skills demanded by job creators in the 21st 
century.
    The Department is conducting a programmatic assessment of 
performance center by center, surveying physical facilities, assessing 
programmatic sustainability, and considering the workforce development 
needs in each State and area served by a Job Corps center. Using this 
deliberate approach, the Department will develop a plan to allocate the 
program's fiscal year 2019 resources. It is the Department's 
expectation that through concentration of Job Corps activities in 
higher-performing centers, the Department will provide Job Corps 
participants with higher-quality services that lead to better outcomes.
    Question. Will any of the currently run Forest Services centers be 
closed?
    Answer. In April 2018, the Department announced its final decision 
to close the Golconda Job Corps Center in Golconda, Illinois, based on 
chronic low performance and student safety concerns. Section 159(j) of 
the Workforce Innovation and Opportunity Act establishes procedures 
that must be followed before a Job Corps center may be closed. Prior to 
the closure of any Job Corps center, the Department is required by 
statute to announce publicly the proposed closure and allow for a 
comment period, not to exceed 30 days, before closing the center. The 
statute also requires that the Department notify the Members of 
Congress who represent the district in which the center is located. 
Should the Department determine to close any centers, the Department 
will provide the Members of Congress and the public with appropriate 
notification, before closing a center.
                                 ______
                                 
            Questions Submitted by Senator Cindy Hyde-Smith
                     gulfport, ms job corps center
    Question. Secretary Acosta, it is my understanding the Department 
has been working to rebuild the Gulfport Job Corps Center for a number 
of years. The rebuilding of this Center was important to my 
predecessor, and I will continue to work towards its completion to 
benefit my constituents in South Mississippi. It is my hope that your 
Department will remain committed to work to ensure that the Center is 
rebuilt to full capacity, and I commend the progress that has been made 
in recent years.
    Can you please update the Committee on your Department's progress 
this year? Please give an estimated timeline of completion on the 
Gulfport Job Corps Center.
    Answer. A Memorandum of Agreement (MOA) was signed by the 
Department of Labor, the Mayor of Gulfport, and the Advisory Council on 
Historic Preservation, and was effective on September 19, 2017. Since 
that time, the Department issued the pre-solicitation for the 
Architect/Engineer (A/E) services and prepared the Scope of Work, which 
provides guidance to the selected A/E team on various aspects of the 
design, coordination of the design with all MOA signatories and the 
concurring party, and coordination with the City of Gulfport and all 
utility companies required to be involved on the project. The 
Department received a number of proposals from A/E firms in response to 
the pre-solicitation, which closed on March 3, 2018. The Department 
anticipates final award of the design in late 2018.
    This project involves the significant elements of historic 
preservation, facade support to enable preservation, and a multiparty 
MOA. As such, the Department's projected timeline anticipates that the 
design phase will take 17 months and the construction phase is expected 
to take an additional 19 months.
    The Department also submits a monthly update to the Committee on 
its progress, pursuant to Senate Report 115-150 accompanying the Senate 
bill for Department of Labor, Health and Human Services, and Education, 
and Related Agencies Appropriations Act, 2018 (S. 1771).
 expanding apprenticeship programs in rural and underserved communities
    Question. Mr. Secretary, I am aware that the Administration is 
committed to expanding apprenticeship programs to meet the needs of our 
evolving workforce. In my home State of Mississippi and other States 
across the Nation, rural communities are faced with different 
challenges than urban areas.
    Would you tell the Committee what the Department is doing to 
address the unique workforce challenges faced by rural and underserved 
communities?
    Answer. Under Public Law 115-141, the Consolidated Appropriations 
Act of 2018, Congress provided $30 million to the Department to address 
the employment needs of workers in the Appalachia and the Lower 
Mississippi Delta region. The Department is currently working with 
leaders in these regions, including the Delta Regional Authority, to 
tailor these grants to specifically address the workforce needs in 
these rural and underserved communities.
    In fiscal year 2017, the Department awarded $50 million in grants 
to 36 States to expand Registered Apprenticeships across their States. 
Recently, the Department awarded the Mississippi Department of 
Employment Security a $1.2 million State expansion grant to fund the 
Mississippi Apprenticeship Program, a new initiative to expand 
Registered Apprenticeship programs in the State and transform workforce 
development in Mississippi. This initiative, which operates in 
collaboration with all 15 Mississippi community colleges, focuses on 
developing apprenticeships in the automotive sector, advanced 
manufacturing, and other high-demand, emerging industries. The program 
anticipates serving apprentices throughout Mississippi, with a special 
emphasis on recruiting dislocated workers, women, veterans, persons of 
color, and individuals with disabilities.
    In addition, the Department's Office of Apprenticeship in 
Mississippi promotes apprenticeship across the State at job fairs and 
other local community events, and regularly meets with representatives 
from local business and industry to promote apprenticeship as an 
effective workforce development strategy. The Department would be happy 
to set up a meeting to discuss further.
    Question. Does the Department plan to expand apprenticeship 
programs to meet the needs of rural constituents?
    Answer. The Department, through its apprenticeships grants, is 
committed to increasing the number of high-quality apprenticeships, 
including expansion into high-growth, emerging sectors and in rural 
areas where apprenticeships have historically been rare. It is also 
possible that the Department could utilize a portion of the $30 million 
appropriated under Public Law 115-141, the Consolidated Appropriations 
Act, 2018, to provide employment services, including connecting 
unemployed workers to applicable apprenticeship programs, to the rural 
and underserved communities in the Appalachia and Lower Mississippi 
Delta regions.
    In fiscal year 2017, the Department awarded $50 million in grants 
to 36 States to expand Registered Apprenticeships. These grants have 
provided governors and State workforce agencies with the ability to 
develop programs and upskill workers across all areas of the State.
    Pursuant to the President's Executive Order 13801, Expanding 
Apprenticeships in America, the Department is developing a framework 
for industry-recognized apprenticeships that are flexible and 
responsive to market needs, less bureaucratic, and more attractive to 
American job creators. The Executive Order established a Task Force on 
Apprenticeship Expansion, including members from companies, trade and 
industry groups, educational institutions, labor unions, and others. 
The Task Force convened weekly to discuss how to engage more job 
creators and rapidly expand these models to help more Americans get 
back to work and issued its Final Report to the President on May 10, 
2018. The Department is starting to implement many of the 
recommendations outlined in the report. Industry-recognized 
apprenticeships will expand on the successes of the apprenticeship 
model. Industry-recognized apprenticeships will offer the workforce the 
benefit of companies, trade and industry groups, educational 
institutions, labor unions, and others coming together to fill open 
jobs by discerning the skills demanded by job creators and connecting 
those skills needed for job seekers. Once private, third-party 
certifiers are in place, industry-recognized apprenticeships will 
benefit from a streamlined process that ensures high-quality 
apprenticeships.
    An overwhelming majority of apprenticeship programs registered with 
the Department and State apprenticeship agencies are limited to job 
preparation in the traditional trades, such as construction. Our 
efforts have been focused on expanding the apprenticeship model into 
non-traditional industries where the Department sees the most growth 
and opportunity for employment. Industries such as advanced 
manufacturing, infrastructure, cybersecurity, and healthcare are new to 
earn-while-you-learn strategies and will benefit from this model. The 
Department's goal is to supplement, not supplant, the Registered 
Apprenticeship system in order to rapidly scale up the number of 
apprenticeships for in-demand occupations.
                            dol regulations
    Question. Mr. Secretary, I am aware that President Trump signed an 
Executive Order instructing Department Secretaries to review and reduce 
over-burdensome, costly regulations. My office continues to hear from 
constituents and businesses in our State concerned about guidance and 
regulations issued by the previous Administration.
    Would you please update the Committee on the Department's continued 
work to reduce overbearing rules and regulations that adversely affect 
constituents and small businesses?
    Answer. Pursuant to Executive Orders (EO) 13563 (Improving 
Regulation and Regulatory Review) and 13610 (Identifying and Reducing 
Regulatory Burdens), and consistent with EO 13771 (Reducing Regulation 
and Controlling Regulatory Costs) and EO 13777 (Enforcing the 
Regulatory Reform Agenda) (collectively, EOs), the President directed 
agencies to review regulations that unnecessarily eliminate jobs, 
inhibit job creation, are unnecessary, or impose costs that exceed 
benefits. The Department is directed by EO 13777 to establish a 
Regulatory Reform Task Force (RRTF) to help with these reviews.
    Following the President's directive, the Department is undertaking 
a comprehensive review of regulations. The Department solicits 
stakeholder input through ongoing agency-specific engagements, while 
also taking advantage of opportunities for broader, more formal 
outreach. For example, staff members from the Department's national and 
regional offices participated in at least six Regulatory Reform 
Roundtables across the country hosted by the Small Business 
Administration's Office of Advocacy. The roundtables were listening 
sessions allowing Department representatives to hear regulatory reform 
ideas directly from owners and representatives of small businesses 
around the country.
    The Department incorporates the work of the RRTF into the 
development of the Department's submission to the Unified Regulatory 
Agenda. As part of the agenda development, agencies included 
deregulatory actions repealing, replacing, or modifying outdated, 
inefficient, or overly burdensome regulations. As a result of this 
review, the Department included a total of 23 deregulatory actions in 
its Spring 2018 Unified Regulatory Agenda. Each regulatory agency 
continues to work diligently to identify regulations or alternative 
regulatory approaches that will reduce accumulated regulatory burden 
while ensuring that protections afforded workers are not diminished.
    The mere fact that a regulation is expensive is not, taken alone, a 
reason to rescind it. Sometimes regulations may have significant costs 
associated, but are necessary to protect the safety and health of hard-
working Americans. The Department's regulatory agencies are working 
diligently to identify regulations or alternative regulatory approaches 
that will reduce regulations that impose unjustified costs, or that 
simply ignore costs, to expand opportunity to more Americans while 
ensuring important health and safety protections for workers. When the 
Department makes the decision to repeal, replace, or modify 
economically-significant regulations, the Department is committed to 
fully considering the costs and benefits of each regulation to inform 
decisions.
                           youthbuild program
    Question. Mr. Secretary, YouthBuild is a program that positively 
impacts my home State through five sites across Mississippi. This 
program provides Mississippi youth with valuable skills necessary to 
join the workforce.
    Would you tell the Committee what the Department is doing to ensure 
that this program continues to benefit my constituents?
    Answer. Under the 2014 reauthorization of the Workforce Innovation 
and Opportunity Act (WIOA), the YouthBuild program was expanded beyond 
construction into additional in-demand industries. Known as 
Construction Plus, YouthBuild now educates youth for certification and 
placement into in-demand industries such as healthcare, information 
technology, logistics, advanced manufacturing, and hospitality. In 
fiscal year 2018, YouthBuild is strengthening its pre-apprenticeship 
and apprenticeship opportunities for youth in these new industries to 
better align with locally in-demand careers. The Department is focusing 
these funding opportunities on programs that provide young people with 
the on-the-job skills needed in growing industries to ensure they are 
prepared to enter into a workforce that is thriving with the skills 
necessary to compete.
    Mississippi has one on-going YouthBuild grant with the Natchez 
Housing Authority to provide at-risk youth with construction and 
leadership skills. In addition, awards were provided to CLIMB Community 
Development Corporation in Gulfport in 2016, the Mississippi Action for 
Community Education, Inc. in Greenville in 2015, and West Jackson 
Community Development Corporation in Jackson in 2014.
    Question. How does the Department plan to increase these sites in 
our rural communities?
    Answer. The Department continues to emphasize geographic diversity 
in awarding YouthBuild grants. The expansion into additional in-demand 
industries also benefits rural communities where construction may not 
be a growing field, unlike industries such as logistics or healthcare. 
The Department provides dedicated technical assistance to rural 
YouthBuild grantees, including a dedicated program coach who provides 
ongoing support to rural programs and understands rural communities' 
unique needs. The Department has also met with rural tribes through the 
National Congress of American Indians to discuss the program model and 
encourage participation.
                                 ______
                                 
              Questions Submitted by Senator Patty Murray
                           paid pilot program
    Question. Mr. Secretary, your testimony mentioned a new PAID Pilot 
program at the Wage and Hour division that I am concerned will amount 
to nothing more than amnesty for employers engaged in wage theft. You 
further stated that ``employers prefer to correct their mistakes and 
voluntarily pay their employees' wages they are owed.''
    Is it the case that employers already can audit their pay practices 
and voluntarily provide backpay to workers, without DOL's involvement?
    Answer. The Fair Labor Standards Act (FLSA) allows employers to 
conclusively settle claims for FLSA wage violations in only two ways: 
via court-ordered settlement or via Wage and Hour Division (WHD)-
supervised settlement. If an employer pays back wages to its employees 
outside of a court-ordered settlement or the Payroll Audit Independent 
Determination (PAID) program (a WHD-supervised settlement), then the 
employer will not have conclusively resolved the violation.
    When employers make inadvertent mistakes, the PAID program helps 
employees receive their overtime and minimum wages as quickly as 
possible. The PAID program includes significant protections for 
employees and allows each employee to make the decision that is best 
for him or her. Employees can accept payment under the PAID program, or 
they can determine to decline the payment and retain their private 
right of action. Employees will receive 100 percent of the back wages 
paid, without having to pay any litigation expenses or attorneys' fees. 
The PAID program allows employers and employees to resolve inadvertent 
violations expeditiously and without litigation, and allows employees 
to accept the payments and release their rights to privately sue the 
employer for the unpaid wages. In general, PAID will streamline the 
resolution of compliance issues and improve compliance overall, which 
WHD expects will enable the agency to focus more of its resources on 
bad actors who intentionally violate the law.
    Question. Why is this pilot program needed if employers already may 
audit their pay practices and voluntarily provide back pay to workers?
    Answer. Please see the response to the prior question.
    Question. Are you concerned that this PAID pilot program will erode 
the deterrent effect to employers stealing wages, leaving workers 
harmed by unpaid rent and other costs of living, while an employer is 
able to avoid paying damages for such behavior?
    Answer. The Payroll Audit Independent Determination (PAID) program 
allows more employees to receive 100 percent of their back wages--
faster--without having to pay any litigation or attorney's fees. An 
employer may not initiate the process to resolve any issues if the Wage 
and Hour Division (WHD) is already investigating the employer, or if 
the employer is already litigating in court, in arbitration, or 
otherwise. An employer likewise may not initiate the process when an 
employee's representative or counsel has already communicated an 
interest in litigating or settling the issue. Also, employers cannot 
use the program to repeatedly resolve the same violations; the PAID 
program is designed to identify and correct non-compliant practices, 
and to increase overall compliance by educating employers about how to 
comply in the future.
    The PAID program further seeks to improve compliance by providing 
employers with easy-to-access compliance assistance materials 
concerning the FLSA, requiring employers to review those materials 
before they can qualify to participate in the PAID program, and 
requiring employers to certify that they will comply with the FLSA 
going forward.
    Question. When DOL brings wage and hour claims on behalf of 
workers, it pursues the higher minimum wages provided for by many 
States' laws in determining backpay both for minimum wage and overtime 
pay; will DOL pursue those higher wages for participants in the PAID 
program?
    Answer. The Wage and Hour Division (WHD) does not have jurisdiction 
to enforce States' or localities' minimum wage laws or supervise the 
settlement of State law claims. Accordingly, WHD cannot provide waivers 
of employees' rights under State laws and can only supervise the 
payment of back wages within the Fair Labor Standards Act (FLSA)'s 
statute of limitations period.
    Question. Under this program, is it true that DOL will not be 
pursuing interest on the backpay? If so, what differentiates the PAID 
program from a program allowing employers to take interest-free loans 
from workers' paychecks without their approval?
    Answer. The Wage and Hour Division (WHD) does not charge interest 
in any cases if employers pay back wages by the next full pay period. 
Employers under the Payroll Audit Independent Determination (PAID) 
program must pay all back wages due by the end of the next full pay 
period after receiving the summary of unpaid wages, and provide proof 
of payment to WHD expeditiously. Nothing about how or when WHD charges 
an employer interest will change as a result of this program.
    Question. How will the Wage and Hour division (WHD) make 
determinations consistent with the announced purpose of the program 
which is, according to its March 6, 2018 press release, ``expedites 
resolution of inadvertent overtime and minimum wage violations under 
the Fair Labor Standards Act''?
    Answer. The Wage and Hour Division (WHD) maintains its discretion 
to determine whether to accept employers into the Payroll Audit 
Independent Determination (PAID) program. Potential participants are 
examined on a case-by-case basis. WHD will accept employers into the 
PAID program using the following criteria, among others, which are also 
clearly outlined for employers on WHD's website at www.dol.gov/whd/
paid.
  --Neither WHD nor a court of law has found within the last 5 years 
        that the employer has violated Fair Labor Standards Act (FLSA) 
        minimum wage and/or overtime requirements by engaging in the 
        same compensation practices at issue in the proposed PAID self-
        audit.
  --The employer is not currently a party to any litigation (private or 
        with WHD) asserting that the compensation practices at issue in 
        the proposed PAID self-audit violate FLSA minimum wage and/or 
        overtime requirements.
  --WHD is not currently investigating the compensation practices at 
        issue in the proposed PAID self-audit.
  --The employer is not specifically aware of any recent complaints by 
        its employees or their representatives to the employer, to WHD, 
        or to a State wage enforcement agency asserting that the 
        compensation practices at issue in the proposed PAID self-audit 
        violate FLSA minimum wage and/or overtime requirements.
  --The employer has not previously participated in the PAID program to 
        resolve potential FLSA minimum wage or overtime violations 
        resulting from the compensation practices at issue in the 
        proposed PAID self-audit.
  --The employer has a continuing duty to update WHD on any changes to 
        the above information and/or representations.
    Question. Won't the denial of participation of an employer to the 
PAID pilot and DOL's promise not to investigate such an employer 
prevent WHD from enforcing the Fair Labor Standards Act for employees 
not being paid what they are owed under the law?
    Answer. The Wage and Hour Division (WHD) does not grant immunity 
from investigations to employers who request participation in the 
Payroll Audit Independent Determination (PAID) program. If WHD declines 
an employer's request to participate, the employer's request to 
participate will not serve as the basis for a future investigation 
unless WHD has reason to believe that health or safety are at risk (for 
example, if there are child labor violations). To illustrate, if an 
employee subsequently submits a complaint to WHD concerning the 
employer's compensation practices, WHD may still investigate that 
complaint. WHD always maintains its discretion to determine whether to 
accept employers into the PAID program.
    WHD is always ready to help employers understand and comply with 
their legal obligations. WHD encourages employers to proactively seek 
compliance or technical assistance to comply with the laws the WHD 
enforces, and the PAID program is designed to facilitate this process. 
WHD wants to work with good faith employers to resolve inadvertent 
violations of FLSA minimum wage and overtime requirements. The 
Department remains committed to protecting all workers by fully and 
fairly enforcing the law.
    Question. Finally, how does the Wage and Hour division plan to 
evaluate outcomes of the PAID pilot beyond the increased timeliness of 
payment of back pay?
    Answer. The Wage and Hour Division (WHD) will implement the Payroll 
Audit Independent Determination (PAID) pilot program nationwide for 
approximately 6 months. At the end of the pilot period, WHD will review 
lessons learned and evaluate options for effective implementation 
moving forward. WHD will use a balanced approach in assessing all 
aspects of this pilot phase of the program, including quantitative and 
qualitative measures, as well as feedback from employees, employers, 
and WHD staff. Given that we remain in the pilot phase, it is too early 
to begin meaningfully evaluating the pilot.
          advisory board on toxic substances and worker health
    Question. Secretary Acosta, as a senator from the State of 
Washington, the Energy Employees Occupational Illness Compensation 
Program Act (EEOICPA) program is really important to me because we have 
thousands of workers and their families at the Hanford Nuclear 
Reservation located in the Tri-Cities who helped America win World War 
II and the Cold War and continue to support a critical cleanup mission 
at Hanford. It's also important to other members representing similar 
heroes and their families who are trying to secure compensation and 
care in a fair and timely manner. In 2014, Congress established the 
Advisory Board on Toxic Substances and Worker Health (Advisory Board) 
to assist the Department in improving the program and process for 
workers to receive the healthcare and benefits they have earned.
    While I appreciate your efforts to seek nomination and 
reappointment requests for the Advisory Board, the Department has now 
been reviewing nomination materials for over 5 months. In the meantime 
you've allowed the terms of all 15 Advisory Board members to expire in 
February and March of this year. I am very concerned that the great 
strides the Advisory Board made in recommending ways to improve Part E 
of EEOICPA is in limbo.
    When can we expect the Advisory Board to be appointed and 
functioning again?
    Answer. Twelve members were recently appointed to the Advisory 
Board on Toxic Substances and Worker Health for the Energy Employees 
Occupational Illness Compensation Program Act. The Department is 
currently in the process of notifying the selected appointees as well 
as the nominees who were not selected. Once the notification process is 
completed, a public announcement will be made naming each of the 
selected members. The Board will meet at least twice per year.
                        osha inspector vacancies
    Question. Mr. Secretary, the Occupational Safety and Health 
Administration (``OSHA'') has responsibility to set health and safety 
standards for over 100 million workers at millions of workplaces across 
the country and investigate corporations that may be putting their 
workers' lives and wellbeing at risk.
    But unfortunately, OSHA does not have the resources to meet this 
responsibility. Currently Federal OSHA only has the capacity to inspect 
workplaces under its jurisdiction once every 159 years.
    You've acknowledged the need to replace vacant inspectors and 
provided an exemption to the hiring freeze in order to start the 
process of hiring inspectors at OSHA. I believe you've stated that as 
of this month OSHA has about 65 hiring actions underway.
    What progress are you making in filling these vacant positions?
    Answer. Since the beginning of fiscal year 2018, 42 Compliance 
Safety and Health Officers (CSHOs) have been hired. In addition, the 
Occupational Safety and Health Administration (OSHA) has another 40 
pending selections currently in process. For 20 of the pending 
selections, the selected candidates have Entry-on-Duty (EOD) dates and 
will be on-boarded shortly. For the remaining 20 actions, selections 
have been made, pending documentation from tentative selections, or 
required physicals and/or security clearances. OSHA is also recruiting 
to ensure there is a continuous pool of CSHO applicants for selection 
for vacancies.
    It should be noted that despite the temporary reduction in 
inspectors due to attrition and retirements, between January 1 and 
December 31, 2017, OSHA conducted 31,944 inspections and issued 
citations for 52,515 violations. The number of inspections conducted in 
2017 increased year over year for the first time in 5 years despite 
OSHA's suspension of enforcement activities to provide more compliance 
assistance and to facilitate the provision of personal protective 
equipment during the hurricane recovery in areas affected by natural 
disasters this year.
    Question. When will these vacancies be filled with inspectors in 
the field conducting inspections?
    Answer. The Occupational Safety and Health Administration (OSHA) 
requires a comprehensive training program for inspector positions. New 
hires complete introductory courses at the OSHA Training Institute, on-
the-job training, and independent study before being released to do 
inspections independently. Supervisors evaluate and determine when each 
new hire has enough hands-on education and experience to conduct 
inspections independently.
    Question. The fiscal year 2019 budget request for OSHA is seeking 
funding for 42 additional enforcement positions, which I am happy to 
see. How many of these 42 new enforcement positions are for inspectors?
    Answer. The fiscal year 2019 President's Budget request for the 
Occupational Safety and Health Administration enforcement is for 42 
inspector positions.
                        hiring freeze exemptions
    Question. I am pleased that you have recognized OSHA does not have 
enough enforcement personnel and requested an exemption from the hiring 
freeze to begin hiring those needed staff. Will you be requesting 
exemptions to hire additional enforcement positions in your other 
essential agencies, including WHD?
    Answer. The Department of Labor no longer has a hiring freeze and 
there is no longer an exemption process. Following the approval of the 
Department's fiscal year 2018 Budget, the hiring exemption process was 
replaced with a streamlined personnel action authorization process that 
enables program offices, including the Wage and Hour Division (WHD), to 
expedite recruitment actions for mission critical occupations, 
particularly those in safety and enforcement positions. While the 
Department continues to review hiring requests for all position 
vacancies, the process is much faster, more streamlined, and requires 
only a one-page signoff for most of the Department's vacant positions, 
including positions such as wage and hour investigators in WHD, mine 
safety and health inspectors in the Mine Safety and Health 
Administration, occupational safety and health professionals in the 
Occupational Safety and Health Administration, and other investigative 
positions in the Office of Labor-Management Standards and the Employee 
and Benefits Security Administration. The streamlined approach puts 
most of the personnel decisions back in the hands of agency heads, 
while still requiring a central review for budget and other related 
considerations.
              gao report on workplace violence (gao-16-11)
    Question. In 2016, in response to a Government Accountability 
Office report on workplace violence (GAO-16-11) that I requested along 
with Representatives Bobby Scott, Joe Courtney and Frederica Wilson, 
OSHA updated its voluntary guidelines on preventing workplace in 
healthcare and social services and its enforcement procedures for 
addressing workplace violence under OSHA's general duty clause. 
However, OSHA has yet to issue its report that will help compliance 
officers develop citations in workplace violence cases.
    When will the report be issued?
    Answer. The Department recognizes the importance of preventing 
workplace violence in all workplaces, including the healthcare and 
social assistance sectors, and it has a long history of commitment to 
protecting healthcare employees from work-related physical harm and 
threats of physical harm.
    In December 2016, the Occupational Safety and Health Administration 
(OSHA) published a Request for Information (RFI), which will help the 
agency identify existing workplace violence prevention requirements. 
OSHA continues to review and analyze the comments submitted to the 
record in response to OSHA's RFI. OSHA is also conducting a formal 
assessment of healthcare violence using all data available through the 
Department (e.g., Bureau of Labor Statistics, OSHA) to establish a 
baseline for future assessment and is reviewing enforcement data from 
2005 to the present to inform this process.
    In addition, OSHA is currently working with the Institute for 
Healthcare Improvement/National Patient Safety Foundation to identify 
best practices related to the nexus between patient care and healthcare 
worker protections with industry stakeholders.
                    osha workplace violence standard
    Question. In early 2017, OSHA granted a petition from healthcare 
unions and committed to issuing a workplace violence standard for 
healthcare and social services, and started to move forward with the 
rulemaking process. But the Trump administration has sidetracked that 
effort, taking the workplace violence standard off the active 
regulatory agenda, placing it in a long- term status with any further 
action ``undetermined.''
    Secretary Acosta, do you agree that workplace violence is a serious 
and growing safety and health threat to workers- particularly women 
workers?
    Answer. The evidence points to workplace violence as a serious and 
growing concern in the healthcare and social-assistance sectors. In 
addition to information provided by stakeholders in response to a 
Request for Information, the Occupational Safety and Health 
Administration (OSHA) is conducting a formal assessment of healthcare 
violence using all data available through the Department (e.g., Bureau 
of Labor Statistics, OSHA) to establish a baseline for future 
assessment and is reviewing enforcement data from 2005 to the present 
to inform this process. OSHA is currently working with the Institute 
for Healthcare Improvement/National Patient Safety Foundation to 
identify best practices related to the nexus between patient care and 
healthcare worker protections with industry stakeholders.
    OSHA has conducted 60 workplace violence investigations in the 
healthcare setting in fiscal year 2018. Currently, 20 of these 
inspection are open. As a result of inspections initiated in fiscal 
year 2018, OSHA issued 14 hazard alert letters and two violations.
    Question. What action is OSHA taking under the Trump administration 
to address this threat? Will the Trump administration commit to move 
forward to develop an OSHA workplace violence standard and put the 
rulemaking back on the active regulatory agenda this spring?
    Answer. The Department recognizes the importance of preventing 
workplace violence in all workplaces, including the healthcare and 
social assistance sectors, and it has a long history of commitment to 
protecting healthcare employees from work-related physical harm and 
threats of physical harm.
    In December 2016, the Occupational Safety and Health Administration 
(OSHA) published a Request for Information (RFI), which will help the 
agency identify existing workplace violence prevention requirements. 
OSHA continues to review and analyze the comments submitted to the 
record in response to OSHA's RFI. OSHA is also conducting a formal 
assessment of healthcare violence using all data available through the 
Department (e.g., Bureau of Labor Statistics, OSHA) to establish a 
baseline for future assessment and is reviewing enforcement data from 
2005 to the present to inform this process.
    In addition, OSHA is currently working with the Institute for 
Healthcare Improvement/National Patient Safety Foundation to identify 
best practices related to the nexus between patient care and healthcare 
worker protections with industry stakeholders.
                   evidence-based program initiatives
    Question. Please describe the actions the Department is taking to 
develop more effective indicators for the spread of evidence 
development and use within and across DOL agencies.
    Answer. To develop more effective indicators for the spread of 
evidence development and use within and across the Department's 
agencies, the Performance Management Center (PMC), located in the 
Office of the Assistant Secretary for Administration and Management, 
leads the Department's results-driven management through strategic 
planning, continuous process improvement, and performance reporting 
associated with the Government Performance and Results Modernization 
Act of 2010. To ensure consistency across agencies and programs, PMC 
works closely with the Office of the Assistant Secretary for Policy.
    PMC also manages the Department's strategic planning process and 
agency-level operating plans; leads departmental reviews and public 
reporting to promote analysis, problem solving, risk management, and 
accountability; and promotes the use of data and evidence to manage 
programs and make decisions. In addition, PMC supports agencies in 
designing and executing operational improvements; provides analytical 
and statistical services to assist agencies in program design and 
development; and provides third-party facilitation of strategic 
planning, operations planning, or brainstorming activities.
    Question. Have you considered adopting the percentage of agencies 
appropriately applying evidence--as reviewed by the Chief Evaluation 
Officer--in agency grant programs and programmatic initiatives as a way 
to further the appropriate development and use of evidence throughout 
the Department?
    Answer. There are a number of strategies underway to ensure that 
the Department's agencies build and use evidence in program design and 
execution. Regular reviews of the agencies' operating plans are 
undertaken to continually improve efficiency and effectiveness of their 
programs. The Department uses results-based, data-driven management 
techniques. Each agency in the Department prepares an annual Operating 
Plan that details the strategies and resources it will apply to reach 
goals and objectives at all levels of the organization. Departmental 
leaders review performance against those operating plans each quarter 
to monitor progress and hold agencies accountable for implementing the 
plans, achieving milestones, and making adjustments as needed.
    To promote the development and use of evidence in agency grant 
programs, the Department requires as a condition of grant receipt, that 
all competitive grantees fully participate in Department evaluations. 
In some cases, grantees are required to procure an independent third-
party evaluation with incentives for rigorous designs. Some grant 
funding announcements use tiered funding, scoring priorities, or bonus 
scoring for evidence-based interventions or the inclusion of rigorous 
evaluation. The Chief Evaluation Officer works with program offices to 
draft grant funding announcements and often reviews grant applications 
and assesses the extent to which they include evidence-based 
strategies.
              elimination of women's bureau grant funding
    Question. The Women's Bureau is the only agency dedicated to 
identifying and promoting opportunities for women in the workplace. For 
almost 100 years, it has been the leading agency voice on equal pay; 
and it has a track record of performing cutting-edge research and 
policy analysis.
    This month, we recognized Equal Pay Day, marking how far women had 
to work into this year to make the same amount that men were paid last 
year.
    How will the Women's Bureau be more effective without grant funding 
for research on these critical issues and far fewer staff?
    Answer. The Women's Bureau's goal of promoting and advancing the 
interests of working women is important, and portions of that mission 
are recognized in other agencies across the Department. The Women's 
Bureau will focus its efforts on helping agencies, within and beyond 
the Department, to develop policies that advance the interests of 
working women and their families. This work is done by designing the 
research necessary to identify issues and solutions for working women, 
collaborating where appropriate with other agencies such as Employment 
and Training Administration, Office of Disability Employment Policy, 
and Veterans' Employment and Training Service, as well as relevant 
national, State, and local stakeholders outside the Department.
    Wage discrimination on the basis of sex is illegal and wrong. To 
ensure compliance with Federal anti-discrimination laws and provide 
redress in the event violations are found, Executive Order 11246 vests 
the Office of Federal Contract Compliance Programs (OFCCP) with the 
authority to investigate gender-based employment discrimination 
complaints and to remedy documented cases of pay discrimination for 
Federal contractors and subcontractors. Executive Order 11246 requires 
that Federal contractors and subcontractors take affirmative action, 
prohibits them from discriminating against applicants and employees on 
the basis of sex, and also prohibits discrimination against applicants 
or employees who discuss, disclose, or inquire about their compensation 
or the compensation of others, subject to certain limitations. The 
fiscal year 2019 President's Budget will focus OFCCP on doing high-
impact systemic compliance evaluations, implementing agency reforms 
that strengthen the contractor workforce development and education to 
support voluntary compliance with equal employment opportunity and 
nondiscrimination requirements.
    The Wage and Hour Division (WHD) also supports a robust enforcement 
and compliance assistance operation to ensure workers are remunerated 
fairly. WHD focuses many of its investigations in industries that 
typically employ large numbers of women workers. These industries, 
where labor violations are most prevalent, include the janitorial, 
healthcare, hotel, day care, garment, and restaurant industries. While 
WHD does not report gender-disaggregated back wage recovery data, in 
fiscal year 2017, WHD recovered more than $270 million in back wages 
for more than 240,000 employees, an average of $1,114 per person. In 
fiscal year 2017, WHD concluded more than 29,000 cases.
    In addition to enforcing wage protections, WHD also enforces the 
provisions of the Family and Medical Leave Act (FMLA), which entitles 
eligible employees of covered employers to take unpaid, job-protected 
leave for specified family and medical reasons. These protections can 
make a critical difference in women's ability to deliver on family 
caregiving obligations without sacrificing job security and long-range 
earning potential. In fiscal year 2017, WHD recovered almost $1.5 
million in back wages for FMLA violations by employers.
    The gender wage gap is a complex issue influenced by a variety of 
factors. The Department, through a combination of research and 
analysis, compliance and enforcement activities, and direct service 
programming delivered through the Federal workforce development system, 
is working to address this issue. The Women's Bureau serves an 
important role at the Department, utilizing research and educational 
tools to better understand and inform the public of the factors that 
may drive the gender wage gap. The fiscal year 2019 President's Budget 
will allow the agency to undergo reforms to focus on a narrower set of 
high-priority policy issues, working in close coordination with the 
White House and other Federal agencies.
    The Employment and Training Administration also supports programs 
to provide workforce development services for female workers. For 
example, the Women's Bureau is collaborating with the Office of 
Apprenticeship to recruit and retain women in pre-apprenticeship and 
apprenticeship programs as potential pathways for women to non-
traditional occupations that may have higher average salaries.
                       reporting local job growth
    Question. You and Senator Blunt discussed BLS data that did not 
reflect the gains in job growth that a community had experienced.
    What is the level of additional funding that the Bureau of Labor 
Statistics must have in order to provide more timely local employment 
information? Please include the additional funding requirements for 
both the development of internal BLS systems as well as the additional 
funding that BLS must provide to its State partners.
    Answer. The Current Employment Statistics (CES) program recently 
reviewed potential enhancements to its program including aligning CES 
estimates more frequently with population estimates, which would adjust 
current and historical estimates sooner. Aligning CES estimates with 
population estimates, or benchmarking, more frequently than once a year 
would require approximately $5 or $9 million per year in additional 
funding for Bureau of Labor Statistics (BLS) depending on whether 
benchmarking is done on a semi-annual or quarterly basis. This effort 
would take 2 years before the semi-annual or quarterly benchmarking 
could be implemented. In addition to the funding required to conduct 
more frequent benchmarking, BLS would need an additional $2.5 million 
per year to provide to its State partners for analysis of the benchmark 
revisions and outreach activities.
                    closing the career awareness gap
    Question. I appreciate your stated priority to close the ``career 
awareness gap'' so that students have the information they need to make 
good career decisions.
    To address this gap, what program improvements will the Bureau of 
Labor Statistics and the Employment and Training Administration make?
    Answer. The Department currently provides career information and 
career exploration tools that highlight work activities, wages, and 
typical education preparation, including related apprenticeship 
programs and certification. These include a site hosted by the Bureau 
of Labor Statistics (BLS) designed for K-12 use, www.bls.gov/k12, which 
includes career posters and other materials; the BLS Occupational 
Outlook Handbook, available online; My Next Move, www.mynextmove.org, 
which includes a career interest assessment and extensive information 
on a variety of different occupations and the preparations needed for 
those careers; and the mobile-friendly Get My Future site, 
www.careeronestop.org/GetMyFuture, designed for youth. The Department 
also makes available the workforce data used in these websites for 
public consumption.
    To help further reduce the career awareness gap, the Department's 
focus on promoting apprenticeship and other work-based learning 
approaches will provide opportunities to help young people learn of 
more career options and understand how best to achieve their career 
goals. Pre-apprenticeships, in particular, provide an important avenue 
for students to gain career and technical education to prepare them to 
enter full-time apprenticeship programs. The Department invests funds 
through YouthBuild, Job Corps, and apprenticeship grants to better 
connect at-risk students, especially those who have dropped out of high 
school, with hands-on occupational workforce education to better 
prepare them for jobs that they may otherwise be unaware exist.
    In accordance with the requirements of the Workforce Innovation and 
Opportunity Act (WIOA), the Department is also developing an Eligible 
Training Provider Scorecard. When complete, the Scorecard will provide 
job seekers, employers, and workforce system administrators with 
program of study-level information on WIOA-funded workforce development 
programs. This information, which will include data such as employment 
rates and earnings levels, will help support informed skills 
instruction and career decisions. The Department anticipates releasing 
the Scorecard in late 2019.
    Question. What are the budget requirements of these actions?
    Answer. The fiscal year 2019 President's Budget requested 
$67,194,000 for Workforce Information-Electronic Tools System Building 
through which the Department supports the collection and communication 
of workforce information as well as online career tools, including 
maintenance of the Eligible Training Provider Scorecard; $2,000,000 for 
Technical Assistance that supports key Workforce Innovation and 
Opportunity Act implementation activities; $84,534,000 for YouthBuild; 
$200,000,000 for apprenticeships; and $1,296,938,000 for Job Corps 
under the Employment and Training Administration. The fiscal year 2019 
President's Budget also requested $273,957,000 for Labor Force 
Statistics in the Bureau of Labor Statistics' Budget, through which the 
Department supports activities such as the Occupational Outlook 
Handbook, Employment Projections, and Occupational Employment 
Statistics.
                       proposed tip pooling rule
    Question. At the end of your testimony, you spoke at length about 
the analysis you performed for your proposed tip rule. Just to be 
certain we have clarity on the issue:
    Did DOL perform a quantitative analysis for your proposed tip rule? 
If so, who made the decision to not include it in the NPRM for the tip 
rule?
    Answer. Thank you, Senator Murray, and all others involved for 
working with the Department to create a bipartisan, win-win solution to 
the tip pooling issue. It is a positive outcome for all involved and a 
great model of how Washington can work together to solve issues 
affecting working Americans.
    Now that Congress has given the Department--for the first time--
express authority to prevent employers from taking employees' tips in 
all circumstances, the Department will use its new enforcement tools to 
protect American workers' tips--including by recovering all tips 
unlawfully kept by employers, and imposing liquidated damages and civil 
monetary penalties as appropriate. Consistent with the law, the 
Department will likewise use its enforcement tools to prohibit 
supervisors and managers from participating in tip pools. The 
Department issued Field Advisory Bulletin 2018-3, which confirms the 
Department's immediate enforcement of these new statutory provisions.
    As for the economic analysis in the Notice of Proposed Rulemaking, 
the Department looked at a number of options for calculating the 
potential costs and benefits of the proposal. In the end, the 
Department determined that the assumptions required to include a 
specific number were too unrealistic and did not provide accurate or 
helpful information for the public to use in evaluating the proposed 
rule. Instead, the Department included a qualitative analysis--just 
like the Department did in 2011 when it first promulgated the tip rule 
at issue--and asked the public to provide additional information 
concerning the assumptions and potential analyses for inclusion in the 
final rule.
                                 ______
                                 
            Questions Submitted by Senator Richard J. Durbin
                   career placement for at-risk youth
    Question. Chicago has experienced a heartbreaking wave of gun 
violence--in many cases, the areas in the city with the highest 
unemployment rates are the same as those with the highest rates of 
violence. Among young people of color in the Chicago metro area, youth 
disconnection is extremely chronic and concentrated with more than 20 
percent of Black youth and more than 11 percent of Latino youth ages 
16-24 both out of school and out of work. Youth employment programs in 
Chicago have played an important role in giving young people economic 
opportunity. These programs have been shown to reduce violent crime 
arrests by 33 percent. I've spoken with you several times about the 
importance of Federal support for programs that help reduce violence 
and create economic opportunity. In your testimony, you again mentioned 
your focus on ``eliminating programs that are less efficient or less 
effective''. I am concerned that this Administration has repeatedly 
spoken of eliminating certain workforce development programs. We should 
be working to build up these programs, not eliminate them. I've seen 
what these programs do--I've visited them, and I've heard from youth 
whose lives have been changed because they were given a chance at 
economic opportunity. I recently met with a group of YouthBuild 
students from Illinois. Each had a powerful story about the way the 
program had changed their lives, enabling them to develop new skills 
and become leaders in their communities.
    In the past year, what Federal initiatives has DOL supported to 
ensure that youth, especially those living in communities with high 
levels of violent crime, will have access to long-term career pathways 
that create economic mobility?
    Answer. The Department shares your concern about helping young 
people of color residing in high-crime communities access the necessary 
programs and skills to develop long-term career pathways. Recently, the 
Department awarded $84.4 million in Reentry Employment Opportunities 
(REO) grants to serve ex-offenders and justice system-involved youth 
residing in high-poverty, high-crime neighborhoods. Some of these 
awards were made to intermediary and community-based organizations, 
many of which are focused on serving young adult offenders.
    This past year, the Department also awarded $80 million in 
YouthBuild grants to 77 localities to allow youth to learn construction 
and other skills while building homes for low-income or homeless 
families. The Department also continues to serve at-risk youth through 
its Workforce Innovation and Opportunity Act Youth Formula programs and 
Job Corps, which provides education and workforce development services 
to at-risk youth between the ages of 16--24.
    Question. How is your Department working with public- and private-
sector partners, including State Workforce Agencies that administer the 
Work Opportunity Tax Credit, to place at-risk youth into long-term 
employment after completing job training programs?
    Answer. The Department's Workforce Innovation and Opportunity Act 
Youth program, YouthBuild, REO grants, and Job Corps engage small, 
medium, and large companies in order to provide meaningful work 
experience opportunities for at-risk youth. The Department also works 
with industry groups, companies, non-profit organizations, unions, and 
joint labor-management organizations to develop workforce development 
programs, such as pre-apprenticeship, apprenticeship, and career 
pathways that allow young people to earn and learn simultaneously, 
leading to family-sustaining jobs.
    The Department provides support to States to administer the Work 
Opportunity Tax Credit (WOTC) and the Federal Bonding Program. WOTC 
provides a tax credit to employers that hire formerly-incarcerated 
youth and young adults. The Federal Bonding Program provides bonds to 
employers that hire formerly-incarcerated youth and young adults. The 
Department is committed to promoting effective strategies that help 
lessen recidivism by partnering with industry, State agencies, and 
community and faith-based organizations, among others, through grants, 
technical assistance, and outreach efforts.
                 taskforce on apprenticeship expansion
    Question. I have supported expanding access to accountable, 
nationally-recognized registered apprenticeship and pre-apprenticeship 
programs. Last November, I sent you a letter asking you to use your 
role as Chair of the Task Force on Apprenticeship Expansion to identify 
strategies to increase apprenticeship opportunities for at-risk youth. 
In your response, you noted some of the great partnerships happening in 
Chicago between community colleges and companies that have developed 
their own apprenticeship programs.
    Can you provide me with examples of initiatives the Department is 
pursuing to make federally-supported apprenticeship programs accessible 
for at-risk youth?
    Answer. The Department recently awarded a $1.3 million grant to the 
Illinois Department of Commerce and Economic Opportunity to fund the 
Illinois Apprenticeship Plus System, an initiative for developing a 
comprehensive and modern apprenticeship system for Illinois. This 
project is projected to serve more than 3,000 apprentices by 2020. This 
initiative, which focuses on women, individuals with disabilities, 
communities of color, at-risk youth, individuals transitioning from 
incarceration, and low-income persons, will provide these underserved 
populations with apprenticeship opportunities in high-growth, in-demand 
occupational fields as manufacturing, healthcare, transportation, and 
distribution and logistics.
    The Department also recently awarded a National Equity contract to 
the Chicago Women in Trades' National Center for Women's Equity in 
Apprenticeship and Employment as part of a $20.4 million initiative to 
expand apprenticeship opportunities around the country for groups that 
are historically underrepresented in apprenticeship. This initiative 
emphasizes expanding access to apprenticeships for women, people of 
color, and other underrepresented populations in Chicago and its 
surrounding areas. The National Center will work with a consortium of 
10 organizations representing nearly every staffed tradeswomen's 
organization in the country and national subject matter experts to 
expand access to apprenticeship opportunities.
    In addition, the Department awarded a $2.5 million grant to Harper 
College in Palatine, Illinois to fund Apprenticeships on Demand, a 
program that integrates related technical education and on-the-job 
learning to educate workers in high-growth and in-demand occupations. 
Those completing the program may earn Associates' and Bachelor's 
degrees paid for by employers in fields such as manufacturing, 
insurance, and information technology. Forming a groundbreaking 
apprenticeship program in the insurance sector, Harper College 
partnered with Zurich North America, a global insurance company.
    Question. Has DOL continued to consult with stakeholders in 
Illinois about how apprenticeships can help youth in underserved 
communities?
    Answer. The Department has engaged in ongoing conversations with 
stakeholders to encourage apprenticeship development in the Chicago 
metropolitan area. For example, the Department has engaged in dialogues 
with not-for-profit organizations, such as the City Colleges of 
Chicago, Thrive Chicago, the Chicagoland Workforce Funder Alliance, and 
One Million Degrees, in order to explore strategies for expanding the 
availability of apprenticeships for underserved communities and at-risk 
youth.
                impact of automation on the us workforce
    Question. According to Ball State University, 50 to 60 percent of 
jobs in Illinois could be at risk of becoming automated when broken 
down by county. These changes in the American labor market will likely 
have a disproportionate impact on low-income workers. Today's workforce 
must be able to think and design with computerized tools to work 
through challenges in a modern manufacturing plant. Employees often 
find themselves working with advanced equipment and robotic instruments 
that require programming skills to operate them.
    What action does DOL plan to take to respond to changes in the 
workforce as a result of automation?
    Answer. The Department, in collaboration with the Department of 
Education, is focused on fostering strong collaboration between our 
workforce and educational systems. This collaboration is crucial to 
help ensure workers earn the credentials and workplace skills required 
to gain and maintain family-sustaining jobs.
    Further, as the nature of work continues to change, it is clear 
that we must also change our approach to preparing our workforce for 
the workplaces of the future. The most visible approach is one of the 
Department's top priorities--expanding apprenticeship opportunities. 
Apprenticeship systems must become more flexible to allow key 
stakeholders to adapt to changes in technology and to evolve to meet 
the skills demanded by employers.
    The Department is committed to increasing the number of high-
quality apprenticeships, including expansion into high-growth, emerging 
sectors and in rural areas where apprenticeships have historically been 
rare.
    Pursuant to the President's Executive Order 13801, Expanding 
Apprenticeships in America, the Department is developing a framework 
for industry-recognized apprenticeships that are flexible and 
responsive to market needs, less bureaucratic, and more attractive to 
American job creators. The Executive Order established a Task Force on 
Apprenticeship Expansion, including members from companies, trade and 
industry groups, educational institutions, labor unions, and others. 
The Task Force convened weekly to discuss how to engage more job 
creators and rapidly expand these models to help more Americans get 
back to work and issued its Final Report to the President on May 10, 
2018. The Department is starting to implement many of the 
recommendations outlined in the report. Industry-recognized 
apprenticeships will expand on the successes of the apprenticeship 
model. Industry-recognized apprenticeships will offer the workforce the 
benefit of companies, trade and industry groups, educational 
institutions, labor unions, and others coming together to fill open 
jobs by discerning the skills demanded by job creators and connecting 
those skills needed for job seekers. Once private, third-party 
certifiers are in place, industry-recognized apprenticeships will 
benefit from a streamlined process that ensures high-quality 
apprenticeships.
    An overwhelming majority of apprenticeship programs registered with 
the Department and State apprenticeship agencies are limited to job 
preparation in the traditional trades, such as construction. Our 
efforts have been focused on expanding the apprenticeship model into 
non-traditional industries where the Department sees the most growth 
and opportunity for employment. Industries such as advanced 
manufacturing, infrastructure, cybersecurity, and healthcare are new to 
earn-while-you-learn strategies and will benefit from this model. The 
Department's goal is to supplement, not supplant, the Registered 
Apprenticeship system in order to rapidly scale up the number of 
apprenticeships for in-demand occupations.
    In today's rapidly-changing economy, it is more important than ever 
to prepare workers to fill existing jobs and to prepare workers for the 
jobs of the future. Our educational and workforce systems must prepare 
individuals to acquire new skills as technology advances that enable 
individuals to become lifelong learners.
    Question. Is the Department working with businesses and States to 
determine what skills and training programs will be needed to address 
this shift?
    Answer. Yes. The Department administers the Workforce Innovation 
and Opportunity Act (WIOA), which is a State and locally-operated 
system led by business and industry. The majority of members on State 
and local workforce development boards consist of employers, who 
understand the skills needed to fill critically important positions. 
These boards are responsible for investing the majority of Federal 
workforce development dollars in communities and are designed to bridge 
the skills gap between job seekers and in-demand and growing 
industries. State and local workforce development boards work with 
governors and local elected officials to align workforce, economic 
development, education, and social service organizations and funding 
streams to provide streamlined, seamless services to employers and job 
seekers. Through this system, the Department, States, local 
governments, and the boards work together in close coordination with 
business and industry to provide workers with the skills they need for 
in-demand jobs in their local labor markets.
    American Job Centers also have Business Services Representatives 
(BSRs), who communicate information about apprenticeships to employers 
in their regions. This employer engagement is critical to ensuring that 
apprenticeship is incorporated into local workforce development 
strategies, supplementing traditional tools used by BSRs such as career 
fairs and recruitment support. American Job Centers may use work-based 
job education, internships, and/or workforce development as part of the 
array of services offered to businesses. BSRs can build on the trust 
they have developed with employers through these services to engage in 
a dialogue about apprenticeship.
                          job corps marketing
    Question. The Job Corps program is key to providing disconnected 
youth with the education and job training necessary to successfully 
enter the workforce and earn a living wage. In fiscal year 2018, the 
Committee report urged the Office of Job Corps to strengthen marketing 
for the Job Corps program and hire additional Outreach and Admissions 
staff to increase recruitment efforts in large cities in the United 
States, in particular cities currently experiencing increased levels of 
community violence. The budget proposal provides very little detail 
about a proposal to have Outreach and Admissions functions for Job 
Corps operated by State American Job Centers.
    How is the Department currently working with States and other 
partners to promote Admissions and fill Job Corps Centers, especially 
in cities with high levels of community violence?
    Answer. The Department's Office of Job Corps works primarily 
through its system of local Outreach and Admissions (OA) contractors to 
promote admissions and facilitate the enrollment of Job Corps students. 
OA providers develop relationships with local volunteer and civic 
organizations, faith-based groups, and other community organizations to 
promote the Job Corps program. The Office of Job Corps supports its OA 
contractors by providing a wide array of media and material for use 
during outreach events and to share with interested youth and groups 
that provide referrals. To have the greatest impact, Job Corps has 
targeted its national marketing strategy to digital advertising on 
online platforms, including social media, that are most likely to reach 
the Job Corps youth demographic. Job Corps is evaluating its outreach 
needs in high-crime urban areas that could benefit from more intense, 
targeted, grass-roots campaign approaches.
           job corps curriculum addressing labor market needs
    Question. One of the goals of WIOA is to ensure that workforce 
training programs are reflective of the economic needs of the local 
areas they serve. In line with these goals, Job Corps Centers are 
required to work closely with local and State Workforce Development 
Boards and employers in order to ensure that trades and Industry-
Recognized Credentials are reflective of local economic needs.
    How are the Employment and Training Administration and the National 
Office of Job Corps working with Centers to ensure that trades offered 
at Centers are reflective of the local labor market?
    Answer. As required by the Workforce Innovation and Opportunity Act 
(WIOA), all center operations solicitations require that offerors 
describe the career pathway programming activities that will be offered 
at the center and describe how the academics and career and technical 
education reflect State and local employment opportunities, including 
opportunities in in-demand industry sectors and occupations.
    Job Corps policies also require all centers to establish a 
workforce council to review local labor market information, including 
related information in the State or local plan, to provide 
recommendations to the center regarding its Career Technical Training 
offerings. Workforce councils are required to meet on a semiannual 
basis and are made up of employers, representatives of labor 
organizations, and often members of industry and workforce development 
organizations. Job Corps policy also requires center operators to 
participate in Local Workforce Development Board meetings and 
activities to ensure that the center is offering workforce development 
that aligns with local labor market needs.
    Question. Is the National Office of Job Corps working to develop 
new partnerships in communities that do not have a Center, or have 
recently experienced a Center closure, to expand access to training in 
underserved communities?
    Answer. The Office of Job Corps actively pursues partnerships at 
the national, regional, and center levels to expand access to workforce 
development services in underserved communities. Deliberate efforts are 
made to ensure that potential program candidates have access to 
outreach and admission services throughout the Nation. The Department 
is conducting a programmatic assessment of performance center by 
center, surveying physical facilities, assessing programmatic 
sustainability, and considering the workforce development needs in each 
State and area served by a Job Corps center. Using this deliberate 
approach, the Department will develop a plan to allocate the program's 
fiscal year 2019 resources. It is the Department's expectation that 
through concentration of Job Corps activities in higher-performing 
centers, the Department will provide Job Corps participants with 
higher-quality services that lead to better outcomes.
    In addition, in areas where a center has closed, efforts are made 
to ensure at-risk youth in those areas are able to attend centers that 
are nearby and offer skills instruction in trades that they are 
interested in pursuing.
    Under Title I of Workforce Innovation and Opportunity Act (WIOA), 
formula funds are provided to States and local workforce areas to 
deliver a comprehensive array of youth services. WIOA youth formula-
funded programs and YouthBuild offer many of the same or similar 
services delivered through Job Corps in a non-residential setting, such 
as: tutoring; alternative secondary school services; paid and unpaid 
work experiences; occupational skills education; leadership development 
opportunities; support services; comprehensive guidance and counseling; 
financial literacy education; entrepreneurial skills education; and 
postsecondary education and workforce development preparation 
activities. These programs focus on underserved populations, much like 
the Job Corps program.
    Further, the fiscal year 2019 President's Budget takes important 
steps to improve Job Corps for the youth it serves by focusing the 
program on the older youth for whom the program is more effective; 
improving center safety; and making other changes to sharpen program 
quality and efficiency. This includes ending the U.S. Department of 
Agriculture's (USDA) role in the Job Corps program. Workforce 
development is not a core USDA function, and the 25 centers it operates 
are overrepresented in the lowest performing cohort of centers. The 
fiscal year 2019 Budget continues the authority included in past 
appropriations bills that would allow the Department to competitively 
select a non-Federal entity to operate the former USDA centers.
    The Department is also working to enter into agreements with 
colleges and apprenticeship programs; provide thorough policy guidance 
in all areas of center/outreach and admissions/career transition 
services operations; and continue to deliver a wide-ranging program 
that prepares youth for the future. This will allow the Department to 
maximize the effectiveness of the Job Corps program and ensure young 
Americans are learning the skills demanded by job creators in the 21st 
century.
                   youth skills development training
    Question. By 2020, a majority of jobs will require education and/or 
training beyond high school. If the American workforce is not prepared, 
there could be a shortage of 5 million workers by 2020. Employers 
throughout Illinois have expressed concern about their inability to 
find qualified workers. This is an obstacle to growth for both American 
businesses and the American workforce. The Federal Government must 
prioritize providing young Americans with the tools they need to 
upskill and prepare for the workforce.
    How is the Department prioritizing youth workforce and skills 
development training?
    Answer. A large portion of the Department's discretionary skills 
instruction funding, over $2.8 billion, is prioritized to target youth 
and young adults, including the Workforce Innovation and Opportunity 
Act (WIOA) Youth formula grant, YouthBuild, Reentry Employment 
Opportunities, and Job Corps programs. These programs prioritize youth 
with barriers to employment by providing services that prepare them for 
success in employment and post-secondary education. Program activities 
are aimed at developing a strong career pipeline to provide youth, 
including out-of-school and justice system-involved youth, with work 
readiness skills and industry-driven credential attainment 
opportunities. These programs also equip youth with skills that prepare 
them for success in growing and in-demand industries.
    Through these youth programs, the Department is also providing 
opportunities for young people to access more earn-and-learn work-based 
models, such as apprenticeships. Paid work experience alongside the 
ability to earn educational credentials is one of the most effective 
ways individuals can prepare for the jobs of today and tomorrow. 
Currently, the WIOA Youth program emphasizes pre-apprenticeship 
opportunities by prioritizing work experience alongside education and 
workforce development. The YouthBuild program is expanding its focus to 
additional in-demand industries beyond construction that are aligned 
with the apprenticeship model. The Reentry Employment Opportunities 
grants now include a focus on apprenticeship and other intensive 
occupational skills instruction models to expand those opportunities to 
youth involved in the justice system.
    Question. You have supported expanding the apprenticeship model. 
How does the Department plan on providing full access to these new 
opportunities for young people who are preparing to enter the job 
market?
    Answer. Included in the May 2018 Final Report to the President by 
the Task Force on Apprenticeship Expansion was a recommendation to 
specifically expand and support pre-apprenticeship activities in middle 
and secondary schools. In implementing this recommendation, the 
Department will invest resources to reach out to younger students to 
educate them on different career paths so that they have a wider array 
of options and a clearer understanding of how to achieve their career 
goals from the start. The Department also provides opportunities for 
young people to access the apprenticeship model through each of the 
Department's youth programs. The Workforce Innovation and Opportunity 
Act Youth program emphasizes pre-apprenticeship opportunities by 
prioritizing work experience alongside education and workforce 
development. The YouthBuild program is expanding its focus to 
additional in-demand industries beyond construction that align with the 
apprenticeship model and is strengthening its pre-apprenticeship 
programs. The Reentry Employment Opportunities grants now include a 
focus on apprenticeship to expand those opportunities to youth involved 
in the justice system.
                                 ______
                                 
                Questions Submitted by Senator Jack Reed
   understanding consequences of automation for middle-class workers
    Question. The fiscal year 2018 Omnibus provides funding for the 
Department of Transportation to conduct a study with the Department of 
Labor to better understand the consequences of automation for middle-
class workers.
    Have you begun coordinating with the Department of Transportation 
on this study?
    Answer. The Department began initial conversations in the spring of 
2018 with the Department of Transportation regarding the study.
    Question. What are the plans and timeline for conducting the study?
    Answer. The Department of Transportation is leading this study. The 
Department of Labor is consulting with the Department of Transportation 
regarding plans and timelines, and is scheduled to meet the requested 
submission date of March 23, 2019.
                   taskforce on impact of automation
    Question. Do you think that the Department should establish a 
taskforce on automation and its impact on our workforce, particularly 
for industries related to transportation?
    Answer. On July 19, 2018, President Donald J. Trump issued an 
Executive Order entitled, ``Establishing the President's National 
Council for the American Worker.'' The Council will provide a forum for 
the development of a national strategy to address urgent workforce 
issues, including reskilling workers to account for new technology and 
automation for future economic growth.
    In addition, the Department of Transportation manages the 
Intelligent Transportation Systems Program Advisory Committee, 
administered according to the Federal Advisory Committee Act, which 
deals with all matters relating to the study, development, and 
implementation of intelligent transportation systems. Membership 
includes government agencies, companies and trade associations, and 
educational institutions. Although the Department of Labor is not an 
official participant on this Committee, the Department regularly 
coordinates with the Department of Transportation and other agencies to 
address matters related to workforce development. The Committee meets 
multiple times a year and addresses topics such as the impact of shared 
mobility, data-sharing policies for automated and connected vehicles, 
and workforce development initiatives.
              worker dislocation resulting from automation
    Question. What are your plans to address worker dislocation due to 
automation through your grant making authority such as through the 
National Dislocated Worker Grants?
    Answer. The Department's Dislocated Worker programs are currently 
positioned to assist workers to increase their skill levels as jobs 
become automated. The Dislocated Worker formula program and the 
National Dislocated Worker Grants provide resources to individuals and 
communities impacted by layoffs and other events. These programs help 
workers attain the skills they need to successfully transition into new 
careers. The Department is available to work with State and local 
governments and provide assistance in serving workers who may be 
impacted by automation in the future.
                         work sharing programs
    Question. The Middle Class Tax Relief and Job Creation Act of 2012 
included the Layoff Prevention Act, which modernized Federal work 
sharing laws. According to the Department of Labor, work sharing helped 
to save over 130,000 jobs before Federal incentives expired in 2015. 
Multiple studies show that communities with work sharing laws are in a 
stronger position to weather economic shocks with fewer jobs lost.
    Do you believe that work sharing programs also have the capacity to 
be used innovatively, such as to prevent layoffs due to automation?
    Answer. Work-sharing programs have the opportunity to be used 
innovatively. Short-Time Compensation (STC), also known as work sharing 
or the shared-work program, is an alternative to layoffs for employers 
experiencing a reduction in available work. STC preserves employees' 
jobs and employers' workforces during times of lowered economic 
activity. STC allows employers to reduce hours of work for employees 
rather than lay off some employees while others continue to work full 
time. Employees experiencing a reduction in hours are allowed to 
collect a percentage of their unemployment compensation (UC) benefits 
to replace a portion of their lost wages. STC cushions the adverse 
effect of the reduction in business activity on workers by averting 
layoffs and ensures that these workers will be available to resume 
prior employment levels when business demand increases.
    STC is intended to provide assistance during times of reduced 
economic activity in anticipation that the employer's business activity 
will resume and, ultimately, layoffs will not occur. The STC program is 
designed to help employers, employees, and communities weather and 
minimize the impact of downturns due to macroeconomic factors or 
business-specific situations.
    The Dislocated Workers program, authorized under the Workforce 
Innovation and Opportunity Act, provides funding to States, which may 
be used to support layoff aversion strategies, including promotion of 
the STC program to businesses. The Department routinely promotes STC as 
a lay-off aversion tool, such as through its Rapid Response website 
(https://www.doleta.gov/layoff/employers.cfm), in policy guidance 
(https://wdr.doleta.gov/directives/attach/TEN/TEN_9_12.pdf), and when 
providing technical assistance to States on rapid response and business 
engagement strategies.
    As the marketplace evolves, for example due to new technology, it 
is critical that employers and businesses adapt. While not a direct 
solution to layoffs due to automation, it is feasible that STC might 
support companies and their employees during a transition period as a 
company adopts new technologies. The program allows for STC 
participants to attend workforce education to acquire new skills and 
remain eligible for STC benefits. Thus, STC may be used while impacted 
employees are being upskilled, for example to repair and service new 
automated system(s), or transitioned to a different part of the 
employer's operations.
             matching credentials with local economic needs
    Question. Job Corps Centers are required to work closely with local 
and State Workforce Development Boards and employers in order to ensure 
that trades and Industry-Recognized Credentials they offer are aligned 
with local economic needs.
    What is the process for a Center to change a trade if they and 
their local partners deem it necessary?
    Answer. Job Corps Career Technical Training change requests require 
a center to provide justification for the trade change by submitting 
relevant labor market information and supportive documentation from 
local and State workforce development boards, employers, and industry 
councils. This information is verified by the Office of Job Corps, and 
if determined to be cost effective, the request to change the trade is 
approved.
    Question. How is the Employment and Training Administration and the 
National Office of Job Corps working with Centers to ensure that trades 
offered at Centers are aligned with local labor market needs?
    Answer. As required by the Workforce Innovation and Opportunity Act 
(WIOA), all center operations solicitations require that offerors 
describe the career pathway programming activities that will be offered 
at the center and describe how the academics and career and technical 
education reflect State and local employment opportunities, including 
opportunities in in-demand industry sectors and occupations.
    Job Corps policies also require all centers to establish a 
workforce council to review local labor market information, including 
related information in the State or local plan, to provide 
recommendations to the center regarding its Career Technical Training 
offerings. Workforce councils are required to meet on a semiannual 
basis and are made up of employers, representatives of labor 
organizations, and often members of industry and workforce development 
organizations. Job Corps policy also requires center operators to 
participate in Local Workforce Development Board meetings and 
activities to ensure that the center is offering workforce development 
that aligns with local labor market needs.
                         job corps instructors
    Question. Is Job Corps facing any teacher shortages?
    Answer. Job Corps serves at-risk youth often with multiple learning 
challenges and delivers educational programing on a twelve-month basis 
rather than on a traditional school-year calendar. Both of these 
factors contribute to teacher recruitment and retention challenges 
nationwide, but the program is not facing a widespread teacher 
shortage.
    Question. How competitive are Job Corps teachers' wages relative to 
public school teachers?
    Answer. Job Corps requires its contractors to pay wages comparable 
to those in the local market area for similar occupations based on 
local economic conditions. Contractors must be familiar with the local 
area labor market when recruiting for occupations that are critical to 
the performance and operation of the contract, including teachers.
    Question. How recently has the Office of Job Corps conducted a 
survey to update its estimates of market wages for teachers and other 
Job Corps staff in each locality?
    Answer. The Office of Job Corps has incorporated current salary 
data from the Bureau of Labor Statistic (BLS) into the Independent 
Government Cost Estimates that are required for center operations, 
Outreach/Admissions, and Career Transition procurements. The 
information is updated at a minimum every 2 years using the BLS data, 
which is locality specific. The last data update was made in the spring 
of 2016 using 2015 data. The Office of Job Corps is currently engaged 
in a data update using 2017 data.
  workforce innovation and opportunity act implementation and public 
                               libraries
    Question. The Workforce Innovation and Opportunity Act included 
language that encouraged States and local workforce boards to partner 
with public libraries.
    How have States included public libraries in their State plans?
    Answer. States have used a portion of their Workforce Innovation 
and Opportunity Act (WIOA) funding for partnerships with public 
libraries to conduct digital and financial literacy education 
activities; educate library staff about in-person and virtual 
employment and workforce development resources available; provide 
resume writing, interview preparation, and other adult education 
programs; use libraries' space to provide career assistance and host 
job fairs; and share workforce and labor market information.
    Examples of specific State plans show both innovations in the types 
of services being provided and institutionalization of library-
workforce partnerships. Rhode Island's Family Literacy Initiative has 
instituted technology workforce education and coaching in two public 
libraries and at an American Job Center to advance digital literacy. 
Ohio passed legislation to facilitate better partnerships between 
American Job Centers and public libraries. The Department understands 
that this has led to Memoranda of Understanding in several local areas 
between libraries and the workforce system. The New York Department of 
Labor awarded a grant using WIOA funding to the Queens Library to 
implement a curriculum that uses an integrated approach for adult 
educational providers to help meet the needs of high school equivalency 
students transitioning into higher education or a career.
    Question. How is the Department of Labor collaborating with the 
Institute of Museum and Library Services to implement these provisions?
    Answer. The Department has partnered with the Institute of Museum 
and Library Services (IMLS) for several years and continues to 
collaborate with libraries since the passage of Workforce Innovation 
and Opportunity Act. This collaboration included webinars to ensure 
both libraries and the workforce development system knew about the 
assets and services they each had available that could support 
jobseekers. The Department published guidance to the workforce system 
reiterating the importance of library partnerships and continues to 
make the workforce system aware of the resources available in libraries 
to support workforce development (See Training and Employment Notice 
35-15, ``Encouraging Collaborations between the Workforce Investment 
System and Public Libraries to Meet Career and Employment Needs'').
                                 ______
                                 
             Questions Submitted by Senator Jeanne Shaheen
                         job corps funding cuts
    Question. As I travel across New Hampshire and talk to stakeholders 
ranging from small business owners to students getting ready to pursue 
employment, a common theme I hear is about the importance of 
apprenticeships and how they help train the next generation to succeed 
in a changing workforce.
    That is why I have advocated for the Job Corps since my time as 
Governor. And I was proud that a center finally came to New Hampshire 
in 2015. The Center, which is located in Manchester, serves 350 
students annually. In the current program year, the Manchester Center 
has placed over 94 percent of its graduates in full-time jobs or 
advanced education.
    The Center serves individuals like Michline Cruz-Gonzales, who 
before arriving at the New Hampshire Job Corps in August 2016 didn't 
even have her driver's license. However, after 10 months working with 
the Center, Michline obtained her driver's license and completed 
Center's Clinical Medical Assistant trade program. Since June 2017, 
Michline is a full-time Medical Assistant at Portsmouth Internal 
Medicine making over $15 an hour
    Unfortunately, similar to last year's budget request, the President 
is again proposing to ignore this successful program that prepares 
students for apprenticeships by over $500 million or 30 percent. All 
the more concerning is the DOL's continued focus on closing some 
underperforming centers rather than working to improve their services.
    I was pleased that in the bipartisan omnibus that was just signed 
into law that Congress opposed these unwise cuts and provide Job Corps 
with the resources the programs need to continue training students. I 
am hopeful that we will do the exact same thing for this upcoming 
fiscal year.
    That's because--simply put, cutting resources will leave fewer 
opportunities nationwide for disadvantaged youth to obtain the skills 
and opportunities they need to gain employment.
    Secretary Acosta, if the Department believes that apprenticeships 
are an important tool to address workforce challenges, why does the 
Department continue to advocate for dramatic cuts to successful 
programs, such as the Job Corps?
    Answer. The fiscal year 2019 President's Budget takes important 
steps to improve Job Corps for the youth it serves by focusing the 
program on the older youth for whom the program is more effective; 
improving center safety; and making other changes to sharpen program 
quality and efficiency. This includes ending the U.S. Department of 
Agriculture's (USDA) role in the Job Corps program. Workforce 
development is not a core USDA function, and the 25 centers it operates 
are overrepresented in the lowest performing cohort of centers. The 
fiscal year 2019 Budget continues the authority included in past 
appropriations bills that would allow the Department to competitively 
select a non-Federal entity to operate the former USDA centers.
    The Department is also working to enter into agreements with 
colleges and apprenticeship programs; provide thorough policy guidance 
in all areas of center/outreach and admissions/career transition 
services operations; and continue to deliver a wide-ranging program 
that prepares youth for the future. This will allow the Department to 
maximize the effectiveness of the Job Corps program and ensure young 
Americans are learning the skills demanded by job creators in the 21st 
century.
    In addition, the Department is conducting a programmatic assessment 
of performance center by center, surveying physical facilities, 
assessing programmatic sustainability, and considering the workforce 
development needs in each State and area served by a Job Corps center. 
Using this deliberate approach, the Department will develop a plan to 
allocate the program's fiscal year 2019 resources. It is the 
Department's expectation that through concentration of Job Corps 
activities in higher-performing centers, the Department will provide 
Job Corps participants with higher-quality services that lead to better 
outcomes.
                       job corps center closures
    Question. Similar to last year's budget request, the budget 
proposal does not elaborate on how the agency would go about closing 
Job Corps Centers. If the Department of Labor continues to close 
Centers, how will you provide sufficient notice to Congress and the 
public?
    Answer. The Department is conducting a programmatic assessment of 
performance center by center, surveying physical facilities, assessing 
programmatic sustainability, and considering the workforce development 
needs in each State and area served by a Job Corps center. Using this 
deliberate approach, the Department will develop a plan for allocating 
the program's fiscal year 2019 resources. The Department is also 
looking for new, innovative strategies to deliver education and 
workforce development services to students enrolled in the Job Corps 
program and will work with Congress on implementing those efforts.
    Section 159(j) of the Workforce Innovation and Opportunity Act 
establishes procedures that must be followed before a Job Corps center 
may be closed. Prior to the closure of any Job Corps center, the 
Department is required by statute to announce publicly the proposed 
closure and allow for a comment period, not to exceed 30 days, before 
closing the center. The statute also requires that the Department 
notify the Members of Congress who represent the district in which the 
center is located. Should the Department determine to close any 
centers, the Department will provide the Members of Congress and the 
public with appropriate notification, as required by statute, before 
closing a center.
                    job corps student slot capacity
    Question. Another issue I am concerned with is the DOL's existing 
authority to cut student slot capacity for a given Program Year. Last 
year, the Department issued two information notices that indicated it 
was planning to cut student capacity by nearly 5,000 prospective 
students for the 2017 Program Year. You later rescinded this plan, but 
I wrote to you and asked that you justify why you were making these 
original capacity cuts. I am concerned the Department may do something 
similar in the coming program years.
    Does the Department intend to cut student capacity for the upcoming 
program year?
    Answer. The Department has made no decisions to cut student 
capacity at this time. The Department is conducting a programmatic 
assessment of performance center by center, surveying physical 
facilities, assessing programmatic sustainability, and considering the 
workforce development needs in each State and area served by a Job 
Corps center. Using this deliberate approach, the Department will 
develop a plan to allocate the program's fiscal year 2019 resources.
    Question. Does the Department have an estimate for what the impact 
of additional center closures will have on student capacity and 
students served?
    Answer. It is the Department's expectation that through 
concentration of Job Corps activities in higher-performing centers, we 
will provide Job Corps participants with higher-quality services that 
lead to better outcomes. Any center that is identified for closure will 
ensure students enrolled are transferred to nearby centers that offer 
skills instruction in the fields they are most interested in pursuing.
                       wioa state formula funding
    Question. I am also disappointed with your proposed cuts to State 
job training programs funded through the Workforce Innovation and 
Opportunity Act (WIOA). Your budget proposes cutting these programs by 
over 40 percent in next fiscal year.
    The widening skills gap has made it harder for employers to fine 
qualified, skilled workers to fill job openings. Time and again, 
business leaders across New Hampshire tell me that they have openings 
and would like to hire and expand, but they can't find enough employees 
with the right qualifications.
    In your prepared testimony, you mentioned the importance of 
``creating opportunities for Americans to develop the skills to fill--
and succeed in--the jobs of today and tomorrow.'' And I couldn't agree 
more. To ensure a sustained high-performing economy both in New 
Hampshire and around the country, we need to excel in aligning the 
skills required by employers with the skill sets of the local and 
regional labor pool.
    However, cutting this essential source of funding for States would 
likely have a devastating impact on a State's ability to address these 
workforce challenges. And a 40 percent cut doesn't seem to align with 
the message you brought today. For New Hampshire, your fiscal year 2019 
budget means more than 6,000 workers will lose assistance. What our 
State need is more resources, not less.
    How do you think States that have relied on these sources of 
funding for years will shoulder the burden of these cuts?
    Answer. The fiscal year 2019 President's Budget addendum restored 
the proposed funding cuts for the Workforce Innovation and Opportunity 
Act (WIOA) formula programs. In addition, the fiscal year 2019 Budget 
requested broad waiver authority for the core WIOA programs, which 
would allow State and local leaders to better address their workforce 
needs. Providing States greater flexibility to administer resources 
efficiently and effectively is another way to better serve the 
individualized needs of Americans.
    Question. Does the Department have an idea of how these proposed 
cuts would affect State agencies ability to address workforce needs?
    Answer. The Department is committed to working with States and 
local governments to ensure the American workforce is the greatest in 
the world. The fiscal year 2019 President's Budget request prioritizes 
investments in effective programs that help to align workforce 
development efforts with market demands.
    Question. Were any States consulted as the Department assembled its 
request?
    Answer. The Department has and continues to work with States and 
local governments to identify what works in the public workforce 
system, and has included many of these recommendations within its 
Budget request. Frequently, States have requested flexibility directly 
from the Department, and where the law allows, the Department has 
granted waivers to States requesting relief from some of the more 
burdensome requirements under WIOA. To date, 14 States have received 
such waivers after requesting such flexibility.
                    dol opioid-related grant program
    Question. The opioid crisis has not only constituted a public 
health emergency. But it has also affected businesses across the State. 
I've heard from many employers who are very concerned about the toll 
that the opioid crisis has taken on its employees. And when a worker is 
unable to meet their work obligations because of a substance use 
problem, it can also harm a company's ability to deliver for its 
customers.
    A report by New Futures found that in New Hampshire, substance 
abuse imposes a cost of $2.36 billion annually, equal to $1,760 per 
Granite Stater. The report also found that substance abuse causes $1.6 
billion in lost productivity and reduces State and local revenue by 
$87.6 million annually
    Secretary Acosta, I am encouraged by the Department's recent 
announcement that it will issue $21 million in grants to help provide 
new skills to workers who have been or are being impacted by the opioid 
crisis.
    Can you elaborate on how the DOL will prioritize applicants for 
these grants?
    Answer. The tragedies of opioid misuse and abuse devastate families 
and communities, and keep too many Americans out of the workforce. The 
importance of a job and work in reducing opioid abuse cannot be 
overstated. This is why the Department announced in March 2018 a 
National Health Emergency (NHE) Dislocated Worker Demonstration Grant 
Pilot Program--a grant program focused on returning individuals 
impacted by opioids to the workplace. Recently, the Department of Labor 
announced more than $22 million in this grant funding to six State 
grantees. The grants will be used to provide reemployment services for 
individuals impacted by the health and economic effects of widespread 
opioid use, addiction, and overdose. The six States receiving NHE 
Dislocated Worker Demonstration Grant funding are: New Hampshire 
($5,000,000); Pennsylvania ($4,997,287); Washington State ($4,892,659); 
Rhode Island ($3,894,875); Maryland ($1,975,085); and Alaska 
($1,263,194). The Department recently announced the availability of up 
to an additional $100 million for Trade and Economic Transition 
National Dislocated Worker Grants.
    For more information regarding the demonstration program and Trade 
and Economic Transition National Dislocated Worker Grants, please 
review Training and Employment Guidance Letters No. 12-17 and No. 2-18, 
which provide information on eligible applicants, allowable activities, 
and application requirements.
    The Department is committed to helping Americans recover, rebuild, 
and get back to work.
    Question. Is this grant a one-time opportunity? Or does the 
Department and Administration plan on rolling out similar opportunities 
in the future?
    Answer. The Department is committed to taking the steps necessary 
to end the opioid crisis. The Bureau of Labor Statistics Time-Use 
Survey found that 44 percent of prime-age men (aged 25--54) not in the 
labor force acknowledged taking pain medication the previous day. 
Recent studies suggested that up to 20 percent of the steady decline in 
labor force participation among prime-age men may be attributed to 
opioid use.
    The National Health Emergency Dislocated Worker grants are the 
first phase of funding opportunities available to counter the 
employment impacts of the opioid crisis. The tragedies of opioid misuse 
and abuse devastate families and communities, and keep too many 
Americans out of the workforce. The importance of a job and work in 
reducing opioid abuse cannot be overstated.
                         increasing h-2b visas
    Question. As you know, under the Consolidated Appropriations Act 
for fiscal year 2018, the Secretary of Homeland Security can, after 
consulting with you, approximately double the number of H-2B visas 
available for temporary nonagricultural workers for this fiscal year.
    I have heard from many small businesses in New Hampshire who 
desperately need workers for their peak seasons and who are struggling 
under the current uncertain situation. As a result, I joined a 
bipartisan group of 32 other Senators in a letter on April 2nd asking 
you and the Secretary of Homeland Security to take immediate steps to 
increase the number of available visas and efficiently process pending 
petitions to ensure that American businesses are able to hire their 
seasonal workers on time.
    What is the status of your consultation with Secretary Nielsen?
    Answer. On May 31, 2018, in an effort to assist U.S. businesses 
that are unable to locate a sufficient number of American workers to 
fulfill their workforce needs, DOL and DHS jointly published a 
Temporary Rule: Exercise of Time-Limited Authority to Increase the 
fiscal year 2018 Numerical Limitation for the H-2B Temporary 
Nonagricultural Worker Program. This temporary rule provides a one-time 
fiscal year 2018 increase of the H-2B visa cap by up to 15,000 visas to 
assist those American businesses that are likely to suffer irreparable 
harm (i.e., permanent and severe financial loss) without the employment 
of H-2B nonimmigrant workers in fiscal year 2018. These employers must 
also retain documentation that demonstrates their businesses' 
likelihood to suffer irreparable harm if they do not receive H-2B 
workers in fiscal year 2018. For additional details and requirements, 
the Temporary Rule is published in the Federal Register here: https://
www.gpo.gov/fdsys/pkg/FR-2018-05-31/pdf/2018-11732.pdf.
    In the first five business days of filing with U.S. Citizenship and 
Immigration Services (USCIS) within DHS for the additional visas 
(between May 31 and June 6, 2018), USCIS received petitions for more H-
2B workers than the additional 15,000 visas available under the fiscal 
year 2018 temporary rule. USCIS conducted a lottery on June 7, 2018. On 
June 11, 2018, USCIS announced completion of the lottery and began 
issuing notifications to selected employers. Details on the USCIS 
announcement can be found here: https://www.uscis.gov/news/alerts/
uscis-completes-lottery-temporary-increase-fy-2018-h-2b-cap.
    Question. When can businesses in New Hampshire and across the 
country expect additional H-2B visas to become available?
    Answer. In the first five business days of filing, DHS received 
petitions for more beneficiaries than the 15,000 visas available under 
the fiscal year 2018 temporary rule. Accordingly, regulations required 
DHS to use a computer-generated selection process, commonly known as a 
lottery, to randomly select enough petitions to meet, but not exceed, 
the increased H-2B visa cap for fiscal year 2018. DHS conducted this 
lottery on June 7, 2018, which included petitions received from 
employers between May 31, 2018, and June 6, 2018. On June 11, 2018, DHS 
announced completion of the lottery and began issuing notifications to 
selected employers. Details on the DHS announcement can be found here: 
https://www.uscis.gov/news/alerts/uscis-completes-lottery-temporary-
increase-fy-2018-h-2b-cap.
                  e-delivery of finanical information
    Question. As I'm sure you agree, it is critical for individuals 
planning for retirement to be able to access information about their 
investments in a convenient fashion. Unfortunately, some of DOL's rules 
for employees to receive DOL required information on their retirement 
plan are out of date. Given the increase in employees accessing 
retirement information electronically, it makes sense to have 
electronic delivery be the default method for retirement savers while 
including important consumer protections for those who would like to 
continue receiving information on paper. This approach would save costs 
for retirement savers, save countless amounts of wasted paper, protect 
the environment and help connect savers with a wealth of online tools 
and resources to help put them on a better path to a secure retirement.
    Secretary Acosta, do you believe that eDelivery would help 
employees better understand their retirement plans and help them save 
for retirement?
    Answer. Current law requires that workers receive many important 
disclosures about their benefits, and the Department strives to make 
sure those disclosures are understandable and useful. Disclosure rules 
and regulations ought to be carefully crafted in light of the costs and 
burdens imposed on workers, plan administrators, and employers.
    The broader use of electronic delivery may be one way to improve 
the effectiveness of disclosures and to reduce the costs and expense of 
furnishing required disclosures. There have been substantial changes in 
technology since the enactment of the Employee Retirement Income 
Security Act, both in the workplace and at home. The Department must 
carefully consider those changes and the opportunities they have 
created for the Department to improve its disclosure regulations 
governing employee benefit plans, and consistent with law and sound 
policy, make required disclosures more accessible and useful to workers 
while reducing burden and cost.
    Question. What steps will you take to ensure savers have access to 
their financial information in a manner that is commensurate with the 
21st century?
    Answer. Please see the response to the prior question.
                                 ______
                                 
              Questions Submitted by Senator Brian Schatz
                  trade adjustment assistance program
    Question. The fiscal year 2019 Budget Justification proposes a 
change to the TAA program to focus on apprenticeships and on-the-job 
training rather than classroom-based training. Specifically, the 
Department proposes to make ``apprenticeship--which provides wages 
along with a learning component--and on-the-job training the only forms 
of allowable training, while still allowing participants to access 
other forms of training if insufficient work-based training 
opportunities are available in their area.''
    How will the Department ensure that work-based training 
opportunities are available in the participants' areas?
    Answer. In the fiscal year 2019 President's Budget, the Department 
proposes legislation to reauthorize the TAA for Workers Program through 
fiscal year 2028, shifting the focus from traditional classroom 
education to work-based education. This proposal refocuses the TAA 
program by emphasizing the importance of on-the-job training, including 
apprenticeship, which provides wages along with a learning component, 
and participants would be able to continue to access other forms of 
skills instruction if insufficient work-based skills instruction 
opportunities are available in their area. Focusing the program on 
these earn-as-you-learn strategies will ensure that participants are 
obtaining skills for relevant occupations. States will also be 
encouraged to place a greater emphasis on intensive reemployment 
services for workers who are not participating in work-based education 
by getting those workers into the workforce more quickly.
    The Department has been working to expand apprenticeship, 
particularly into non-traditional industries where the Department sees 
the most growth and opportunity for employment in a local community and 
region. Industries such as advanced manufacturing, infrastructure, 
cybersecurity, and healthcare are new to earn-while-you-learn 
strategies and offer more flexibility and the ability to work remotely, 
more so than other sectors of the economy.
    Question. Will the Department work with local employers to help 
provide these opportunities?
    Answer. Yes. The Department is working with businesses at the State 
and local level through the State apprenticeship offices under the 
registered system and State Apprenticeship Agencies, which have 
Apprenticeship & Training Representatives that provide consultation to 
all employers. The staff support the employers through the entire 
process of developing and implementing apprenticeship programs.
    The Department also oversees the administration of the Workforce 
Innovation and Opportunity Act (WIOA), which is a State and locally-
operated system led by business and industry. Employers make up 51 
percent of the State and local boards that direct funding for 
employment activities in in-demand and growing industries. 
Apprenticeships are an integral and proven strategy for helping 
individuals gain the skills needed to work, and will continue to be a 
strategy utilized under WIOA. Registered Apprenticeships are also 
automatically included on the State's Eligible Training Provider List, 
which streamlines access to WIOA funding.
    American Job Centers also have Business Services Representatives 
(BSRs), who communicate information about apprenticeships to employers 
in their regions. This employer engagement is critical to ensuring that 
apprenticeship is incorporated into local workforce development 
strategies, supplementing traditional tools used by BSRs such as career 
fairs and recruitment support. American Job Centers may use work-based 
job education, internships, and/or workforce development as part of the 
array of services offered to businesses. BSRs can build on the trust 
they have developed with employers through these services to engage in 
a dialogue about apprenticeship.
    Question. In the past 5 years, what percentage of TAA participants 
used their funds for 1) on-the-job training only, 2) classroom-based 
training only, and 3) mix of both?
    Answer. From fiscal year 2012 through fiscal year 2017, the Trade 
Adjustment Assistance (TAA) program provided on-the-job (OJT) and/or 
classroom instruction to 63 percent of total participants. Of those who 
received these services, 1 percent received on-the-job services only, 
98 percent received classroom-based services only, and 1 percent 
received both classroom-based and on-the-job services.

          TAA PARTICIPANTS WHO RECEIVED OJT/CLASSROOM SERVICES
                FISCAL YEAR 2012 THROUGH FISCAL YEAR 2017
------------------------------------------------------------------------
         Services Received                 Percent of Participants
------------------------------------------------------------------------
                  OJT Only                                    1
rrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrr
                          Classroom Only                     98
rrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrr
                          Classroom and OJT                   1
rrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrrr
                     Total                                  100
------------------------------------------------------------------------


    Question. If workers would like to pursue a mix of both--i.e., if 
the work-based training provides coursework opportunities--will 
participants be allowed to do so under the Department's proposed 
changes to the TAA program?
    Answer. Yes, work-based education, such as apprenticeships, 
includes an educational component, which can oftentimes require in-
classroom experience. This proposal refocuses the TAA program by 
emphasizing the importance of on-the-job training, including 
apprenticeship, which provides wages along with a learning component, 
and participants would be able to continue to access other forms of 
skills instruction if insufficient work-based skills instruction 
opportunities are available in their area. Focusing the program on 
these earn-as-you-learn strategies will ensure that participants are 
obtaining skills for relevant occupations. States will also be 
encouraged to place a greater emphasis on intensive reemployment 
services for workers who are not participating in work-based education 
by getting those workers into the workforce more quickly.
                     metrics for paid pilot program
    Question. What are metrics of success for the Wage and Hour 
Division's PAID pilot program? For instance, how much back-wage payment 
should be made to workers for the Department to deem the pilot a 
success?
    Answer. The Wage and Hour Division (WHD) will implement the Payroll 
Audit Independent Determination (PAID) pilot program nationwide for 
approximately 6 months. At the end of the pilot period, WHD will review 
lessons learned and evaluate options for effective implementation 
moving forward. WHD will use a balanced approach in assessing all 
aspects of this pilot phase of the program, including quantitative and 
qualitative measures, as well as feedback from employees, employers, 
and WHD staff. Given that we remain in the pilot phase, it is too early 
to begin meaningfully evaluating the pilot.
             enforcement activity under paid pilot program
    Question. Will the Wage and Hour Division's enforcement activity 
decrease as a result of the PAID pilot program?
    Answer. No. The Wage and Hour Division (WHD) continues to maintain 
an active and balanced enforcement program that includes both agency-
initiated cases and complaint cases, as well as compliance assistance. 
In fiscal year 2017 alone, WHD found more than $270 million in back 
wages--the second-highest amount WHD has ever recorded--for more than 
240,000 workers.
    Self-audits are one of many existing tools already available to 
WHD. The Payroll Audit Independent Determination (PAID) pilot provides 
another avenue to recovery for employees who earned wages, but were not 
appropriately compensated. In general, PAID will streamline the 
resolution of compliance issues and improve compliance overall, which 
WHD expects will enable the agency to focus more of its resources on 
bad actors who intentionally violate the law. WHD will implement this 
pilot program nationwide for approximately 6 months. At the end of the 
pilot period, WHD will evaluate the effectiveness of the pilot program, 
including its impact on enforcement activity, before determining next 
steps.
    Question. Can you guarantee to me that the resources put behind 
targeted enforcement will not decrease in fiscal year 2019 as a result 
of the PAID pilot program?
    Answer. The Wage and Hour Division (WHD) will not devote fewer 
resources to targeted enforcement as a result of the Payroll Audit 
Independent Determination (PAID) program. The percentage of agency-
initiated investigations target, which is a key WHD performance 
measure, remains at 46 percent from 2018-2022 in the Department's 
Strategic Plan. WHD will implement this pilot program nationwide for 
approximately 6 months. At the end of the pilot period, WHD will review 
lessons learned and evaluate options for effective implementation 
moving forward. WHD will use a balanced approach in assessing all 
aspects of this pilot phase of the program, including quantitative and 
qualitative measures, as well as feedback from employees, employers, 
and WHD staff.
                     regulation of the gig economy
    Question. You have said in the press that you plan to remove 
regulations that are holding back the gig economy.
    Do you believe regulations are holding back workers, not just 
companies, in the gig economy?
    Answer. Workers in the entrepreneurial economy can benefit from 
regulatory changes. Many small businesses and their employees have 
struggled with government restrictions that limit access to quality, 
affordable health coverage. The recently-finalized Association Health 
Plan (AHPs) reform will address many of the inequities between small 
and large businesses in access to that coverage. For the first time, 
working owners without other employees (including sole proprietors, 
such as those in the entrepreneurial economy) and their families will 
be permitted to join AHPs.
    The Department remains committed to protecting all workers by fully 
and fairly enforcing the law. The Department's efforts are carried out 
in accordance with both well-established case law and existing 
Department regulations. The entrepreneurial economy is hamstrung by the 
fact that labor laws were designed for a different time and do not 
easily apply to many of the technological innovations that are 
transforming how individuals choose to participate in the workforce. 
Any change to the law would need to occur through the legislative 
process.
    Question. How does the Department plan to protect gig-economy 
workers who lack the benefits and protections of full-time employees?
    Answer. For the first time, working owners without other employees 
(including sole proprietors, such as those in the entrepreneurial 
economy) and their families will be permitted to join Association 
Health Plans (AHPs). AHPs, under the Department of Labor's newly-
finalized rule, are group health plans that employer groups and 
associations offer to provide health coverage to employees. AHPs allow 
small employers to band together to purchase the types of coverage that 
are available to large employers, which can be less expensive and 
better tailored to the needs of their employees.
                                 ______
                                 
              Questions Submitted by Senator Tammy Baldwin
                         osha silica standards
    Question. OSHA has issued two new standards to better protect 
workers exposed to respirable crystalline silica, including one for 
construction and one for general industry and maritime. Worker 
inhalation of silica can lead to an incurable lung disease known as 
silicosis, lung cancer, chronic obstructive pulmonary disease, and 
kidney disease.
    I am pleased that OSHA began enforcing the standard for 
construction on September 23, 2017. OSHA reported that it would offer 
compliance assistance for the first 30 days, and on October 23 it would 
begin full enforcement of the silica construction standard.
    How many inspections and citations has OSHA issued for that 
standard since it went into effect?
    Answer. The Occupational Safety and Health Administration (OSHA) 
began enforcing the Respirable Crystalline Silica in Construction 
standard (29 CFR 1926.1153) on September 23, 2017. Since September 23, 
2017, OSHA has conducted 116 not-in-compliance silica inspections, 
resulting in 188 citations.
    Question. Further, OSHA announced it will begin enforcing the 
standard for general industry and maritime on June 23, 2018. As 
Secretary, how will you ensure full implementation and enforcement of 
the silica standards amid the administration's proposed DOL funding 
decrease for fiscal year 2019?
    Answer. OSHA is currently enforcing the silica rule in 
construction, general industry, and maritime. The fiscal year 2019 
President's Budget Request for OSHA does not reflect a programmatic 
decrease, but rather includes a request for 42 additional compliance 
safety and health officers. Additionally, OSHA continues to engage with 
stakeholders in general industry to provide compliance assistance to 
meet the new standard. OSHA's website has a number of helpful resources 
including compliance materials, fact sheets, and best practices for 
those seeking additional information on how to comply with the rule.
              fair labor standards for gig economy workers
    Question. States and local governments often serve as 
``Laboratories of Democracy,'' where they enact new laws, and 
regulations that eventually become the model for similar Federal 
action. In recent years, States such as California and New York have 
taken action to hold accountable so called ``gig economy'' companies 
whose business models seem to skirt existing regulations. For example, 
California's Public Utilities Commission recently announced that Uber 
fits the State's definition of a transportation network company and has 
for years unfairly avoided paying the requisite fees by not registering 
as such. Other States such as New York and Massachusetts have heard 
court cases on whether companies like Uber and Lyft misclassify their 
employees as independent contractors.
    Mr. Acosta, as these States take action to make sure all businesses 
are adhering to the same fair labor and business standards, do you 
believe there is a role for the Department of Labor's Wage and Hour 
Division to look into whether these companies' labor practices violate 
the Fair Labor Standards Act?
    Answer. The Department remains committed to protecting all workers 
by fully and fairly enforcing the law. In fiscal year 2017 alone, the 
Wage and Hour Division (WHD) found more than $270 million in back 
wages--the second-highest amount WHD has ever recorded--for more than 
240,000 workers. The Department's efforts are carried out in accordance 
with both well-established case law and existing Department 
regulations. The entrepreneurial economy is hamstrung by the fact that 
labor laws were designed for a different time and do not easily apply 
to many of the technological innovations that are transforming how 
individuals choose to participate in the workforce. Nevertheless, WHD 
continues to work with our State partners in a variety of ways and has 
entered into memoranda of understanding with more than 40 States to 
collaborate on compliance assistance and enforcement. WHD remains 
engaged at the local level via our 54 District Offices, and through its 
Community Outreach and Resource Planning Specialists, who engage 
directly with States and stakeholders at the local level nationwide.
    Question. Has your Department undertaken such a review? Do you plan 
to in the future?
    Answer. The Department of Labor's Wage and Hour Division (WHD) 
investigates companies on a case-by-case basis. The Department remains 
committed to protecting all workers by fully and fairly enforcing the 
law. The Department's efforts are carried out in accordance with both 
well-established case law and existing Department regulations.
                whistleblower protection program funding
    Question. OSHA's Whistleblower Protection Program faces many 
structural and financial handicaps, making it difficult to enforce the 
22 Federal whistleblower statutes that it administers. An audit by the 
Department of Labor Office of Inspector General in September 2015 
concluded: OSHA did not consistently ensure complaint reviews under the 
Whistleblower Programs were complete, sufficient, and timely; OSHA did 
not ensure the manual and training reflected the most recent program 
updates and changing priorities; more than 70 percent of investigations 
were not conducted within statutory timeframes; and OSHA did not 
adequately and timely communicate the violations alleged by 
whistleblowers internally to OSHA's enforcement units or externally to 
other Federal agencies with jurisdiction to investigate the 
allegations.
    What concrete actions do you plan to take as Secretary to 
prioritize OSHA's Whistleblower Protection Program amid the proposed 
DOL funding decrease for fiscal year 2019?
    Answer. The fiscal year 2019 President's Budget proposed no funding 
changes to the Whistleblower Protection Program. The fiscal year 2019 
request will enable the Occupational Safety and Health Administration 
(OSHA) to continue to build on improvements in the program. OSHA 
expects to receive approximately 3,400 docketed complaints and conduct 
approximately 3,000 whistleblower investigations. To improve the 
investigative process, OSHA will continue to pilot new processes, such 
as the Expedited Case Processing and the Administrative Dismissals 
Report of Investigation, with the purpose of identifying steps in the 
investigative process that can be streamlined without compromising 
quality. Successful pilot programs will then be implemented nationwide 
and eventually incorporated into the Whistleblower Investigations 
Manual (WIM).
                     osha investigator staff levels
    Question. In 2016, at the recommendation of Congress, stakeholder 
organizations, the GAO, and the Whistleblower Advisory Committee, OSHA 
made substantial improvements to its Whistleblower Investigations 
Manual. However, questions remain about effective enforcement of the 
manual amid limited staff capacity and resources.
    As Secretary, what actions would you take to ensure that OSHA 
whistleblower investigators are fully staffed and in compliance with 
the updated manual amid the administration's proposed DOL funding 
decrease for fiscal year 2019?
    Answer. The Occupational Safety and Health Administration (OSHA) is 
working to fill whistleblower investigator vacancies to ensure the 
agency is fully staffed. Since the start of fiscal year 2018, OSHA has 
hired four whistleblower investigators, and there are ongoing hiring 
actions for six additional whistleblower positions. OSHA will continue 
to offer comprehensive training through webinars and in-person courses 
at the OSHA Training Institute to provide investigator staff with the 
most up-to-date techniques, strategies, and tools for conducting 
successful investigations, consistent with the Whistleblower 
Investigations Manual.
            modernizing whistleblower protection regulations
    Question. Outdated and inconsistent whistleblower laws (compounded 
by resource restraints) have hampered DOL's ability to implement the 
OSHA Whistleblower Protection Program. Most of the DOL-administered 
whistleblower statutes enacted before 2000 have become obsolete and are 
virtually unenforceable. For instance, more whistleblower complaints 
have been filed under Section 11(c) of the Occupational Safety and 
Health (OSH) Act of 1970 than all other combined whistleblower laws 
enforced by DOL. However, between fiscal year 2005--2013 whistleblowers 
won in less than 2 percent of cases. Part of the problem is the short 
statute of limitations. One third of DOL's whistleblower laws require 
employees to file a complaint within 30 days of the adverse action. 
Yet, workers often do not learn an action is retaliatory until after 
that timeframe and miss their window. Conversely, employees have 180 
days to file a complaint under DOL's last 12 enacted whistleblower 
laws, increasing their rate of enforcement. Inconsistencies with the 
burden of proof, due process, and temporary reinstatement, among other 
areas, also cripple the older statutes. This creates confusion among 
DOL, employers and employees alike. Conversely, most Federal employees 
enjoy whistleblower protections under one primary law, the 
Whistleblower Protection Act, which Congress unanimously strengthened 
in 2012.
    As Secretary, do you support Title II of the Protecting America's 
Workers Act, which would modernize section 11(c) of the Occupational 
Safety and Health Act and expand coverage to additional workers?
    Answer. The Department fully supports the Occupational Safety and 
Health Administration's (OSHA) Whistleblower Protection Program (WPP), 
including ensuring the appropriate and timely sharing of complaints 
with other agencies and making sure there are appropriate resources to 
fulfill the WPP's mission. OSHA collaborates with several partners and 
other agencies impacted by the whistleblower statutes to ensure a basic 
exchange of information and facilitate referrals between each agency, 
including cross training investigators, conducting outreach, providing 
technical support, and sharing information.
    Question. Do you think Adjusting the 30 statute of limitations in 
11(c) to be more consistent with the 180 days employers have to file a 
complaint under DOL's last 12 enacted whistleblower laws would make the 
law more consistent and fair to workers?
    Answer. Please see the response to the prior question. In addition, 
in July 2017, the Occupational Safety and Health Administration revised 
the Whistleblower Online Complaint form to assist whistleblowers in 
finding the correct agency in which to file their complaint.
    Question. Further, do you support consolidating the 22 DOL-
administered whistleblower statutes into one coherent law that reflects 
the gold-standard whistleblower rights that have received unanimous 
congressional support over the past decade?
    Answer. Please see the response to the prior question.
                       greif inc. osha violations
    Question. The U.S. Occupational Safety and Health Administration 
cited the Mid-America Steel Drum facility, located just North of 
Milwaukee, Wisconsin, for 15 serious violations for exposing workers to 
chemical and heat-related burns, toxic gases, dangerous noise levels, 
risk of falls and other hazards. The Milwaukee Journal Sentinel has 
reported that a former safety consultant to the company, Will Kramer, 
documented these same safety violations and recommendations to abate 
the hazards in a detailed report he provided to the company prior to 
the OSHA investigation that led to these penalties. Mr. Kramer also 
provided these detailed reports to OSHA prior to the Agency inspecting 
and citing Mid-America Steel Drum for serious safety violations.
    Why were the citations issued by OSHA not classified as willful 
violations since both OSHA and Mid-America Steel Drum were made aware 
of the safety violations by Will Kramer prior to the OSHA investigation 
and the company being cited for 15 serious violations?
    Answer. The inspection at the Milwaukee site was opened on October 
27, 2016, after receiving an employee complaint, 4 months prior to the 
Milwaukee Journal article citing allegations.
    The actions and classification of penalties as established in 
statute and the Occupational Safety and Health Administration's (OSHA) 
Field Operations Manual were appropriate for the actual worksite 
conditions identified by OSHA. The evidence indicated that the employer 
had taken steps to correct hazards, and was actively working to improve 
the overall safety and health of the facility. OSHA documented and 
issued serious violations during the inspection. The evidence gathered 
during the inspection did not prove the employer demonstrated 
intentional disregard or plain indifference to workplace safety and 
health hazards. At the time of the inspection, the employer had taken 
actions to correct items identified in the self-audit, and hired a 
different safety consultant firm to develop safety programs and train 
workers.
                                 ______
                                 
            Questions Submitted by Senator Joe Manchin, III
       dislocated worker grants to help fight the opioid epidemic
    Question. Secretary Acosta, I was pleased to see that the 
Department of Labor has announced new grants to help communities fight 
the opioid epidemic by helping those in recovery gain job skills or by 
helping communities train the professionals needed to provide substance 
use disorder treatment.
    These funds are desperately needed in a place like West Virginia 
where I hear all the time from businesses that they have jobs and they 
want to hire, but they simply can't find a clean worker. Our labor 
force participation rate is the lowest in the Nation at 53 percent.
    In the fiscal year 2018 omnibus, this Congress recognized the need 
to direct funding to the hardest hit States and I can assure you that 
no State has been hit harder than West Virginia--we've had the highest 
opioid overdose death rate in the country for years now.
    I applaud you for these grants, and I urge you to bring one of 
those pilot programs to West Virginia.
    Secretary Acosta, will you commit to working with me to address the 
opioid epidemic and bring much needed resources to West Virginia to 
help our workers train and our communities rebuild?
    Answer. The Department is committed to taking the steps necessary 
to end the opioid crisis. The Bureau of Labor Statistics Time-Use 
Survey found that 44 percent of prime-age men (aged 25--54) not in the 
labor force acknowledged taking pain medication the previous day. 
Recent studies suggested that up to 20 percent of the steady decline in 
labor force participation among prime-age men may be attributed to 
opioid use.
    The tragedies of opioid misuse and abuse devastate families and 
communities, and keep too many Americans out of the workforce. The 
importance of a job and work in reducing opioid abuse cannot be 
overstated. This is why the Department announced in March 2018 a 
National Health Emergency (NHE) Dislocated Worker Demonstration Grant 
Pilot Program--a grant program focused on returning individuals 
impacted by opioids to the workplace. Recently, the Department of Labor 
announced more than $22 million in this grant funding to six State 
grantees. The grants will be used to provide reemployment services for 
individuals impacted by the health and economic effects of widespread 
opioid use, addiction, and overdose. The six States receiving NHE 
Dislocated Worker Demonstration Grant funding are: New Hampshire 
($5,000,000); Pennsylvania ($4,997,287); Washington State ($4,892,659); 
Rhode Island ($3,894,875); Maryland ($1,975,085); and Alaska 
($1,263,194). The Department recently announced the availability of up 
to an additional $100 million for Trade and Economic Transition 
National Dislocated Worker Grants.
    For more information regarding the demonstration program and the 
Trade and Economic Transition National Dislocated Worker Grants , 
please review Training and Employment Guidance Letters No. 12-17 and 
No. 2-18, which provide information on eligible applicants, allowable 
activities, and application requirements.
    Additionally, the Department continues to provide grants to support 
the planning and implementation of workforce strategies for regions and 
communities that have been negatively impacted by changes in the coal 
economy. Since 2017, West Virginia has received a total of $1,056,000 
in Dislocated Worker Grants for coal-related projects.
    The Department is committed to helping Americans recover, rebuild, 
and get back to work.
                                 ______
                                 
            Questions Submitted by Senator Patrick J. Leahy
                             gender pay gap
    Question. April 10 was Equal Pay Day, which highlights the 
outrageous fact that women are paid 80 cents on the dollar compared to 
men. Given the fact that Equal Pay Day is the same week as your 
appearance before the Subcommittee, I am disappointed that you chose 
not to make any mention of this issue in your written testimony.
    Please explain what actions the Department has taken under your 
leadership to close the gender pay gap.
    Answer. Wage discrimination on the basis of sex is illegal and 
wrong. To ensure compliance with Federal anti-discrimination laws and 
provide redress in the event violations are found, Executive Order 
11246 vests the Office of Federal Contract Compliance Programs (OFCCP) 
with the authority to investigate gender-based employment 
discrimination complaints and to remedy documented cases of pay 
discrimination for Federal contractors and subcontractors. Executive 
Order 11246 requires that Federal contractors and subcontractors take 
affirmative action, prohibits them from discriminating against 
applicants and employees on the basis of sex, and also prohibits 
discrimination against applicants or employees who discuss, disclose, 
or inquire about their compensation or the compensation of others, 
subject to certain limitations. The fiscal year 2019 President's Budget 
will focus OFCCP on doing high-impact systemic compliance evaluations, 
implementing agency reforms that strengthen the contractor training and 
education to support voluntary compliance with equal employment 
opportunity and nondiscrimination requirements.
    The Wage and Hour Division (WHD) also supports a robust enforcement 
and compliance assistance operation to ensure workers are remunerated 
fairly. WHD focuses many of its investigations in industries that 
typically employ large numbers of women workers. These industries, 
where labor violations are most prevalent, include the janitorial, 
healthcare, hotel, day care, garment, and restaurant industries. While 
WHD does not report gender-disaggregated back wage recovery data, in 
fiscal year 2017, WHD recovered more than $270 million in back wages 
for more than 240,000 employees, an average of $1,114 per person. In 
fiscal year 2017, WHD concluded more than 29,000 cases.
    In addition to enforcing wage protections, WHD also enforces the 
provisions of the Family and Medical Leave Act (FMLA), which entitles 
eligible employees of covered employers to take unpaid, job-protected 
leave for specified family and medical reasons. These protections can 
make a critical difference in women's ability to deliver on family 
caregiving obligations without sacrificing job security and long-range 
earning potential. In fiscal year 2017, WHD recovered almost $1.5 
million in back wages for FMLA violations by employers.
    The gender wage gap is a complex issue influenced by a variety of 
factors. The Department, through a combination of research and 
analysis, compliance and enforcement activities, and direct service 
programming delivered through the Federal workforce development system, 
is working to address this issue. The Women's Bureau serves an 
important role at the Department, utilizing research and educational 
tools to better understand and inform the public of the factors that 
may drive the gender wage gap. The fiscal year 2019 President's Budget 
will allow the agency to undergo reforms to focus on a narrower set of 
high-priority policy issues, working in close coordination with the 
White House and other Federal agencies.
    The Employment and Training Administration also supports programs 
to provide workforce development services for female workers. For 
example, the Women's Bureau is collaborating with the Office of 
Apprenticeship to recruit and retain women in pre-apprenticeship and 
apprenticeship programs as potential pathways for women to non-
traditional occupations that may have higher average salaries.
                          combating wage theft
    Question. Wage theft is a serious problem that robs hardworking 
Americans of the paychecks that are duly owed to them. According to a 
Politico investigation in February, 41 percent of wages that employers 
are ordered to pay back to employees are not recovered. Lack of 
enforcement of our wage laws results in an estimated $15 billion in 
lost wages for American workers. The same article noted that the 
Department had more wage and hour investigators in 1948 than it does 
today, despite the fact that there are seven times as many workers 
currently in the workforce.
    I appreciate the work the Department of Labor does to combat wage 
theft. You previously testified before the Senate Commerce Committee 
that you do not need additional authority to enforce our wage laws.
    What additional resources would the Department need to make a more 
meaningful impact on wage theft?
    Answer. The recent media investigation you reference focuses on 
enforcement of State and local minimum wage laws, not the Fair Labor 
Standards Act (FLSA). The Wage and Hour Division (WHD) understands that 
various States and localities have implemented laws that require a 
higher minimum wage than the FLSA requires, and that some States may 
not robustly enforce their minimum wage laws. WHD does not have 
jurisdiction, however, to enforce States' or localities' minimum wage 
laws.
    The President's Budget Request for the Wage and Hour Division (WHD) 
requests $230,068,000 and 1,393 full-time employees (FTE) in fiscal 
year 2019, which is an additional $2,568,000 and 38 FTE above the 
fiscal year 2018 enacted funding level. WHD is committed to maximizing 
its resources to achieve the greatest level of compliance. WHD uses 
strategies to plan the optimal deployment of resources and resolution 
of cases, focusing investigations on employers with the most serious 
violations, and publicizing the results in order to educate and deter 
other employers from violating the law. The fiscal year 2019 
President's Budget proposed investments provide resources of updated 
and modernized compliance assistance, and its accompanying technology, 
to allow WHD to engage with industry leaders at the national, regional, 
and local level. These additional resources will enable WHD to operate 
more efficiently, to expand on its efforts to fully and fairly enforce 
the law, and to make compliance information more accessible and 
understandable to the employer community.
    WHD's enforcement remains strong. In fiscal year 2017, WHD found 
more than $270 million in back wages--the second-highest amount WHD has 
ever recorded--for more than 240,000 workers.
    Question. At a minimum, do you support restoring the number of wage 
and hour investigators to the 1948 level? If yes, what would this cost? 
And if not, why not?
    Answer. At current levels, WHD's staffing is in line with 
historical levels, and WHD's enforcement remains strong. In fiscal year 
2017, WHD found more than $270 million in back wages--the second 
highest-amount WHD has ever recorded--for more than 240,000 workers.
         publication of secretary's travel and meeting schedule
    Question. On December 26, 2017, Politico published an article 
noting the limited public availability of your travel and meeting 
schedule.
    As someone who has long sought more transparency in our government, 
can you explain what if any steps you have taken since the publication 
of that article to improve public access to your travel and meeting 
schedule?
    Answer. At the Secretary's direction, the Department posts the 
Secretary's monthly calendar on its website: https://www.dol.gov/dol/
foia/readroom.htm.

                          SUBCOMMITTEE RECESS

    Senator Blunt. And the subcommittee hearing is adjourned.
    [Whereupon, at 11:59 a.m., Wednesday, April 12, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]
</pre></body></html>
